<html>
<title> - AMATEUR SPORTS INTEGRITY ACT, S. 718</title>
<body><pre>[Senate Hearing 107-1092]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1092

                  AMATEUR SPORTS INTEGRITY ACT, S. 718

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 26, 2001

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





                  U.S. Government Printing Office
88-464 PDF                 Washington : 2004

____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                JOHN B. BREAUX, Louisiana
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
PETER G. FITZGERALD, Illinois        RON WYDEN, Oregon
JOHN ENSIGN, Nevada                  MAX CLELAND, Georgia
GEORGE ALLEN, Virginia               BARBARA BOXER, California
                                     JOHN EDWARDS, North Carolina
                                     JEAN CARNAHAN, Missouri
                  Mark Buse, Republican Staff Director
               Ann Choiniere, Republican General Counsel
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 26, 2001...................................     1
Statement of Senator Breaux......................................    52
Statement of Senator Brownback...................................     5
    Prepared statement...........................................     5
Statement of Senator Edwards.....................................    48
Statement of Senator Ensign......................................     3
Statement of Senator McCain......................................     1
    Prepared statement...........................................     2

                               Witnesses

Adams, Michael F., President of the University of Georgia........    58
    Prepared statement...........................................    59
Berkley, Hon. Shelley, U.S. Representative from Nevada...........     8
    Prepared statement...........................................    11
Friday, William, President Emeritus, University of North Carolina    57
Gibbons, Hon. Jim, U.S. Representative from Nevada...............    16
    Prepared statement...........................................    17
Graham, Hon. Lindsey, U.S. Representative from South Carolina....    20
Hartle, Terry W., Senior Vice President, American Council on 
  Education......................................................    64
    Prepared statement...........................................    66
Hurd, Tracy Dodds, Associate Sports Editor, Cleveland Plain 
  Dealer.........................................................    38
    Prepared statement...........................................    40
Ivory, Titus Lovell, Student-Athlete, Pennsylvania State 
  University.....................................................    29
    Prepared statement...........................................    30
Looney, Ed, Director, Council on Compulsive Gambling.............    61
Newell, Pete, Coach, Member of the Basketball Hall of Fame.......    41
    Prepared statement...........................................    43
Osborne, Hon. Tom, U.S. Representative from Nebraska.............    12
    Prepared statement...........................................    14
Reid, Hon. Harry, U.S Senator from Nevada........................     7
Roemer, Hon. Tim, U.S. Representative from Indiana...............    18
    Prepared statement...........................................    19
Saum, William S., Director of Agents, Gambling and Amateur 
  Activities, National Collegiate Athletic Associations..........    69
    Prepared statement...........................................    71
Shaffer, Howard J., Ph.D., C.A.S., Associate Professor, Harvard 
  Medical School, Division of Addictions.........................    31
    Prepared statement...........................................    33
Sheridan, Danny, Writer, USA Today...............................    25
    Prepared statement...........................................    27
Williams, Gary, Head Basketball Coach, University of Maryland....    24

                                Appendix

Holtz, Lou, Head Football Coach, University of South Carolina....    85
Hynes, Charles J., District Attorney, Kings County, New York.....    86
Letter to Hon. John Ensign and Hon. Harry Reid from Dennis 
  Neilander, Chairman, State of Nevada Gaming Control Board, 
  Carson City, Nevada............................................    89
Letters to Hon. John McCain from:
    Dean Smith, Men's Basketball, University of North Carolina...    87
    Richard Buchanan, Vice President and General Counsel, 
      National Basketball Association; William L. Daly, Executive 
      Vice President and Chief Legal Officer, National Hockey 
      League; Jeffrey Pash, Executive Vice President, National 
      Football League; Tom Ostertag, Senior Vice President and 
      General Counsel, Office of the Commissioner of Baseball....    90
Price, Nancy, North Las Vegas, Nevada............................    88

 
                  AMATEUR SPORTS INTEGRITY ACT, S. 718

                              ----------                              


                        THURSDAY, APRIL 26, 2001

                               U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m. in room 

SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. Next we will address The Amateur Sports 
Integrity Act, S. 718. I will make a brief opening statement 
and I will ask my colleagues to do the same. We have two panels 
of witnesses to get through today, and so we will do everything 
we can, at least from this side, on behalf of brevity.
    We're back again this year to pass a measure I am confident 
will receive broad support if it's taken up before the full 
Senate. The Amateur Sports Integrity Act, S. 718, which I 
introduced last month with my colleagues Senators Brownback, 
Jeffords, Edwards and Fitzgerald, does two things: it amends 
the Ted Stevens Olympic and Amateur Sports Act to make it 
illegal to gamble on Olympic, college, and high school sports, 
and it authorizes appropriations for the National Institute of 
Standards and Technology to fund the detection and prevention 
of athletic performance-enhancing drugs.
    The Amateur Sports Integrity Act implements a 
recommendation made by the congressionally created National 
Gambling Impact Study Commission in response to the 
commission's concerns regarding scandals in recent years 
involving college athletes, the extent of gambling among 
college athletes in general, the way in which legal gambling 
facilitates illegal gambling, and the mixed message that is 
sent to our youth, when we allow gambling on amateur athletics 
in one State while banning it in all others.
    In its final report, the National Gambling Impact Study 
Commission recommended that betting on collegiate and amateur 
athletic events be banned altogether. Senate Bill 718 
accomplishes just that. Just as the use of performance-
enhancing drugs threatens the integrity of amateur sports, so 
does gambling.
    Betting on amateur athletics invites public speculation as 
to the legitimacy of the competition and transforms student 
athletes into objects to bet upon. Adding unwarranted pressure 
from corrupting influences to the underlying pressures that 
these intensely competitive young people already feel is 
unacceptable.
    Although the Amateur Sports Integrity Act bans legal 
gambling on amateur athletics, I expect it will also reduce a 
substantial amount of illegal gambling as well. The 
relationship between legal and illegal gambling was addressed 
by the NGISC, which observed that, ``legal sports wagering, 
especially the publication in the media of Las Vegas and 
offshore-generated point spreads, fuels a much larger amount of 
illegal sports wagering.''
    I won't pretend, however, that closing the one State 
loophole on legal gambling on amateur sports will put an end to 
illegal gambling on these athletes and competitors.
    For this reason I say to my colleagues who are backing a 
bill that has the support of the gaming industry that provides 
additional resources to combat illegal gambling, I agree with 
the intent of your legislation, appreciate your recognition 
that gambling on amateur athletics is a problem that must be 
addressed at the Federal level. That bill, however, while 
perhaps acceptable as a complement, is not acceptable as an 
alternative to the Amateur Sports Integrity Act.
    Senator Ensign.
    [The prepared statement of Senator McCain follows:]

                Prepared Statement of Hon. John McCain, 
                       U.S. Senator from Arizona
    We are back this year to try to pass a measure that I am confident 
will receive broad support if it is taken up before the full Senate. 
The Amateur Sport Integrity Act, S. 718, which I introduced last month 
with my colleagues Senators Brownback, Jeffords, Edwards, and 
Fitzgerald, does two things: it amends the Ted Stevens Olympic and 
Amateur Sports Act to make it illegal to gamble on Olympic, college, 
and high school sports, and it authorizes appropriations for the 
National Institute of Standards and Technology to fund the detection 
and prevention of athletic performance-enhancing drugs.
    The Amateur Sports Integrity Act implements a recommendation made 
by the congressionally created National Gambling Impact Study 
Commission in response to the Commission's concerns about scandals in 
recent years involving college athletes, about the extent of gambling 
among college athletes generally, about the way in which legal gambling 
facilitates illegal gambling, and about the mixed message we are 
sending to our youth when we allow gambling on amateur athletics in one 
State while banning it in all others.
    In its final report, the Gambling Impact Study Commission 
recommended that betting on collegiate and amateur athletic events be 
banned altogether. Senate bill 718 accomplishes just that. Just as the 
use of performance enhancing drugs threatens the integrity of amateur 
sports, so does gambling. Betting on amateur athletics invites public 
speculation as to their legitimacy and transforms student athletes into 
objects to be bet upon. Adding unwarranted pressure from corrupting 
influences to the pressures that these intensely competitive young 
people already feel is unacceptable.
    Equally important, although the Amateur Sports Integrity Act bans 
legal gambling on amateur athletics, I expect that it also will reduce 
a substantial amount of illegal gambling as well. The relationship 
between legal and illegal gambling was addressed by the NGISC, which 
observed that ``legal sports wagering--especially the publication in 
the media of Las Vegas and offshore-generated point spreads fuels a 
much larger amount of illegal sports wagering.'' I won't pretend, 
however, that closing the Nevada loophole on legal gambling on amateur 
sports will put an end to illegal gambling on these athletes and 
competitions. For this reason, I say to my colleagues who are backing a 
bill that has the support of the gaming industry and that provides 
additional resources to combat illegal gambling--I agree with the 
intent of your legislation and appreciate your recognition that 
gambling on amateur athletics is a problem that must be addressed at 
the Federal level. The direction of that bill, however, while perhaps 
acceptable as a complement, is not acceptable as an alternative to the 
Amateur Sports Integrity Act.
    I look forward to hearing from our witnesses and to moving this 
legislation at the earliest possible time.

                STATEMENT OF HON. JOHN ENSIGN, 
                    U.S. SENATOR FROM NEVADA

    Senator Ensign. Thank you, Mr. Chairman.
    Mr. Chairman, as the Senator from Nevada where legal, 
regulated amateur sports betting takes place, I am looking 
forward to hearing from our witnesses today, and I am confident 
their testimony will confirm what I already know, that a ban on 
legal sports betting will only drive more money underground, 
lining the pockets of the Al Capones' of this world, and will 
not make a dent in illegal gambling on college campuses.
    Mr. Chairman, I believe the facts are on my side of this 
debate, but the emotion is on yours. I share your concern about 
the widespread gambling on college campuses. I want to make 
sure that sporting events are conducted fairly, untainted by 
scandal, that college athletes are not pressured by bookies to 
throw games or shave points.
    And congressional action may be needed to accomplish this 
goal, since the NCAA and college administrators have really 
done very little to curb college gambling. Let's work together 
to find a solution to fit the problem, instead of unfairly 
blaming it on Nevada.
    Legal and regulated sports wagering represents less than 1 
percent of all sports betting in this country. It is not the 
problem. Illegal gambling is, and we should be spending our 
time looking at the most effective ways to combat illegal 
gambling.
    The NCAA knows that gambling on college campuses is a major 
problem. A survey of division 1 male basketball and football 
players, commissioned by the NCAA, found that over one-fourth 
gambled on college sports, some of them on their own games.
    A University of Michigan survey revealed that nearly half 
of all male student athletes gambled on college and 
professional sports. These college athletes aren't flying to 
Las Vegas to lay down their bets. By and large, they are 
betting through illegal campus bookies, or over the Internet.
    As a matter of fact, it is illegal to place a bet with a 
Nevada sports book unless you are physically present in the 
State of Nevada. And any bet over $3,000 today requires a 
picture ID to lay a bet down with a Nevada sports book.
    Students on college campuses don't even have to leave their 
dorm room today to place a call or access one of the thousand 
sports betting sites on the Internet. When we look at the most 
recent points shaving scandals, which happened about 7 years 
ago, Northwestern and Arizona State Universities, we find that 
the players involved owed money to illegal bookies, not Las 
Vegas casinos.
    So what is the NCAA doing to stop illegal gambling on 
college campuses and protect its players? Very little. Last 
year the NCAA spent only $229,000 of its over $300 million 
budget on combatting illegal gambling. That's about three cents 
for each student attending an NCAA school. In fact, the NCAA 
spent 40 times more on marketing and promotion, not on the 
games, but just on the NCAA itself, than on fighting illegal 
sports betting on college campuses.
    It's time for the NCAA to put its money where its mouth is 
and show a true commitment to fighting sports betting on 
college campuses. CBS is paying the NCAA $6 billion over the 
next 11 years to broadcast just the March Madness basketball 
tournament, not including the rest of the college basketball 
games, or any of the college football games. How much of that 
$6 billion is the NCAA going to be using to protect college 
athletes from the clutches of illegal bookies?
    Banning legal, regulated sports betting in Nevada for 
adults of at least 21 years of age and physically present in my 
state's borders will not reduce the number of games that are 
fixed. To the contrary, there were more than 20 schools 
involved in NCAA point shaving incidents before Las Vegas 
sports books were established in 1975, and only four--actually 
only two--that were indicted since that time.
    Right now, Nevada's Gaming Control Board is the only 
mechanism in place to monitor sports betting to see if there's 
any point shaving or fixing going on. The biggest gift you 
could give to organized crime is to get rid of the legal 
wagering on college sports in Nevada, and thus eliminating all 
oversight.
    And students will continue to do what they are doing today. 
Nothing in your legislation, Mr. Chairman, will stop Internet 
or illegal sports betting in America. As a matter of fact, you 
mentioned the line produced by the Nevada books. The newspapers 
will continue to produce the lines, I will produce 
documentation that says exactly that later.
    The Las Vegas books are actually one of just a very small 
percentage of people who produce lines. Certainly the Internet 
is one of the biggest places where the lines are produced and 
those are happening from offshore websites. Nothing we can do 
in this Congress can stop that have happening.
    Mr. Chairman, there is no such thing as the Las Vegas 
loophole. You should be thankful for college sports betting in 
Nevada, because the coach of Arizona State was informed during 
half time of a possible fix because of the Nevada sports books. 
They had alerted the FBI and the Pac 10 conference of betting 
irregularities, which helped catch this scandal.
    Once again, I must repeat, there is no loophole in the law. 
When Congress passed legislation which limited sports betting, 
it was conscious that it was moving into an area that was in 
the purview of states' rights.
    So Mr. Chairman, let me conclude with this. I believe that 
the facts of the hearing today will prove that banning legal 
sports betting in Nevada will do nothing but make illegal 
sports betting in this country proliferate, and will do nothing 
to solve the problem of sports betting on college campuses 
across America. Thank you.
    The Chairman. Thank you, Senator Ensign. And for the 
record, the facts are that there was no apprehension or 
revelation of the ASU basketball scandal until the arrest of an 
individual on an unrelated charge, who then, in order to get a 
reduced sentence on an unrelated charge, ratted out or informed 
the authorities about the scandal. There was no uncovering of 
this scandal at ASU by any gaming authority in the State of 
Nevada.
    Senator Brownback.

               STATEMENT OF HON. SAM BROWNBACK, 
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. Thank you, Mr. Chairman, and thank you 
for holding the hearing. It's a bit of an uncomfortable spot 
for me to be in, next to my very good friend in the Senate, 
John Ensign, who is a very effective advocate for the other 
side, but this is one of only a couple of issues that I can 
think of that I disagree with Senator Ensign on.
    I have a full statement that I'd like to have submitted 
into the record, Mr. Chairman, if you wouldn't mind, and I 
would renew my request to the Nevada delegation, much of which 
is here today, and I appreciate your appearance, to give states 
the option to opt out of your Sports book.
    Senator Ensign. Not much, we're all here.
    Senator Brownback. Very good, then let me plead to all of 
you, to allow the University of Kansas, Kansas State 
University, if you will set up a mechanism where a state can 
get off of your Sports book in your state, let us do it. Let us 
free.
    And then allow the states to move forward and say OK, 
Arizona State wants off the book, and put forward a procedure 
to let us off of your book so our coaches and our institutions 
can say, you know, we don't want to be on those things, and we 
need to be able to get off of it, instead of forcing them to be 
able to deal with the problems that you create by causing and 
having a market, a Sports book in Nevada.
    I pleaded with you last year to allow us that option to get 
our schools out. It was turned away, it was turned away by the 
Nevada gambling commission or gaming board. Please let us free. 
In honesty, I don't think you make that much money off of 
Kansas institutions, KU and K State, and the other institutions 
in the state. We're not a whole lot of money to you. Let us 
free. Please let us do that.
    I support what the Chairman has put forward in his 
statement. This is an overall problem that we have in this 
country. The legislation that's been put forward is supported 
by all of the college coaches in the institutions probably 
except those in Nevada. It's supported by all the college 
presidents perhaps expect those in Nevada. They are asking and 
requesting that we change this and that we create a national 
system where you cannot have this betting take place on amateur 
sports in the United States. We should do it.
    Mr. Chairman, thank you for holding the hearing and I look 
forward to the question and comment session.
    [The prepared statement of Senator Brownback follows:]
               Prepared Statement of Hon. Sam Brownback, 
                        U.S. Senator from Kansas
    I am pleased that the Committee will once again consider and 
approve the Amateur Sports Integrity Act.
    My friends, during today's session we will discuss the merits of 
legislation, the Amateur Sports Integrity Act, that, quite frankly, is 
a no brainer. S. 718 will ban the continued unseemly practice of legal 
wagering on high school, college, and amateur sports at the expense of 
the achievements of our nation's student athletes. This bill closes the 
loophole in the Professional and Amateur Sports Protection Act of 1992 
that allows legal sports betting in Nevada to negatively impact student 
athletics in other States.
    My continuing efforts on this issue are in direct response to the 
recommendation made by the National Gambling Impact Study Commission 
(NGISC), which in 1999 concluded a 2-year study on the impact of 
legalized gambling in our country. The Commission's recommendation 
called for a complete ban on all legalized gambling on amateur sports.
    This legislation will serve notice that betting on college games or 
amateur athletics is simply inappropriate. We can not continue to allow 
bets to be placed on our student athletes.
    In addition, not only is legal sports gambling inappropriate, but 
it can result in significant social costs. The Commission in its report 
recognized the potential harm of legalized sports gambling, which ``can 
serve as a gateway behavior for adolescent gamblers, and can devastate 
individuals and careers.'' Citing a study by the National Research 
Council, the NGISC identified financial, physical, and emotional 
problems, including divorce, domestic violence, and child abuse and 
neglect as some of the costs S. 718 now seeks to prevent.
    The Commission's recognition of sports gambling as a gateway 
behavior leading to these problems is especially troubling considering 
the heightened affect gambling has on our nation's young people. 
According to the NGISC, ``individuals who begin gambling at an early 
age run a much higher lifetime risk of developing a gambling problem.'' 
In addition, ``[a]dolescent gamblers are more likely than adults to 
develop problem and pathological gambling.'' We must also address the 
fact that legal gambling has a real and telling impact on student 
athletes, and appears to facilitate illegal gambling activity. If there 
are any doubts, just ask Kevin Pendergast who orchestrated the 
basketball point-shaving scandal at Northwestern. He has stated that he 
never would have been able to pull off his scheme if it weren't for the 
ability to lay bets with the Las Vegas sports books.
    The frequency of point shaving scandals over the last decade, and 
the tie-in to the Vegas sports books of the episode at Northwestern, 
and another scandal at Arizona State University, is a clear indication 
that legal gambling on college sports stretches beyond Nevada, 
impacting the integrity of other State sporting events. I categorically 
reject the notion that the integrity of Kansas college athletics should 
be jeopardized so the casinos in Nevada can rake in some additional 
gambling revenues. Until this past January, Nevada sports books were 
prohibited from taking bets on Nevada's own college teams. I think this 
prohibition speaks volumes about concerns we should have with the 
impact of betting on our college sporting efforts. While the repeal of 
this rule in Nevada is a reaction to the fact that it just happened to 
catch the attention of Members of this Committee, it cannot retract the 
message the rule has already delivered: even Nevada realizes that legal 
sports gambling has a corruptive impact on college sports.
    This bill is supported by the National Collegiate Athletic 
Association, which represents more than 1000 colleges and universities 
nationwide. In addition, numerous coaches among the college ranks 
support this effort, and I can think of no better advocate than the 
coaches who spend time day in and day out with the athletes and prized 
sporting institutions negatively affected by legal sports gambling.
    I urge my colleagues to support S. 718.

    Senator Ensign. Mr. Chairman, may I have a point of 
personal privilege?
    The Chairman. Sure.
    Senator Ensign. You responded to what I had said and 
actually this was on the Fox sports show, and Agent Noble, 
Special Agent Noble, there's a quote, admits that the FBI may 
have never known about the scam, referring to the Arizona 
state, if bookies didn't blow the whistle. Agent Noble actually 
said this quote.

          ``They have a pretty good idea on any particular game how 
        much money should be bet. When unusual amounts of money are 
        bet, it causes them to be alerted or alarmed, and in that 
        particular case, that's how we became aware of it.''

    The Chairman. That's not how they found out though. So your 
point has no relevance to my response, which is that the Nevada 
gaming commission or anyone else did not uncover nor bring any 
charges against anything to do with that scandal until the 
arrest of a confederate.
    Senator Ensign. But their information helped.
    The Chairman. You've had your point of personal privilege, 
Senator Ensign. Now I'd like to ask my colleagues to be brief. 
We have two additional panels to follow you, so I urge you to 
be brief in your comments on this issue since they are pretty 
well-known, and I ask for 3 minute statements.
    Senator Reid.

                 STATEMENT OF HON. HARRY REID, 
                    U.S SENATOR FROM NEVADA

    Senator Reid. Thank you very much, Mr. Chairman.
    I have always admired your going into areas where others 
don't go, and I've followed you most every time. But I have to 
say here that I would ask that you step back a little bit and 
look at the facts.
    For example, Mr. Chairman, the National Gambling Impact 
Study Commission, as you know from the evidence, there was very 
little testimony taken but what was taken was very, very 
important. For example, the commission found that the best 
evidence came from one of the NCAA's own witnesses, a man by 
the name of Bill Saum.
    Now here's what the NCAA's Bill Saum had to say when he 
testified before the Impact Study Commission, and I quote. 
Commissioner James Dobson asked this question.

          ``Mr. Saum, you address most of your comments to illegal 
        sports gambling. You didn't have much to say about legalized 
        gambling on sporting activities. Would you like to comment on 
        that?''

    Here is Saum's response.

          ``Certainly we would be adamantly opposed to any further 
        legalization across the United States. If we're going to have 
        sports wagering, let's keep it in Nevada and nowhere else. 
        Let's not allow individuals to wager from outside State lines.
          We also have a rule that our athletes, our coaches and 
        everyone involved in athletics including those of us at the 
        national level may not wager legally. So we're opposed to it. 
        But we also recognize that society, or a segment of society 
        believes that this is something that should be permissible, so 
        I don't think you will see the NCAA start a campaign to remove 
        sports wagering from the State of Nevada.''

    Mr. Chairman, I think this says it all. The NCAA is wrong 
in their attempt to do this. This is a Congress that has fallen 
in the line of the last 8 or 10 Congresses to have as one of 
its guiding principles of the recognization of states' rights. 
The State of Nevada is a sovereign state. They have made this 
decision. Out of the 100 percent of gambling that takes place 
on college athletics, about one and a half percent of it takes 
place in Nevada and is done legally.
    In your effort to stop something that you think is wrong, 
you're going after the wrong entity. Ninety-eight and a half 
percent of the gambling that takes place, I repeat, is done 
illegally, and it's not all done on college campuses. It's done 
on service stations, at pool halls and other places, where I 
think that that's where we need to take a look.
    Mr. Chairman, I believe that where you're going is wrong, 
and for me to say this to John McCain is hard, but I just think 
that you have not had the opportunity to fully understand this. 
I appreciate--you know, it would have been easy for you to just 
report this to the Senate floor, but I appreciate your holding 
hearings. I think the hearings today will be revealing to you.
    We have a Hall of Fame coach, we have others who are here 
to talk about why this is going to, as Senator Ensign said, 
drive this underground. There is in America something called 
organized crime, and they are around today licking their lips 
with the idea that John McCain, who is a person who is known 
for his principle, is trying to drive out a little bit of legal 
gambling in Nevada, because it just makes their opportunities 
more sure.
    So I would hope, Mr. Chairman, that you would take a real 
close look at what you're doing. Without your strong voice, 
with all due respect to my friend Sam Brownback, who is an 
outstanding member of the House of Representatives and the 
Senate, without your support, this is dead. The only reason 
this has gotten as far as it has is because John McCain is 
supporting it, and I think John McCain is wrong.
    The Chairman. I thank you, Senator Reid.
    Senator Brownback. I certainly thank you too. Your 
confidence in my abilities here was highly appreciated.
    Senator Reid. Well, I say, Sam, this is meant in no way to 
denigrate you, and I said you've done a great job. But John 
McCain is who he is, and I can't take that away from him.
    Senator Brownback. I thank you, Senator Reid. We've known 
and appreciated each other and been dear friends now for 18 
years and I appreciate it, and this too shall pass in one way 
or the other.
    Senator Reid. Mr. Chairman, may I be excused? The Senate is 
opening at 10 o'clock.
    The Chairman. Thank you very much, Senator Reid. Thank you 
for your advocacy.
    Senator Brownback. Mr. Chairman, could I ask, Mr. Reid, 
could you please ask the Nevada gaming board to let my State 
free on this? I mean, maybe I'm not a good national advocate, 
but would you ask them?
    The Chairman. I think the Senator from Kansas has made his 
point.
    Senator Brownback. Would you ask them for me?
    Senator Reid. Sam, I think your question is silly and I'm 
not going to answer it.
    The Chairman. OK. Thank you very much, Harry.
    I'd like to remind members of the audience that we don't 
tolerate that kind of display in the hearing room and we will 
not accept any further expressions of either appreciation or 
condemnation.
    Congresswoman Berkley, welcome.

              STATEMENT OF HON. SHELLEY BERKLEY, 
                U.S. REPRESENTATIVE FROM NEVADA

    Ms. Berkley. Thank you. Thank you for giving me the 
opportunity to discuss S. 718 and share with you my knowledge 
and very serious concerns.
    I am the only Member of the House with gaming industry 
experience. Having worked in the industry for many years I've 
seen firsthand the positive role gaming plays in the Las Vegas 
community.
    Having devoted 8 years of my life to higher education as an 
elected member of the Nevada University Board of Regents, I 
want to see illegal gambling on campuses eliminated. S. 718 is 
not the answer. Since coming to Congress, I've been astounded 
by the misconceptions about Nevada's gaming industry. The NCAA 
supporters of their legislation have been touting a number of 
misconceptions that must be cleared up.
    A February 22nd Dear Colleague letter stated that you can 
place bets on high school and Olympic sports in Nevada casinos. 
This is not true. The casinos in my district operate under 
strict State and local regulations that prohibit these types of 
wagers.
    That same letter insinuated that college games are scripted 
in the back rooms of legal gambling parlors. This accusation 
could not be further from the truth. There has never, never 
been an incident where a legal Nevada sports book has 
participated in scripting a game of any sort.
    Despite what the NCAA would have you believe, ending legal 
sports betting in Nevada will not stop the publications of 
betting lines. The Newspaper Association of America has stated 
clearly that ending wagering in Las Vegas will not stop its 
members from providing this information for interested readers.
    Anyone with a computer can get the point spreads for any 
game by logging onto hundreds of different offshore Web sites.
    This magazine that I'd like to present to you, Mr. Chairman 
features dozens of advertisements for online casinos. All 64 
schools in this year's NCAA tournament had Internet access on 
campus, even in the dormitories, to Internet gambling. And my 
son goes to the U of A in Tucson, and he told me of what was 
going on in the college campuses.
    I believe in local and State control. I believe in stiff 
penalties for any violation and I am adamantly in favor of a 
strong, effective bill to combat illegal sports betting. S. 718 
is not that bill. It takes an upside-down position that the 
nation's $380 billion a year illegal sports gambling problem 
will go away if Congress outlaws legal wagering in Nevada, a 
regulated business that generates far less than 1 percent of 
the bets on college sports.
    The sponsors of this legislation failed to answer the 
threshold question of how closing legal sports books in one 
State will do anything about the illegal wagering by college 
students and others in the other 49 states.
    The illegal gambling taking place in and around our 
nation's college campuses already violates numerous Federal, 
state, and local laws. Any college student placing bets on a 
campus is already committing a crime, and extremely unlikely to 
stop placing bets on sports regardless of the outcome of this 
legislation.
    There is not a single shred of evidence that S. 718 will 
have any effect on the illegal gambling currently taking place 
in our country. The NCAA argues that closing the legal sports 
books in Nevada will send a message to young people that 
gambling is illegal. With all due respect, I sincerely doubt 
whether young people care whether gambling is legal or not in 
Nevada, much less that Congress has acted.
    The NCAA and its member institutions already have the power 
to crack down on illegal betting taking place on campuses, they 
just haven't done it. The NCAA has done virtually nothing to 
stem the tide of illegal betting on college campuses, even 
though it just signed a $6 billion contract to broadcast 
collegiate games.
    The NCAA has chosen to make Nevada its scapegoat rather 
than mandate that their member institutions take their share of 
the NCAA profits and use it to develop programs to fight 
illegal college gambling. Ask the coaches who testify today if 
they are willing to give up their multimillion dollar Nike 
contracts, or if they are willing to make the same salary that 
the university presidents who hired them make, and use the 
extra income to create programs on their own campuses to fight 
illegal gambling.
    If the NCAA and Congress are really serious about fighting 
illegal amateur sports gambling, then let's get serious. I 
challenge the NCAA to take its multibillion dollar revenue, all 
generated by unpaid student athletes and not just a tiny 
fraction, and dedicate it to fighting illegal gambling through 
aggressive enforcement and prevention programs.
    We need a serious, real-world approach to this problem. 
Before our government tramples on legitimate states' rights, 
does irreparable damage to my state's budget, throws honest, 
hard working people out of their jobs and sets a dangerous 
precedent of Federal intrusion in the legal affairs of 
individual states, I ask you to abandon S. 718 and give full 
consideration to the legislation introduced by Senator Ensign 
and Senator Reid.
    The National Collegiate and Amateur Protection Act of 2001 
is the same legislation introduced in the House by Congressman 
Gibbons and me. Our bill boosts law enforcement's efforts to 
crack down on illegal betting operations, hitting hard at the 
illegal book making rings.
    Our bill would investigate the scope and uncover the causes 
of illegal campus betting. NCAA does none of those things. Our 
bill calls on the NCAA colleges and universities to step up 
gambling prevention programs on campuses. The NCAA-proposed 
bill takes no responsibility.
    Mr. Chairman, Nevada is not the problem. If you put the 
entire State out of work, you would not even touch the problem 
of illegal gambling unless to exacerbate it. The only way to 
deal with illegal sports gambling in the NCAA is head on.
    I challenge my colleagues to put an end to this destructive 
NCAA bill and give serious consideration to a bill that attacks 
illegal betting on our campuses.
    Thank you very much for allowing me to go over, and if I 
could have two more seconds, to Senator Brownback, who I think 
is an outstanding Senator, comparable to Senator McCain, as a 
former university regent who did dedicate 8 years of her life 
and has much dealings with the NCAA, I had the opportunity to 
meet many college presidents and athletic directors throughout 
my 8-year tenure. I contacted several of them.
    Not one that I contacted thought that S. 718 would get to 
the problem. But to be perfectly candid, when I asked them to 
come and testify with me, not one of them would, for fear of 
retribution by the NCAA. So when we say that all of the 
campuses and all of the coaches are opposed to sports betting 
in Nevada, I would beg to differ and I've spoken to more than a 
dozen of them. Not one of them, not one of them would come and 
testify for fear that their program would be in jeopardy. Thank 
you very much for your kind attention.
    [The prepared statement of Ms. Berkley follows:]

              Prepared Statement of Hon. Shelley Berkley, 
                    U.S. Representative from Nevada
    Thank you for the opportunity to discuss S. 718 and share with you 
my knowledge and very serious concerns about this issue. I am the only 
Member of the House with gaming industry experience. Having worked in 
the industry for many years, I have seen first-hand the positive role 
gaming plays the Las Vegas community. Having devoted 8 years of my life 
to higher education as an elected member of the Nevada University Board 
of Regents, I want to see illegal gambling on campuses eliminated. S. 
718 is not the answer.
    Since coming to Congress, I have been astounded by the 
misconceptions about Nevada's gaming industry. The NCAA and supporters 
of their legislation have been touting a number of misconceptions that 
must be cleared up.
    A February 22, Dear Colleague letter stated that you can place bets 
on high school and Olympic sports in Nevada casinos. This is not true. 
The casinos in my district operate under strict State and local 
regulations that prohibit these types of wagers.
    That same letter insinuated that college games may be ``scripted in 
the back rooms of the legal gambling parlors.'' This accusation could 
not be further from the truth. There has never been an incident where a 
legal Nevada sports book has participated in ``scripting'' a game of 
any sort.
    Despite what the NCAA would have you believe, ending legal sports 
betting in Nevada will not stop the publications of betting lines. The 
Newspaper Association of America has stated clearly that ending 
wagering in Las Vegas will not stop its members from providing this 
information to interested readers.
    Anyone with a computer can get point spreads for any game by 
logging on to hundreds of different offshore websites. This magazine 
previewing the college football season features dozens of 
advertisements for on-line casinos. All 64 schools in this year's NCAA 
tournament had internet access on campus, even in the dorms, to 
internet gambling.
    I believe in local and State control. I believe in stiff penalties 
for any violation, and I am adamantly in favor of a strong, effective 
bill to combat illegal sports betting.
    S. 718 is not that bill.
    S. 718 takes the upside-down position that the Nation's $380 
billion-a-year illegal sports gambling problem will go away if Congress 
outlaws legal wagering in Nevada, a regulated business that generates 
far less than 1 percent of the bets on college sports.
    The sponsors of this legislation fail to answer the threshold 
question of how closing legal sports books in one State will do 
anything about illegal wagering by college students and others in the 
other 49 States.
    The illegal gambling taking place in and around our Nation's 
college campuses already violates numerous Federal, State, and local 
laws. Any college student placing bets on campus is already committing 
a crime and extremely unlikely to stop placing bets on sports 
regardless of the outcome of this legislation. There is not a single 
shred of evidence that S. 718 will have any effect on the illegal 
gambling currently taking place.
    The NCAA argues that closing the legal sports books in Nevada will 
send a ``message'' to young people that gambling is illegal. With all 
due respect, I sincerely doubt that young people care whether gambling 
is legal in Nevada, much less that Congress has acted.
    The NCAA and its member institutions already have the power to 
crack down on illegal betting taking place on campuses--they just 
haven't done it.
    The NCAA has done virtually nothing to stem the tide of illegal 
betting on college campuses, even though it just signed a $6 billion 
contract to broadcast college games. The NCAA has chosen to make Nevada 
its scapegoat rather than mandate that their member institutions take 
their share of NCAA profits and use it to develop programs to fight 
illegal college gambling.
    Ask the coaches who testify today if they are willing to give up 
their multi-million dollar Nike contracts, or if they are willing to 
make the same salary as the university president who hired them and use 
that extra income to create programs on their own campuses to fight 
illegal gambling.
    If the NCAA and Congress are really serious about fighting illegal 
amateur sports gambling, then let's get serious. I challenge the NCAA 
to take its multi-billion dollar revenue, all generated by unpaid 
student-athletes, and not just a tiny fraction, and dedicate it to 
fighting illegal gambling, through aggressive enforcement and 
prevention programs.
    We need a serious, real-world approach to this problem.
    Before our government tramples on legitimate States' rights, does 
irreparable damage to my State's budget, throws honest, hardworking 
people out of their jobs and sets a dangerous precedent of Federal 
intrusion in the legal affairs of individual States, I ask you to 
abandon S. 718, and give full consideration to the legislation 
introduced by Senator Ensign and Senator Reid, the National Collegiate 
and Amateur Athletic Protection Act of 2001, which is the same as 
legislation introduced by Congressman Gibbons and I in the House.
    Our bill boosts law enforcement's efforts to crack down on illegal 
betting operations, hitting hard at the illegal bookmaking rings. The 
NCAA bill does absolutely nothing to help law enforcement.
    Our bill would investigate the scope, and uncover the causes, of 
illegal campus betting. The NCAA bill does nothing. No studies, no 
investigations, no educational programs--nothing.
    Our bill calls on the NCAA, colleges and universities to step up 
gambling prevention programs on campuses. The NCAA-proposed bill takes 
no responsibility.
    Mr. Chairman, Nevada is not the problem.
    If you put the entire State out of work, you would not even touch 
the problem of illegal gambling, unless to exacerbate it. The only way 
to deal with illegal sports gambling in the NCAA is head-on. I 
challenge my colleagues to put an end to this destructive NCAA bill, 
and give serious consideration to a bill that attacks illegal betting 
on our campuses.
    Thank you.

    The Chairman. Thank you very much, Congresswoman Berkley, 
and thank you for your passionate advocacy.
    Coach Osborne.

                STATEMENT OF HON. TOM OSBORNE, 
               U.S. REPRESENTATIVE FROM NEBRASKA

    Mr. Osborne. Thank you, Chairman McCain and members of the 
Committee. I appreciate this opportunity to speak with you 
about something that I've had some knowledge of over 36 years 
of coaching, and my feeling is that gambling is very bad for 
intercollegiate athletics, and for several reasons, actually 
four that I'm going to enumerate.
    First of all, it's very bad for the game, because when 
gambling is involved, the emphasis very quickly goes from that 
of excellence, competition and skill, to point spreads and 
money.
    And this certainly affects the atmosphere in which the game 
is conducted. Sportsmanship, respect for opponents is 
diminished, and certainly the integrity of the game is often 
compromised. In the nineties, we had four major point shaving 
scandals in NCAA athletics, and each time one of those 
occurred, there was always greater doubt in the mind of the 
fans as to the integrity of other contests.
    A recent study by the University of Michigan indicated that 
roughly one out of 20 male college athletes were involved in 
different activities, whether it be associations, gambling, 
whatever, that in some way cast aspersions on the game. And so 
it's a fairly widespread problem.
    And usually if you look into those allegations and point 
shaving scandals, you'll find that the reason they were 
uncovered was not because of a shift in the point spread or the 
odds. It was because somebody talked, because somebody got in 
trouble. And so I would like to make sure that people really 
investigate those as to why it happened.
    Second, I think the gambling industry has been very bad for 
the fans because the point spread, which is a very arbitrary 
number fixed by someone out there who hasn't probably even seen 
the team play, who knows nothing about the health of the 
quarterback and so on, or very little, shapes the expectations 
of the fans.
    And so if a team is a 28-point favorite, and they come into 
the game and half time and they are tied, probably going to get 
booed. And if you're a 28-point underdog and you only lose by 
7, sometimes your fans feel pretty good about you. I remember 
one case where we played a team for the national championship. 
They were a 17-point favorite, and in that particular case, 
they won by two points, first national championship that team 
had ever won in the history of the school.
    And I talked to some of their fans an hour after the game, 
and they were upset and they were unhappy. They won the first 
national championship they had ever won, but they only won by 
two points and that wasn't what they expected and that 
expectation was shaped primarily by the point spread.
    The third thing I'd mention that I think is very important 
is that gambling is tough for the coaches, because when you are 
involved with that particular situation, you have to win twice. 
You have to win on the score board, and then many people expect 
you to beat the point spread. We had a few times when we were 
35-point favorites, and that meant at kickoff, we were down 35 
in the minds of a great number of our fans and the people who 
watched the game.
    If it happened to be snowing or the wind was blowing 40 
miles an hour, if your quarterback went down in the first 
period of the game, you probably weren't going to score 35 
points against your scout team, but you were still expected to 
get it done. And if you didn't get it done, it was very 
unpopular.
    And so for the first few years of my coaching career, I 
read somewhere that Woody Hayes, the coach at Ohio State, never 
had an unlisted number. And so I thought, well, if it's good 
enough for Woody Hayes, it's good enough for me. And so I 
didn't have an unlisted number, and after a few dozen phone 
calls in the middle of the night, many of them fairly obscene 
and some of them affecting my family, I decided I better get at 
least an unpublished number.
    And most of those phone calls, not all, but most of them, 
if you talked to the guy long enough, you'd find out that at 
the bottom of his animosity was not the fact that we lost the 
game, it was the fact that he lost a bet. And he would blame 
me.
    And so often they would say you cost me $500, you cost me 
$1,000, and I would say, well, how did I do that. They would 
say, well, I lost a bet. So some of those things happened. I 
had a few death threats, had a mailbox blown up, and my family 
at some times was subjected to some criticism. And I existed in 
a very good, generally healthy environment, as far as college 
athletics were concerned, and our fans were very good for the 
most part.
    But still, those things did happen, and usually, again, if 
you had any way to get at the source, you'd find that 
oftentimes a lost bet really fueled the fire.
    And then last I'd mention that gambling is bad for the 
players. As has been mentioned previously and very accurately, 
there is a huge gambling problem on college campuses, and 
there's no question that this bill alone is not going to solve 
the problem. I agree totally with that.
    But on the other hand, I think we have to look at the fact 
that players, athletes live in an environment where gambling is 
very, very prevalent. There's probably a bookie in most dorms 
and most fraternities on college campuses. Gambling over the 
Internet is very easy. And so there's that environment.
    If you think that you know as a player a little bit better 
what the odds ought to be, you're going to play a game and 
you're favored by seven and the team is practicing well and 
everything is in sync and you think maybe you're going to win 
by 14 or 17, you place a bet.
    You know, it's kind of harmless, you're betting on your own 
team. And then you lose a bit, and you lose a little bit more, 
and pretty soon you're in debt and you're to the point where 
you're in over your head. And then somebody suggests, well, you 
know, you don't have to lose the game, but just drop a pass, or 
miss a free throw. And that's where it all starts, and that's 
where most of these point shaving allegations have resulted.
    I remember one time we had a guy come in who was a very 
famous quarterback, professional quarterback and got involved 
in gambling. We had him talk to our team because he was 
supposedly recovered. And he made a very graphic presentation 
of the evils of gambling, and strangely enough, about a year 
later, that same guy was back in prison for the same thing. He 
couldn't shake it.
    So it really does affect our players, it affects the 
integrity of the game, and I might just last say this. I see no 
socially redeeming value to gambling on intercollegiate sports. 
I see nothing, nobody in a legitimate way is benefiting in 
terms of the fans, the players, the game itself, and the 
coaches.
    And so, I guess in my final statement, I would say this. 
Would we say that counterfeiting should be legal in one State 
and not in 49 others, particularly if there may be some 
interconnection? And my feeling is, in terms of consistency, in 
terms of consistent message, it's important that you make a 
uniform statement to the public, and then you go after all 
forms of gambling that are illegal, but you first have to make 
that statement to be consistent in Congress.
    [The prepared statement of Mr. Osborne follows:]
                Prepared Statement of Hon. Tom Osborne, 
                   U.S. Representative from Nebraska
    Thank you, Chairman McCain, Ranking Member Hollings, and Members of 
the Committee. I appreciate the opportunity to speak with you today 
about something that is near and dear to me--the effects of legal 
gambling on college sports.
    In my 36 years as a coach of the University of Nebraska football 
team, I witnessed first-hand the negative impact gambling can have on 
college athletics. The following observations are based upon some of 
the experiences and insights gained in coaching.
    (A) Organized gambling is bad for the game. The emphasis goes from 
that of appreciation for excellence and skill to point spreads and 
monetary gain. The best interests of athletic competition are served in 
an atmosphere that is conducive to good sportsmanship and respect for 
opponents. Gambling creates an environment antithetical to wholesome 
competition and sometimes creates doubt as to the integrity of the 
contest.
    (B) Organized gambling often has a negative impact on the fans. The 
point spread is an arbitrary number that supposedly reflects the true 
strength of competing teams. Sometimes the point spread is based on 
inaccurate or incomplete information. Point spreads are published in 
nearly every newspaper and are mentioned on television and radio 
newscasts to the degree where fans' expectations are largely shaped by 
information from the gambling industry. If a team is favored by 28 
points and wins by 3, in the minds of many fans the win is really a 
loss. If, on the other hand, a team is a 21-point underdog and only 
loses by 7 points, the loss is viewed in a more favorable light. I 
recall talking to some fans whose team had just won the first national 
championship in school history, yet, rather than being excited they 
were disappointed because their team, a 17-point favorite, had won by 
only 2 points. Fans often have a difficult time seeing the athletic 
contest for what it was meant to be, that of a contest of skill, 
intelligence and endurance, because they get lost in the economics of 
gambling.
    (C) Organized gambling is bad for coaches. Many times the coach is 
expected to win twice--once on the scoreboard and once by beating the 
point spread. A coach in charge of a team listed as a 35-point favorite 
starts the game behind 35-0 in the minds of the gambling community, 
which includes a high percentage of fans. If the coach's team is 
heavily favored and is tied at halftime, there is a good chance that 
the team and the coach will be booed at halftime. Most of the truly 
ugly incidents that I encountered in my coaching profession were 
related to gambling. I have had a mailbox blown up, a few death 
threats, obscene phone calls in the middle of the night, and have heard 
the very common complaint that ``You cost me x amount of dollars.'' 
Since we did not beat the point spread, the person who lost the bet 
held the coach personally accountable for the gambling loss. Many times 
it is highly unpopular with fans to substitute second- and third-team 
players once the outcome of the contest has been decided if the point 
spread has not been beaten. The second- and third-team players need the 
experience and greatly appreciate the opportunity to play, yet their 
appearance in the game is not greeted with enthusiasm if it might 
jeopardize beating the point spread. Similarly, not scoring a late 
touchdown or basket by letting the clock run out is viewed with great 
displeasure if there are point spread implications.
    (D) Organized gambling is bad for the players. There is a huge 
amount of gambling on college campuses. This activity is heavily 
influenced by point spreads. Very few athletic contests are viewed as 
even matches; therefore, point spreads are established to provide 
bookies with a basis for gambling odds. Players sometime accumulate 
gambling debts, and, when a debt grows to a certain magnitude, 
pressures are put upon the player to alter his/her play in the game to 
affect the point spread. A great many of the point shaving incidents 
that have hurt college athletics so badly and have left the athletes in 
dire straights, have been prompted by gambling debts that have mounted 
to the point where the athlete sees no other way to pay for the debt.
    Gambling intensifies pressure on athletes. The player shooting a 
free throw with only 2 seconds left in a game in which his team has 
been favored by 10 points and is leading by 9 is unnecessarily 
pressured. The game is over as far as the win or loss column, yet 
making the free throw can result in millions of dollars changing hands.
    Gambling on intercollegiate athletics is illegal everywhere but Las 
Vegas. It is in the best interests of everyone involved in 
intercollegiate athletics to have gambling banned everywhere in the 
United States.
    Thank you again, Chairman McCain and Members of the Committee for 
allowing me to speak to you today about this very important issue. It 
is seldom I get to speak on an issue here in Congress in which I have 
so many years of experience dealing first-hand with the issue and I 
appreciate the opportunity to do so today.

    The Chairman. Thank you, coach.
    Do you know a single college coach who is not in support of 
this bill and concerned about this issue?
    Mr. Osborne. I really don't, Senator, and maybe the former 
statement is true, I don't know. Let me say this. I'm not here 
on behalf of the NCAA.
    Nobody from the NCAA approached me, talked to me. The only 
person that talked to me was Lindsey Graham, that's why I'm 
here. I'm not a big fan of the NCAA at times. I think they do a 
very necessary service, but I really would doubt that I know 
anybody in intercollegiate athletics who would say that 
gambling is something that they want to have legalized.
    The Chairman. Thank you. Congressman Gibbons, welcome.

                STATEMENT OF HON. JIM GIBBONS, 
                U.S. REPRESENTATIVE FROM NEVADA

    Mr. Gibbons. Thank you, Mr. Chairman, and members of the 
Committee, and I do want to thank you for the privilege of 
being here before you with a familiar recurring theme, and I 
would ask unanimous consent that my statement be admitted to 
the record and I'll try to summarize and be as brief as 
possible.
    The Chairman. Without objection, and again I want to say 
that you are always welcome here. The Nevada delegation is 
always welcome before this Committee.
    Mr. Gibbons. Thank you, and Chairman, I hope you'll 
understand that I'm here to protect not only my State but the 
families who live and work in the State as well. And this issue 
is going to affect them. And as the senior congressman from the 
State of Nevada, I do appreciate the opportunity to be here and 
discuss this issue.
    Let me take just a brief moment to address my colleague, 
Coach Osborn's statement about outlawing money or whatever to 
stop counterfeiting.
    Well, you could also say the same thing, that you could 
outlaw pharmacies in this Nation if you thought that was going 
to outlaw or prevent illegal drug use.
    Like all of you, I agree that firmly maintaining the 
integrity of college athletics is an important goal, but 
there's absolutely no evidence that doing this to the State of 
Nevada with college gaming is going to have one iota of import 
or effect on our nation's illegal college campus wagering. 
Nevada legal wagering makes up only about one to 3 percent of 
all sports bets nationwide, and no one, may I say, under the 
age of 21, to add what Congressman Ensign said, is allowed to 
gamble in the State of Nevada. And the other 97 to 99 percent 
of all college betting occurs illegally and under existing 
Federal and State laws.
    So it isn't Nevada, it is the prevalent illegal gaming that 
is the key problem here. Banning legal college sports betting 
in Nevada will only eliminate, as you've heard many times, one 
tool used by law enforcement to detect illegal betting pat 
patterns leading to the illegal activity.
    Law enforcement officials, including former FBI officials 
who currently--one of whom is a current member of the Nevada 
gaming control board--have stated that the ban, as proposed 
entitled to as section 718, would not make a dent in illegal 
gaming. So what would the effects and indeed unfortunate 
consequences of this misguided legislation be? Well, first of 
all, I believe, and many have also believed, including some 
writers throughout this country, that it would be the illegal 
bookie's dream come true to have Nevada and that tool taken 
away from any enforcement opportunity that they may have.
    That's an unintended consequence which I don't believe was 
ever intended when this bill was thought out or proposed. 
Eliminating that would not in any way assist with law 
enforcement efforts of our current effort to limit sports 
gaming, even if the NCAA director of agent and gaming 
activities, as he has stated before on television, that when it 
comes to law enforcement, and I quote, ``the NCAA has a good 
relationship with the sports books in Nevada.''
    Mr. Chairman, I see that the time is running short, but it 
is my hope that this Committee will think seriously and will 
not miss an opportunity to address the real problem--not the 
perceived problem--but the real problem of illegal sports 
betting. And rather than focus on Nevada's highly regulated 
industry, in this what many have said a misguided attempt to 
remedy societal problems of illegal sports wagering on our 
college campuses, and instead I would hope that you would 
encourage you and your other members to consider a common sense 
approach that was sponsored by Senator Ensign, Senator Reid, 
Senator Hatch and others, and in the House by Congresswoman 
Berkley and myself, and a bipartisan group of over 80 other 
congressman to address the issue of illegal gaming, and I want 
to thank you for the opportunity to share my thoughts with you 
on this important issue, and I welcome any questions.
    [The prepared statement of Mr. Gibbons follows:]
                Prepared Statement of Hon. Jim Gibbons, 
                    U.S. Representative from Nevada
    Mr. Chairman and Members of the Committee, on behalf of Nevada's 
hardworking families, I would like to thank you for allowing me the 
opportunity to express my strong opposition to S. 718, the Amateur 
Sports Integrity Act.
    As the senior Congressman from the State of Nevada, where sports 
wagering is legal, it is my pleasure to share my thoughts on this 
issue. Like all of you, I firmly agree that maintaining the integrity 
of college athletics is an important goal.
    However, there is absolutely no plausible evidence to suggest that 
the legal betting in Nevada is in any way responsible for the illegal 
sports wagering occurring mostly on our Nation's college campuses. 
Legal wagering on sports in Nevada makes up only 1 to 3 percent of all 
sports bets nationwide. (And no one under the age of 21 is allowed to 
gamble in Nevada). The other 97 to 99 percent occurs illegally under 
existing Federal and State laws.
    By banning legal college sports betting in Nevada, you will 
actually eliminate an essential tool used by law enforcement to detect 
unusual betting patterns leading to illegal activity, such as the point 
shaving scandal involving some Arizona State University basketball 
players in 1994.
    Consequently, law enforcement experts, including a former FBI 
official who currently is a member of the Nevada Gaming Control Board, 
have stated that a ban, as proposed in S. 718, would not make a dent in 
illegal gambling.
    So, what would be the effects and indeed unfortunate consequences 
of this misguided legislation?
    First, S. 718 would create an unfortunate and undue economic burden 
on thousands of Nevada's families, whose livelihoods depend on the 
upstanding reputation of the casino-entertainment industry.
    Second, Nevada's gaming industry is the largest taxpayer in our 
State. Therefore, a significant amount of tax revenue for schools and 
social services would be lost if S. 718 becomes law.
    Third, S. 718 is an illegal bookie's dream! It would not, in any 
way, assist with the enforcement of our current laws limiting sports 
gambling. Even the NCAA Director of Agent and Gambling Activities has 
stated on national television that when it comes to law enforcement, 
the NCAA has ``had a good relationship with the sports books in 
(Nevada).''
    We need to support effective law enforcement measures which reduce 
the pervasiveness of illegal sports betting on and off of our college 
campuses. Perhaps the NCAA should look in the mirror and reconsider the 
numerous ``Final Four'' sweepstakes which the NCAA and its corporate 
sponsors promote during ``March Madness.''
    It is my hope that this Committee will not miss the opportunity to 
address the real problems of illegal sports betting, rather than 
focusing on Nevada's highly regulated industry, in a misguided attempt 
to remedy the societal problem of illegal sports wagering on college 
campuses. Instead, I encourage you to consider the commonsense approach 
sponsored by Senators Ensign, Reid, Hatch and others. In the House, I 
have sponsored companion legislation that is co-sponsored by a bi-
partisan group of over 80 Members.
    Thank you for this opportunity to share my thoughts on this 
important issue, and I welcome your questions or comments.

    The Chairman. Thank you you very much, Congressman Gibbons.
    Congressman Roemer, welcome.
    Mr. Roemer. Thank you, Senator. I'd ask unanimous consent 
to revise and extend my remarks.
    The Chairman. Without objection.

                 STATEMENT OF HON. TIM ROEMER, 
                U.S. REPRESENTATIVE FROM INDIANA

    Mr. Roemer. Thank you very much. First of all, Senator, I 
would say that I would agree with Senator Reid that while 
you're not perfect, you sure are on this issue.
    And we sure appreciate your leadership on this. Your 
leadership and your hard work on this following up on your 
campaign finance reform bill, we think that that will provide a 
lot of motivation and movement forward on the House side as 
well too. So thank you for that.
    It's nice to see my friend, Mr. Ensign, from the House days 
here in this Committee. Congratulations on your election.
    I'd only make three points, Senator McCain. One would be, 
in my State of Indiana, where we have a rich Indiana tradition 
of Hoosier basketball, we have Larry Byrd, tiny Milan High 
School that was the motivation for the Hoosiers movie, and now 
we have Ruth Riley, who sank two free throws with 5.8 seconds 
left in the national championship game to deliver the 
championship to the University of Notre Dame.
    That was the purity, the integrity, the magic of college 
basketball coming forward. Nobody doubted the outcome. As Coach 
Osborne said, when you start doubting the outcome of college 
basketball, we turn it into Worldwide Wrestling Federation, 
scripted outcomes, predictable outcomes, and not the magic and 
uncertainty and the beauty of college sports.
    We have to maintain that, and with the number of scandals 
that have taken place in the last decade, we need to address 
that and do something about it.
    The second point is, I remember in addition to the great 
testimony that we heard from Coach Williams and Coach Osborne 
here today, I remember last year when I did a press conference 
with Coach Daugherty who was the Notre Dame basketball coach, 
now the coach of the University of North Carolina. And he said 
back in 1983 when he played ball with Michael Jordan, and he 
would be getting ready to play a game and he would be on campus 
somewhere and somebody would walk up to him and say, Matt, how 
are you feeling today, how's the ankle, I heard you sprained 
it, are you going to tape it, are you going to play tonight?
    And then they would ask about Michael Jordan's health, and 
Matt looked at everybody at the press conference and he said, 
you know, after a while I figured out they weren't asking about 
me because they cared about me, they were asking about me 
because they wanted to bet on me. And we need to make sure that 
doesn't happen.
    Coming to the third point, I think there's unanimity in 
this room that there's a problem with illegal gambling. Let's 
get after it. Let's take that on, too. Let's not ignore that. 
And I don't think we are with our legislation that you've 
sponsored on this side and that Lindsey and I and Coach Osborne 
and Ron Kind have sponsored on the House side.
    We're going to have a meeting I think next week with 
Attorney General Ashcroft and talk about ways to get at the 
illegal betting. But how do you get at the illegal betting if 
you have government-sanctioned legal betting on this stuff? And 
the kids in their dorm room say gee, we can do it here, why is 
it illegal?
    So I think the first step is to go after this, and then 
let's work together to go after the illegal betting. Thank you 
again for the time in this Committee and we appreciate the 
opportunity to testify.
    [The prepared statement of Mr. Roemer follows:]

                Prepared Statement of Hon. Tim Roemer, 
                    U.S. Representative from Indiana
    Thank you very much, Mr. Chairman. I appreciate the opportunity to 
testify before your Committee today in support of legislation to 
prohibit legal betting on college athletics. I thank you for the 
leadership which you, Sen. Brownback and others have provided on this 
issue.
    Over the years, college sports have become an integral part of our 
American culture. More people than ever play and watch college sports. 
They do so because college sports are exciting and unpredictable, and 
most of all, because they are real. The outcomes are decided by the 
players and coaches, not scripted by bettors or bookies.
    Today, sports betting is creating a dark cloud over college 
athletics. As the sports betting business grows, so too does the 
pressure on college athletes to miss a shot or drop a pass or otherwise 
tip the outcome of a game. If we ever reach the point where people 
begin to doubt that college games are being played fairly, or that the 
outcomes are honest, it will be the end of amateur athletics as we know 
it. We'll have the Worldwide Wrestling Federation instead.
    There are three reasons why we should pass legislation to prohibit 
legal betting on high school and college athletics:
    1. It's wrong to bet on teenagers. There are many forms of 
legalized gambling in America, such as State-run lotteries, but none of 
them involve betting on teenagers. This legislation would not prohibit 
legal betting on professional sports, which are played primarily by 
adults. It would simply put the segment of amateur athletics that is 
played predominantly by teenagers off-limits to legal betting. This is 
the responsible thing to do.
    2. Coaches, players and university presidents--the ones most 
directly affected by sports betting--overwhelmingly support this 
legislation. They know firsthand how difficult it is to deal with the 
pressures of gambling, and the threat which sports betting poses to the 
integrity of their athletic programs. We should listen to the people 
who know best.
    3. You can't wage an effective war against illegal gambling, or 
even expect people to take this problem seriously, as long as the 
government sanctions legal betting in Nevada. I agree that we need to 
do a better job of enforcing existing laws against illegal gambling. 
But the fact is, gambling on student-athletes, whether legal or 
illegal, threatens the integrity of college sports. You can't address 
one part of the problem without the other.
    As former U.S. Senator and basketball star Bill Bradley stated in 
his testimony before the National Gambling Impact Study Commission: 
``State-sanctioned sports betting conveys the message that sports are 
more about money than personal achievement and sportsmanship.''
    I agree with Sen. Bradley that the values and integrity of amateur 
athletics are worth fighting for, and I urge the Committee to pass this 
bill. Thank you.

    The Chairman. Thank you very much, Congressman Roemer.
    Congressman Graham.

               STATEMENT OF HON. LINDSEY GRAHAM, 
            U.S. REPRESENTATIVE FROM SOUTH CAROLINA

    Mr. Graham. Thank you, Mr. Chairman. I too like you.
    Everybody is giving you--yes, kiss-up day. But I was there 
before a lot of these other people, too. I want to let you know 
that.
    Sometimes it doesn't turn out as well as we'd like, but the 
effort is what counts at the end of the day, isn't it? And we 
gave a good effort then and we're going to give a good effort 
now, and with all due respect to Senator McCain, if he wasn't 
here, we could get this bill on the floor to pass. It's an idea 
bigger than us.
    It's an idea that makes sense, and if I was in Nevada I 
would be doing what my colleagues are doing. They are 
protecting their state's interest, but I would challenge 
anybody in the Congress to show a record of supporting states 
rights any stronger than South Carolina.
    This is not about states rights. In 1992, we passed a 
national piece of legislation that banned gambling in every 
State except four, and now we're down to one. And South 
Carolina, if you wanted to bet on college sports, you couldn't 
because of what Congress did. So we took a national approach to 
a problem, and we created a loophole that's consuming the whole 
issue.
    The exception is killing the rule that we tried to 
establish, so this is not about state's rights. This is about 
making a Federal law effective. And the one State engaging in 
the activity is hurting the rest of us.
    And Senator Brownback's question about exempting Kansas 
athletic teams from being bet on in Nevada wasn't silly. I 
would make that same request but it's not going to happen.
    But my colleagues from Nevada are doing what they think is 
best for their State and they have an approach to the issue 
that I disagree with. NCAA is not the bad guy, it's not the 
coaches, it's not the players. It's not the people who are 
operating casinos in Las Vegas, they are not bad people. They 
are doing what the law allows.
    There's a bad result. And if you want to have a connection 
between legal and illegal betting, you don't have to talk to 
me. Talk to the FBI, I would challenge the Committee to talk to 
the FBI. The legal betting industry has an unhealthy 
relationship just by being in existence because it's a way, 
it's an infrastructure to illegal betting.
    No, it will not solve the illegal betting problems in this 
country if we pass this bill, but it will help. It will take a 
source of infrastructure away. And office pools are not the 
problem. We're not going to go out and regulate everybody's 
office pool. If you want to bet in the office, that's not the 
problem, because people don't throw games or shave points 
because of something that's going in someone's office.
    They will when a billion bucks is on the line, and that's 
what we bet legally, a billion dollars, and that is the tip of 
the iceberg. But Mr. Chairman, I applaud your efforts. This is, 
at the end of the day about money politically, and if we could 
get the bill on the floor, it would be an overwhelming support 
for the NCAA position.
    I am just almost ashamed of Congress on this issue. When 
you get every coach, every president except the few that are 
afraid to say so, apparently, but the ones that I've talked to 
are saying this is hurting the game, this is hurting the kids 
that I'm in charge of, that I care about, it's hurting my 
institution, and Congress is having a deaf ear because of 
money, because of campaign machine problems, and Mr. Chairman, 
the praise you deserve is taking that issue head on.
    But if you're looking for an example in America where money 
affects public policy in an adverse way, this is it. And no one 
is doing anything illegal in Nevada, but we need to change the 
rules. And the sad thing about this whole debate to me is that 
before we started this bill, it was illegal to bet on a Nevada 
team. That was the law of the land in Nevada. They changed that 
law because I guess of some things that maybe I've said and 
we're going backwards, not forward.
    But I'm hopeful, Mr. Chairman, and thanks for putting it on 
the agenda.
    The Chairman. Thank you, and I thank the witnesses for 
being here today, and I want to tell all of you that I intend 
to do everything I can to make sure that all points of view are 
heard on this issue. This is an important issue, and all views 
need to be heard.
    I appreciate your participation and we will, as always, 
treat all opinions with the respect that they deserve in this 
important debate, and I thank you for being here.
    Senator Ensign. Mr. Chairman, could I ask coach Osborne a 
question?
    The Chairman. Sure.
    Senator Ensign. Coach, I hope you don't mind if I still 
call you coach.
    Mr. Osborne. Call me whatever you want.
    Senator Ensign. My partner in my animal hospital is from 
Nebraska and I've been hearing about you for many, many years, 
and I read your book Faith in the Game last year and I very 
much enjoyed it.
    But when you were talking about the point spreads being a 
big effect, one question; first of all, I want to understand 
the BCS rankings. Isn't that one of the things that they take 
into account, you know, home, whether you beat the point 
spreads, you know, favored by 30, all those kinds of things, 
they take that into account, isn't that correct?
    Mr. Osborne. Well, I would assume so, as I said, the point 
spread is particularly early in the year. See, the BCS only 
comes out, 6, 8 games in.
    The Chairman. Right.
    Mr. Osborne. So BCS doesn't set point spreads.
    Senator Ensign. No, they don't set the point spreads but I 
think they take that into account.
    Mr. Osborne. Oh, I'm sure some do.
    Senator Ensign. The reason for my question is, do you 
realize that this bill will do nothing to affect the point 
spreads? The Newspaper Association of America has already said 
that they are going to continue to do the point spreads. Many 
of the point spreads, in fact many of the earliest point 
spreads now are done by offshore books now, not by Las Vegas.
    And then they continue to publish these point spreads.
    Mr. Osborne. Well, I understand that, but I do believe that 
it's important that we send a message as a body that either 
this is a legal activity or it's not.
    Senator Ensign. No, no, and I'm not----
    Mr. Osborne. And I'm not talking about point spreads. I'm 
just--
    Senator Ensign. I have no problem with anybody that has a 
problem with gambling. That wasn't the the point I was trying 
to make. The point I was trying to make is if we're going to 
make some argument for a particular bill, they should be on the 
merits of that particular bill.
    What you are--your main arguments, I was writing down the 
things you were saying, and your main arguments were about the 
point spread. When you talked about the pressure of winning by 
a certain percentage, all of the stories, and I can appreciate 
that pressure as a coach.
    The college coaches today with the huge salaries that they 
make and the, you know, you don't win this year and you're out, 
all that kind of a thing, big money is influencing college 
sports and it isn't the purity that you talked about, 
Congressman Roemer, today, and it's not just because of 
gambling. It's because of the TV contracts, the Nike contracts 
and all of those things.
    There are huge amounts of pressure on these young athletes 
that come from, you know, inner cities or poor places all over 
the place. It's a huge amount of money that influences the 
game.
    But the point was, when you're talking about point spreads, 
and that's where the pressure is coming in, the people that 
were calling you on the phone at night, those people weren't 
making their bets in Las Vegas. They were making their bets in 
Nebraska. They were making their bets illegally. They weren't 
making their bets in Nevada, and that's the whole point of this 
that we're trying to get across, is that it's--I mean, I feel 
bad that illegal gambling is having this kind of influence 
across America, that there are kids that are being addicted on 
college campuses.
    Mr. Osborne. May I respond, Senator? One thing I would like 
to point out is I understand about point spreads probably as 
well as anyone in this room. I understand them very thoroughly. 
It's the dollars that are spent on the point spreads. A point 
spread is meaningless if you don't go out and bet a billion 
dollars, you see? And the point is that there is an 
interconnectedness in gambling across the country.
    I realize that many incidents are isolated, it may be in a 
dorm room or whatever. But if you send a message that it's OK 
to bet on intercollegiate sports here and not here, I think you 
send a message that is very clear to the young people of this 
country and to the fans and everyone else, and that's the only 
thing that I'm here to say.
    And certainly the point spread is a problem, but the money 
spent bet on the point spreads is the issue, and that's the 
thing that I'm talking about.
    Senator Ensign. And you would agree based on the 
statistics, the minimum is 98 percent is bet illegally, on 
those points.
    Mr. Osborne. I agree, but the point is not real or illegal. 
The point is, is it legal across the country or not. And the 
question is is it legal across the country or not. And if so, 
if it is illegal nationally, then I can you have a better 
platform to from which to attack the illegal gambling. And I 
understand your point of view and I certainly respect the 
others here, and I understand their point of view.
    The Chairman. Mr. Ensign, it's now 10:30. We have two more 
panels to go.
    Senator Ensign. Just one more comment on congressman 
Graham's point on states' rights. Congressman Graham, you 
talked about us going backward. I would also caution you that 
1992 law that was put into place has never been tested 
constitutionally. And if this bill----
    Mr. Graham. I'll bet you it will withstand scrutiny.
    Senator Ensign. OK. Well, I would make a bet on the other. 
We have had some pretty good legal opinions bet the other way. 
And the point is, the point that I would make on this, because 
of two issues. The Tenth Amendment is something I have a deep 
amount of respect for, and I believe if this bill goes forward 
Nevada will have a very strong position to strike down the 1992 
law, and it will have the exact opposite effect than what you 
were trying to accomplish. As a matter of fact, we'll have more 
legal gambling in this country than we currently have today.
    Mr. Gibbons. If I may respond, Senator, my good friend, by 
the way, who does a good job for the State of Nevada on a lot 
of issues including this one.
    There are people sitting in jail today who bet in Nevada on 
college games that they participated in that they wound up 
point shaving, and they are not from Nevada. The reason that 
there's a Federal need here is that you're affecting the 
quality of sports in my state, their state, Nebraska, all over 
the country.
    There's people have gone in Nevada, got involved in the 
legal gambling business, who shaved points who are sitting in 
jail. I think there's a national public policy to address the 
legal gambling in Nevada because it's hurting the rest of the 
country, then let's all get together and attack the illegal 
betting.
    Thank you very much for having me.
    The Chairman. Thank you, I thank the witnesses.
    Our first panel consists of coach Gary Williams, basketball 
coach at the University of Maryland; Mr. Titus Lovell Ivory, a 
student athlete at Pennsylvania State University; Ms. Tracy 
Dodds Herd, associate sports editor of the Cleveland Plain 
Dealer; Mr. Danny Sheridan, the sports analyst for USA Today; 
Dr. Howard Shaffer, associate professor and director at the 
Harvard Medical School, Division on Addictions; and Mr. Edward 
Looney, who is the Executive Director of the Council on 
Compulsive Gambling. Would you all please come forward.
    Coach Williams, welcome and again, congratulations on your 
magnificent record over many years, including your recent 
successes in reaching the Final Four.

 STATEMENT OF GARY WILLIAMS, HEAD BASKETBALL COACH, UNIVERSITY 
                          OF MARYLAND

    Mr. Williams. Thank you, Senator McCain. I was really 
pulling for Arizona if we didn't win.
    The Chairman. I can't understand it.
    Mr. Williams. By the way, I'm a coach here without one of 
those multimillion dollar Nike contracts.
    My experience in coaching basketball, one of the stops I 
made, I was at Boston College in 1977 and 1978. There was a 
point shaving scandal at Boston College. Several of the players 
where I was an assistant coach at were involved. One went to 
Federal prison for 5 years, one had already been accepted to 
law school and went into a witness protection program during 
that time, and their lives, there was three people involved, 
their lives were changed forever. They were no longer able to 
do what they wanted to do. Every time they go out in public 
now, they always have that concern of how people look at them 
from their past experiences, and you know, it's just a shame 
that they have to live their lives in the way that they do.
    Our players are very aware currently of the gambling 
situation. The NCAA has done a good job of making it clear to 
the players what's involved with the gambling experience. 
However, there's many mixed messages out there, including the 
legalized gambling of college basketball in Nevada and Las 
Vegas.
    That is certainly a message that our players see and I'm 
sure in their minds, a lot of time, well, if it's allowed 
there, then what's the big deal about gambling here, what is 
the problem. And players are targets, there's no doubt about 
it, whether it's legalized gambling or illegal gambling, they 
are targets of people.
    People want to know, as has already been stated, the 
condition of the players, the physical condition, the mental 
approach that our players might have for a particular game. 
And, you know, the education process is important, but I think 
we have to make a statement.
    And this issue before us today is very important because it 
would make a national statement to our players that it just 
confirms what is being told to them. Our game is a great game. 
College basketball is a great game. And we don't want anything 
to harm it that we can possibly control.
    And yes, there is a lot of money to be made by coaches, and 
you know, the NCAA does make a lot of money from the TV 
networks. But at the same time, we have to preserve the game. 
The game is a very important part of the fabric of the colleges 
involved. Certainly the University of Las Vegas has really 
benefited from the success over the years of their basketball 
team, just as the University of Maryland has with what we've 
done this year.
    And you can look at outstanding academic institutions 
throughout the country and see the benefit that they have 
derived, and we want to maintain the ability of a basketball 
program to be a very important part of the school, not be 
separate from the school, to be an important part of it. And I 
think the values that the universities do have, certainly we 
want to show that as our basketball team.
    And what can really tear that down is the gambling 
situation, and obviously, you know, there's far greater 
problems in illegal gambling as well as legal gambling, but at 
the same time, it has to start somewhere and we really believe 
that this would be a great message to the players across the 
country if nationally there was this legislation that would 
make it illegal for college gambling.
    And if it's only 2 percent or whatever it is out in Vegas 
of the total revenue generated, then let the game alone. Let 
college basketball, college football be separate from that type 
of thing and let us have the game. Because the kids growing up 
today really look at the players. They are role models a lot of 
times, they are the reason. Like this gentleman to my right, 
the reason kids grow up wanting to go to college and wanting to 
play sports in college are because of great young people like 
this. And anything that happens to tarnish that certainly 
disillusions a lot of people when that does take place.
    So we, as coaches, as players, hopefully we can do a good 
job, but this also needs to be said nationally, and that's my 
reason for being here today.
    The Chairman. Thank you very much, coach.
    Mr. Sheridan, welcome.

         STATEMENT OF DANNY SHERIDAN, WRITER, USA TODAY

    Mr. Sheridan. Thank you. Senator McCain, as you may or may 
not know, I supported your bid for the presidency of the United 
States. We have a mutual friend in Sonny----
    The Chairman. What was the line?
    Mr. Sheridan. You were an underdog, sir. Also, as most 
Americans, I applaud your campaign finance reform, and I would 
ask that this not be taken from my 5 minutes, that personal 
comment, sir.
    The Chairman. Thank you.
    Mr. Sheridan. I have spoken at or visited most college 
campuses, Senator McCain, in the United States, and I don't 
think there's anyone in this room that has spoken to as many 
college students as I have about illegal sports wagering.
    I've been in this business some 25 years, campuses from 
coast to coast, whether it's Princeton University, UCLA or the 
Floria campuses. I've interviewed the biggest book makers in 
the country, illegal book makers in the United States, 
offshore, legal book makers in Nevada, Australia, England, all 
over the world. I would stack my contacts against anyone here.
    My contacts include the top college and professional 
basketball coaches in the country. And again, I'm sure I'm not 
the smartest person in this room, I'm glad to be here, but I 
would stack my contacts in this area with anybody here and 
anyone that's testified.
    I don't bet on sports. My stock portfolio is probably seven 
figures. There's no Nevada gaming companies in there and 
there's no Nevada related companies in there. If this bill 
passes, it will greatly benefit me financially, substantial, 
six-figure money. I'm against this bill. Again, it will greatly 
benefit me financially. I'm not pulling against the NCAA or 
pulling for Nevada.
    I certainly commend you on the courage it takes to take on 
the tough issue of illegal gambling, and as other people have 
pointed out, I would only want to warn you and your colleagues 
of the serious, unintended consequences of this bill. If this 
bill passes, you will make, and I know it's not your intent, 
fixing college basketball and football games very easy. There 
will be no fear of being caught.
    I'll give you an analogy. No one in this room would remove 
the Securities and Exchange Commission from the stock market. 
Why would you do that. It would be chaotic. That's a legal 
authority that monitors the stock market. That's a deterrent. 
Whether you like, whether people like it or not in this room, 
so is Nevada.
    That's a system that is in place. They are a deterrent 
against fixing college football and basketball games. Do they 
stop every fix? No, but they are a deterrent. You know, in the 
underground, if you fix a college game, you're probably, almost 
100 percent sure you're going to get caught, tried, and 
convicted. You know that. And you know in the stock market, the 
Securities and Exchange Commission, you may not get caught, you 
can hide behind a foreign corporation. You can't in illegal and 
legal betting. You have to have a face.
    If you remove this legal authority from the equation as 
this bill would, and I'm not looking for rhetoric or scare 
tactics, you'll have conservatively two to three dozen college 
basketball and football games fixed within 90 days. It's 
guaranteed.
    I'll give you an example. The Tulane basketball scandal of 
seven or 8 years ago. The book makers in New Orleans, in my 
area, I'm from Alabama as you probably can tell, the book 
makers in the southern area of New Orleans took bets, there on 
the front line, not the FBI, not the NCAA, not the college 
coaches, the book makers, they took the bets.
    They took bets from college kids, an inordinate amount of 
money. Let's say the kids bet $50 a game. They wanted to bet 
$500 a game. These book makers in New Orleans knew right away 
these kids are shaving points. Now, they have two options. 
Right now they can call the legal authority in Nevada, which 
they did, who was waiting for them when they came out there, 
and bet, and again, an inordinate amount of money on Tulane and 
Southern Miss. They were caught, tried, and convicted.
    If this bill were to pass and there were no legal 
authority, the book maker would have had again, two options--
excuse me, would have had one option. He could have called the 
local DA, which would be suicide, he's a criminal, he's 
breaking the law, he's certainly not going to call the local DA 
or the FBI and say hey, they are shaving points. Well, how do 
you know, sir? Well, I'm an illegal book maker.
    So what we will do, if this bill passes, and I promise you 
as sure as I'm sitting here, what the book makers across the 
country, and I'm not here to organize like the teamsters the 
book makers, and they are not choir boys, they have a vested 
interest in keeping the sport clean and they do a great job of 
policing the sport, rightfully or wrongfully for the NCAA and 
for college sports.
    What will happen, let's assume I'm the book maker. I'm not 
going to call the local DA. I know that Tulane is fixing, 
shaving points. I simply call my brethren in Louisiana and all 
across the country and I take them off the board. You cannot 
bet on Tulane. That's what's going to happen. It's going to be 
Tulane, it's going to be Florida, it's going to be UCLA, and 
what's going to happen to some enterprising sports reporter 
when the NCAA tournament rolls around or the college bowl 
season rolls around, and he's going to look and he's going to 
say Southern Cal, they are three and two against its spread but 
they played 11 games, or the NCAA tournament, this team only 
has a record of 11 and 6 in basketball, but yet they played 25 
games.
    He's going to ask the question how come these book makers 
didn't line these teams. No convictions, no charges. And he's 
going to be told on the Internet and all over, sir, those 10 or 
20 schools have been shaving points, and that's going to be a 
major, major scandal. Again, as sure as I'm sitting here. I'm 
not trying to scare you.
    The book makers will do it, they hate it, but they will 
take the game off the record. They will not report it--there 
will be no legal authority if this passes, and again, not to be 
redundant, I wish you would ask me some questions on it.
    I don't know if I've eloquently got the point across, but 
the book makers will simply take the game off the boards. The 
thugs, the criminals that are fixing these games, there will be 
no deterrent. The FBI is not going to catch them, no one is 
going to catch them. They are going to go about their business. 
You're basically handing them the candy store. It's not 
intentional, but without that legal authority, I know of know 
book maker that I've spoken to, and I've spoken to every--not 
every one in the country, but every large one, they've just 
said hey, it's simple, we'll let them fix college games and we 
hope they don't fix the pro games. We can't turn them in.
    That said, I appreciate the opportunity to be here and I 
would certainly welcome any questions you may have. Thank you.
    [The prepared statement of Mr. Sheridan follows:]
                 Prepared Statement of Danny Sheridan, 
                           Writer, USA Today
    Chairman McCain, I would like to thank you and the Members of the 
Commerce Committee for allowing me the opportunity to express my 
opinions on S. 718, the Amateur Sports Integrity Act.
    My name is Danny Sheridan, and I have been involved with sports and 
the sports promotion business for more than 25 years. I have published 
college and pro football magazines, written about sports in a variety 
of national publications, and have been the host of a number of sports 
TV and radio shows. I am a lifelong resident of Mobile, Alabama, and a 
graduate of the University of Alabama School of Business.
    I have written exclusively for USA Today since its inception in 
1982. For USA Today, I set the daily odds on every sport along with 
political and esoteric odds--for example, will Alan Greenspan lower the 
interest rate, and if so, by how much. My sports and political 
predictions have been featured on every major network and nearly every 
major newspaper and radio station in the country. I plan to continue 
setting these odds and providing them to USA Today even if this 
legislation is passed.
    However, I'm not just a sports--and sometimes political--analyst. I 
am friends with many high profile college and NFL coaches as well as 
many NFL and NBA owners. I have spoken at or visited most of the 
colleges and universities in the United States, and have talked to 
thousands of students about their concerns about sports betting on 
their campuses. I've also interviewed many of the world's biggest 
legal, illegal, and offshore bookmakers.
    I'm sure there are a lot of people brighter than me at this 
hearing; however, I'm confident in saying that my predictions, contacts 
and knowledge of the sports world would stack up against anyone in this 
room.
    That's why I'm here today.
    I do not bet on sports, don't smoke or drink alcohol, but I do 
recognize, like you, that in a free society people do these things, 
sometimes to excess.
    I commend you for having the courage to take on the tough issue of 
fighting illegal gambling. However, I want to warn you of the serious, 
unintended, and adverse consequences that will surely result from the 
passage and implementation of this legislation. Your attempt to 
eliminate legal college sports wagering--while well intentioned--would 
only result in an increase in illegal college sports gambling and an 
increase in the amount of fixing and point shaving schemes and 
scandals.
    Currently, approximately 99 percent of all sports gambling takes 
place illegally outside of Nevada. In 1999, the National Gaming Impact 
Study Commission estimated that illegal sports wagering was as much as 
$380 billion--but I think that it's higher. An estimated 40 million 
Americans currently wager $6 billion illegally every weekend during the 
entire 20-week college and pro football season alone.
    Comparatively, legal and regulated sports wagering in Nevada is 
only 1 percent--a tiny fraction--of all of the betting that occurs on 
sports in this country. And of the approximately $2.3 billion that is 
legally wagered in Nevada, only about one-third--an even smaller 
percentage--is bet on college sports.
    These figures just show that there is no persuasive evidence that 
legal sports betting in Nevada is responsible for the betting scandals 
and illegal gambling everywhere else.
    Nevada's legal sports books serve as a legal watchdog for college 
sports. The point shaving scandals 5 years ago surfaced only because 
there is a legal authority that exists to watch over the game and 
betting activity. So in essence, the proposed legislation would remove 
the only viable enforcement mechanism to monitor and report the fixing 
of college sports games.
    If you take college sports wagering out of Nevada, 100 percent of 
all NCAA betting would go on illegally. The Nevada Gaming Commission 
has an incentive to report the fixing of games and to continue to 
police sports betting to ensure that it's clean. It is legally required 
to monitor and report suspicious activity, and has done an excellent 
job monitoring college sports betting. But if you get rid of legal 
college sports wagering, a person who wants to fix a game will no 
longer have to worry about the Nevada Gaming Commission, but only about 
the bookie he placed the bet with and the players involved.
    The proposed legislation would make it impossible to monitor and 
report the fixing of games. The effect of this legislation would be 
like removing the Securities and Exchange Commission (SEC) from 
monitoring and policing the stock market. Does the SEC prevent all 
insider trading? Of course not, but it lets would-be criminals know 
that they'll be prosecuted. In Nevada, you can't bet on a college game 
through a dummy corporation--you have to do so in person and be 21 or 
over--and most people know if you fix a sporting event, you'll 
eventually get caught and prosecuted.
    The NCAA and its supporters also argue that legal betting in Nevada 
sends a mixed message about gambling to young people. But I'm not sure 
what mixed message they are talking about.
    Gambling and betting is a widely accepted form of recreation in 
this country and has been an integral part of our history. When our 
founding fathers needed money to finance the American Revolution, they 
held a lottery. Today, 47 States permit lotteries, horse and dog 
racing, commercial and Indian casinos, and/or video poker. Only Hawaii, 
Utah, and Tennessee have no form of legalized gambling. Since our 
culture sends the message that gambling is mainstream recreation, it 
will only make matters worse to deal with illegal sports gambling by 
making it illegal in Nevada, the one State where these activities are 
legal and closely monitored.
    Finally, it's simply not reasonable to assume that the impulse to 
gamble can be controlled or reduced by legislation, particularly in 
this age of Internet gambling, which allows anyone to bet through an 
offshore sports betting site or casino or both just by the flick of a 
key on their computer.
    So yes, the passage of this legislation would send a clear message 
to this country's young people. That message is: We want to cut down on 
sports gambling and game-fixing so let's ignore the real problem and 
the impact this legislation would have on college sports. Now that is a 
scary mixed message.
    Again, I believe that the NCAA and its supporters are well 
intentioned and are only trying to do the best to protect students and 
college sports. But the idea that Nevada is to blame for the spread of 
illegal gambling in this country is preposterous. If the NCAA and its 
proponents think that the passage of this legislation would have any 
effect on illegal college sports wagering--by young people or adults--
they are completely wrong.
    Finally, opposing this legislation goes against my financial 
interests. If it were to pass, it would benefit me financially. I also 
have no financial interest in any casinos or Nevada-dependent 
companies. With this in mind, I hope that this also shows you that my 
testimony is unbiased and honest.
    So I leave you with these odds and a prediction: pass this 
legislation and I am 100 percent certain that there will be an increase 
in game fixing and other point shaving schemes and major college sports 
scandals--exactly the opposite from what I know you are trying to 
accomplish.

    The Chairman. Thank you very much. Mr. Titus Lovell Ivory, 
who's a student athlete at Pennsylvania State University and 
also an outstanding guard on the recent successful Pennsylvania 
State basketball team. You didn't run up against Maryland?
    Mr. Ivory. Didn't want to.
    The Chairman. Welcome, Mr. Ivory, and thank you for being 
here.

STATEMENT OF TITUS LOVELL IVORY, STUDENT-ATHLETE, PENNSYLVANIA 
                        STATE UNIVERSITY

    Mr. Ivory. Thank you. Chairman McCain, my Senator from my 
home state, North Carolina, Senator Edwards, and other 
distinguished members of the Committee.
    Thank you for this opportunity to testify on the impact of 
sports gambling on college athletics. For the past 5 years, 
I've been a member of the Penn State basketball team. As an 
entering freshman, I medically registered and did not 
participate. However, the past 4 years have not only provided 
me with the opportunity to play basketball for the school in 
one of the most competitive conferences, but it has also 
enabled me to gain a first rate education on life.
    Prior to this season, I received my undergraduate degree in 
kinesiology. During this past year, I've also pursued a second 
degree in teacher certification.
    As a member of the Division 1 basketball team, I can 
testify student athletes are well aware of the dangers of 
sports gambling and the strict penalties imposed upon them by 
the NCAA on those who bet or solicit bets on college or 
professional games, or who provide information to individuals 
involved in organized gambling activities.
    At the beginning of each season, our athletic department 
conducts a mandatory sports gambling seminar for the basketball 
team. This session includes a review of NCAA rules prohibiting 
sports gambling and messages from law enforcement officials 
about the pit falls of getting involved in sports gambling.
    Our team also watches a video which highlights the 
dangerous influences associated with sports gambling. In 
addition, there are always constant reminders in the looker 
room, in the gymnasiums, on the NCAA Don't Bet On It posters 
that are posted in several locations.
    I am aware of the recent point shaving scandals at several 
or NCAA schools. The Northwestern point shaving scandal has 
special significance, since one of the tainted games also 
involved Penn State University.
    I have thought about what it would be like to play against 
guys who were, you know, throwing a game. I'm a very 
competitive person, and I always want to play against the best. 
These scandals surely would have rocked my confidence in the 
sport. Sports gambling threatens the game I love. In the end, 
no matter how much I try to avoid it, gambling on college 
campuses is a popular thing and is now growing.
    Ever since high school I've had a number of experiences 
where people have thanked me for winning basketball games on 
the outcome of the team based on bets. My reaction is always 
the same. I'm playing the game I love. I'm not playing the game 
to win money for you or anyone else. The presence of sports 
gambling in college sports has never been more apparent to me 
than during our team's run to the Sweet 16 during this year's 
men's basketball championship.
    After a big second round win over North Carolina, my 
teammates and I boarded the plane, and before we even got off 
the ground, the pilot comes over the PA and announces I want to 
thank you guys, you just won me $150.
    After hearing this, our coaches were amazed, even shouting 
out I can't believe he just said that.
    Some of you might ask what is wrong with this. Well, sports 
gambling interests can easily result in the game being tainted. 
I would hate to play against an opponent who was aware of the 
spread. As I've already said, I want to play against those who 
are giving their best. I'm so competitive, I don't even like 
playing against players who aren't 100 percent healthy.
    In addition, sports gambling threatens those who are fans 
of college sports. Students aren't going to come to our games 
if they believe the games have already been influenced. If 
sports gambling continues and continues to grow in popularity, 
the threat will always remain.
    So why do student athletes support S. 718? We believe that 
steps must be taken to eliminate sports gambling from college 
students.
    I know that they won't get rid of gambling in Nevada. I 
know that getting rid of gambling in Nevada will not eliminate 
betting on college games all together, but anyone can argue 
that it won't send a positive message that sports gambling is 
illegal everywhere in this country, and maybe this message 
might also slow down the publishing the point spreads.
    I must say it is an awful feeling to open up the USA Today 
and find out that your team is losing by 20 even before the 
opening tip off. The game is supposed to be about hard work, 
having fun, team camaraderie, and the enjoyment of the game, 
and making someone money isn't something us athletes would like 
to see. I would like to thank you for this opportunity.
    [The prepared statement of Mr. Ivory follows:]
Prepared Statement of Titus Lovell Ivory, Student-Athlete, Pennsylvania 
                            State University
    Chairman McCain, Senator Hollings, my Senator from my home State in 
North Carolina, Senator Edwards, and other distinguished Members of the 
Committee, thank you for the opportunity to testify today on the impact 
of sports gambling on college athletics.
    For the past 5 years, I have been a member on the Penn State's 
men's basketball team. As an entering freshman, I was red-shirted and 
did not participate in games. However, the past 4 years have not only 
provided me with the opportunity to play basketball for my school in 
one of the country's most competitive conferences but it also has 
enabled me to get a first-rate education. Prior to this season, I 
received my undergraduate degree in kinesiology. During this past year, 
I pursued my second degree in teacher certification.
    As a member of a Division I college basketball team, I can testify 
that student-athletes are well aware of the dangers of sports gambling 
and the strict penalties imposed by the NCAA on those who bet or who 
solicit bets on any college or professional game, or who provide 
information to individuals involved in organized gambling activities. 
At the beginning of each season, our athletics department conducts a 
mandatory sports gambling seminar for the basketball team. This session 
includes a review of the NCAA rules prohibiting sports gambling and 
messages from law enforcement officials about the pitfalls of getting 
involved with sports gambling. Our team watches a video tape which 
highlights the dangerous influences associated with sports gambling. In 
addition, there are constant reminders in our locker room as NCAA Don't 
Bet On It posters are posted in several locations.
    I am aware of the recent sports point shaving scandals at several 
other NCAA schools. The Northwestern point shaving scandal has special 
significance since one of the tainted basketball games involved Penn 
State. I have thought about what it would be like to have been playing 
against guys who were not giving their all. I am a competitive person, 
I want to play against the best. These scandals surely would have 
rocked my confidence in the sport. Sports gambling threatens the game I 
love. In the end, no matter how much I try to avoid it--gambling on 
college sports is popular and seems to be growing.
    Since high school, I have had a number of experiences where people 
have thanked me after a game because my team's victory helped them win 
money on a bet. My reaction is always the same--``I am not playing the 
game so someone can make money gambling.''
    The presence of sports gambling in college sports has never been 
more apparent to me than during our team's run to the Sweet 16 in this 
year's men's basketball championship tournament. After a big second 
round win over North Carolina, my teammates and I boarded a plane 
headed for State College. We didn't even get off the ground, when the 
pilot came over the PA and said: ``I want to thank you guys. Because of 
you, I just won $150.'' After hearing this, our coaches were amazed. 
One of them shouted, ``I can't believe he just said that.''
    Some of you might ask what is wrong with this? Well, sports 
gambling interests can easily result in the game being tarnished. As I 
have already said, I want to play against those who are giving their 
best. I am so competitive that I even hate playing against guys who I 
know are not 100 percent healthy. In addition, sports gambling 
threatens those who are fans of college sports. Students aren't going 
to come to our games if they believe that the game is being influenced. 
As sports gambling continues to grow in popularity, this threat 
remains.
    So why do student-athletes support S. 718? We believe that steps 
must be taken to eliminate sports gambling on college students. I know 
that getting rid of sports gambling in Nevada will not eliminate 
betting on college games altogether, but how can anyone argue that it 
won't send a positive message that sports gambling is illegal 
everywhere in this country? And maybe this message might also slow down 
the publishing of point spreads. I must say that it is an awful feeling 
to open up the USA Today and see that my team is picked to lose by 20 
points before the game even begins. It adds stress and even puts the 
thought in your own mind that ``maybe we should lose.''
    The game is supposed to be about working hard and having fun, not 
about making somebody money who has bet on the outcome.
    Thank you.

    The Chairman. Thank you very much, Mr. Ivory, and again, 
congratulations.
    Dr. Shaffer, welcome.

   STATEMENT OF HOWARD J. SHAFFER, Ph.D., C.A.S., ASSOCIATE 
        PROFESSOR, HARVARD MEDICAL SCHOOL, DIVISION OF 
                           ADDICTIONS

    Dr. Shaffer. Thank you, Senator McCain and members of the 
Committee, and thank you for this invitation to comment on what 
is a very important and complex social matter. As a devoted 
sports fan, a long ago student athlete, and the father of a 
current NCAA Division 1 student-athlete, I have a very special 
interest in this area.
    For many years I have encouraged the return of athletics to 
sports. I remember when watching organized sports was focused 
on athleticism instead of whether a team would cover the 
spread. I also believe that amateur sports have the capacity to 
build individual character and integrity. Despite these 
personal interests, my comments today will reflect my work as a 
scientist and a clinical psychologist.
    I'd like to make three brief, specific and interrelated 
points that are relevant to the Committee's deliberations on 
the Amateur Sports Integrity Act. First, youthful population 
segments have not demonstrated a meaningful increase in the 
prevalence of gambling related disorders during the past 25 
years, a time when legalized gambling was expanding most 
rapidly throughout the United States.
    Consequently, I believe it's unlikely that revising the 
status of licit sports gambling will influence their gambling 
rate.
    Students' gambling-related activities already are illicit, 
and most illicit gambling among young people does not occur 
within within a licit gambling establishment. In the new era of 
Internet-based gambling, focusing on jurisdictions or the 
specific objects of gambling is even more likely to be 
ineffective than ever before.
    Second, the Amateur Sports Integrity Act might have 
unanticipated negative effects. The first principle of medical 
ethics is to do no harm. The reason for this guiding principle 
is that very good intentions can lead to adverse consequences. 
For example, since the vast majority of adults who gamble on 
sports in Nevada do so without any adverse consequence, a ban 
on sports betting can stimulate an underground market for 
sports-related gambling.
    This situation echoes our history with the Volstead Act and 
the many adverse consequences associated with alcohol 
prohibition, from which, in my opinion, America is still 
recovering. Unintended consequences of gambling prohibition 
could adversely impact the already too high rate of problem 
gambling among young people.
    Third, it occurs to me that the best laws are those that 
prevent wrongdoing and therefore rarely punish people. The 
worst laws in my opinion are those that punish the most people 
while rarely preventing misbehavior. The Amateur Sports 
Integrity Act holds the potential to prevent very little 
gambling amongst sports betters while simultaneously 
establishing the potential to punish many of them.
    Further, if this Act becomes law and it is not enforceable, 
or if high school or college students do not respect it, then 
they might ignore this law, and most importantly, also lose 
respect for the rule of law in general.
    In conclusion, if I could ensure the integrity of sports 
simply by prohibiting gambling, I would endorse it. However, I 
fear that prohibition will create problems.
    Senator Alan Simpson once said, ``if you have integrity, 
nothing else matters. If you don't have integrity, nothing else 
matters'' Integrity is an attribute of individual and 
collective character. It cannot emerge in a vacuum. To assist 
the development of integrity, we must help people learn to 
regulate their impulses and message temptation. This difficult 
task is not possible in a social setting that does all of the 
regulating for us. In a free society, occasional failing and 
even tragedy is the price of liberty.
    In the second century, the Roman emperor Marcus Aurelius 
noted that, ``a man should be upright, not be kept upright.'' 
Integrity is not the absence of vice, it's something that 
emerges through a relationship with temptation. To protect the 
integrity of amateur sports, we need to protect everyone from 
developing gambling-related problems.
    We also need to identify people quickly when problems do 
emerge. New approaches to screening will become important. This 
will require new public policy at the local level, that is 
middle schools, high schools, and colleges, with attention to 
educating parents, clergy, teachers, coaches, and athletic 
directors about gambling. Unfortunately, our current research 
shows that high schools and colleges are woefully out of touch 
with gambling problems, and have few policies or resources in 
place to deal with them.
    Parents also fail to appreciate how gambling can influence 
young people. In 1999, my friend Bill Saum, the NCAA's 
excellent director of gambling and agent activities, testified 
before a Senate judiciary Committee about the negative impact 
that sports gambling has on the lives of college student 
athletes.
    Bill described notable and tragic examples from great 
American colleges. He cited my research showing that young 
people often become introduced to gambling through sports 
betting. What he did not mention however was that this betting 
most often starts with family members at home, not in casinos 
with sports books. We must educate parents about gambling.
    I respectfully suggest two strategies. First, undertake a 
broad scientific review to evaluate the extent of the problem, 
the complexity of the risk factors, and the potential avenues 
available to address these concerns.
    The National Academy of Sciences recently undertook such a 
review of pathological gambling, and might be in a strong 
position to advise on this matter.
    Second, I suggest that we convene a consortium of college 
presidents to review their existing gambling-related policies 
and problems so that we can take a systematic approach to the 
education, prevention and treatment of America's young people.
    America likes to gamble, and since the early days of 
civilization, people have shown a penchant to gamble on sports. 
We should not lose sight of the fact that the vast majority of 
Americans, young and old, do in fact regulate their impulses 
without difficulty and are healthy gamblers.
    This circumstance complicates all of our efforts to protect 
young people. Once again, Senator McCain and members of the 
Committee, thank you very much for inviting me to participate 
in this process.
    [The prepared statement of Dr. Shaffer follows:]

   Prepared Statement of Howard J. Shaffer, Ph.D., C.A.S., Associate 
       Professor, Harvard Medical School, Division of Addictions
    Senator McCain and Members of the Committee, thank you for the 
invitation to participate in your deliberations and comment on this 
very complex social matter. As a devoted sports fan, a long-ago 
student-athlete, and the father of a current NCAA Division I student-
athlete, I have a special interest in this area. For many years, I have 
encouraged the return of athletics to organized sports. I remember when 
watching organized sports was focused on athleticism instead of whether 
a team would cover the spread. I also believe that amateur sports in 
particular, and sports in general, have the capacity to build 
individual character and integrity. Despite these personal interests, 
my comments will reflect my work as a scientist and clinical 
psychologist.
    My associates and I recently completed a series of studies 
revealing that, throughout the United States and Canada, young people 
and college students in particular evidence meaningfully higher than 
typical rates of gambling related disorders than adults (Korn & 
Shaffer, 1999; Shaffer & Hall, 1996, in press; Shaffer, Hall, & Vander 
Bilt, 1997; Shaffer, Hall, & Vander Bilt, 1999; Shaffer, Hall, Walsh, & 
Vander Bilt, 1995). Since athletes represent a distinctive segment of 
the youthful population, they have unique risks that place them at 
special chance of developing gambling related problems.
                    the amateur sports integrity act
    I would like to make 3 brief, specific, and interrelated points 
that are relevant to the committee's deliberations on the Amateur 
Sports Integrity Act:
    1. Prohibiting legalized sports gambling likely will have little 
impact on young people; gambling already is illegal and unsanctioned 
for student athletes;
    2. Prohibiting sports gambling for the vast majority who do it 
safely and legally risks making matters worse by creating an 
``underground'' market;
    3. Passing legislation that likely is unenforceable inadvertently 
diminishes respect for the rule of law.
                impact of prohibition on youth gambling
    Youthful population segments have not demonstrated a meaningful 
increase in the prevalence of gambling-related disorders during the 
past 25 years--when legalized gaming was expanding most rapidly 
throughout the United States. Consequently, it is unlikely that 
revising the status of licit gambling will influence their gambling 
rate. While well intentioned, it is unlikely that this bill will have 
significant impact on youthful gambling.
              gambling already is illicit for young people
    If the purpose of the bill is to protect high school and college 
student-athletes who are at special risk for gambling related 
disorders, then prohibiting legalized sports betting in Nevada is 
unlikely to have broad impact for two primary reasons: (1) their 
gambling related activities already are illicit; and (2) most of their 
illicit gambling does not occur within a licit gambling establishment. 
In the new era of Internet-based gambling, focusing on jurisdictions or 
the specific objects of gambling is even more likely to be ineffective 
than before.
   could the amateur sports integrity act inadvertently make matters 
                                 worse?
    The Amateur Sports Integrity Act might have unanticipated negative 
effects. The first principle of medical ethics is to ``do no harm.'' 
The reason for this guiding principle is that very good intentions can 
lead to adverse consequences. For example, since the vast majority of 
adults who gamble on sports in Nevada do so without any adverse 
consequence, a ban on sports betting can stimulate an underground 
market for sports-related gambling. This situation echoes our history 
with the Volstead Act and the many adverse consequences associated with 
alcohol prohibition from which America is still recovering. Unintended 
consequences of gambling prohibition could adversely impact the already 
too high rate of problem gambling among young people.
diminishing respect for the rule of law: considering laws that prevent, 
                            laws that punish
    Having spent the majority of my life studying the spectrum of human 
behavior, it occurs to me that the best laws are those that prevent 
wrongdoing and therefore rarely punish people. The worst laws are those 
that punish the most people while rarely preventing misbehavior. The 
Amateur Sports Integrity Act holds the potential to prevent very little 
gambling among sports bettors while simultaneously establishing the 
potential to punish many of them. Further, if this Act becomes law and 
it is not enforceable, or if high school or college students do not 
respect it--athletes in particular since they often are role models--
then young people might ignore this law and, most importantly, also 
lose respect for the rule of law in general. Such has been the case 
with certain laws (e.g., drug, seatbelt, helmet) that unintentionally 
created this circumstance many years ago.
    For example, the Amateur Sports Integrity Act will require that 
throughout America, if students are involved, illegal pari-mutuel and 
``Calcutta'' style wagering on member-member and member-guest golf 
tournaments become active targets for enforcement. Currently, students 
watch eagerly as caddies or just onlookers when their parents and 
neighbors get excited about, and participate in, these events--which 
already are illegal. Young people have learned through informal 
channels that laws are not equally enforced. The consequence too often 
is a diminished respect for the rule of law.
                      conclusions and suggestions
    The language of the bill is unclear about whether the intent of 
this legislation is to protect the integrity of amateur and student 
athletes or the integrity of the institution of amateur sports. The 
Sports Integrity Act seems to apply only to Nevada, so the language of 
the bill seems to work against its broadly stated objectives. It 
already is illegal for underage young people to gamble, whether on 
sport or anything else. Further, to my knowledge, there is no legal 
bookmaking for high school sporting events.
    If I could assure the integrity of sports simply by prohibiting 
gambling, I would certainly endorse it. However, I fear that 
prohibition will produce problematic outcomes. Senator Alan Simpson 
once said, ``If you have integrity, nothing else matters . . . if you 
don't have integrity, nothing else matters.'' Integrity is an attribute 
of individual and collective character. It cannot emerge in a vacuum. 
To assist the development of integrity, we must help people learn to 
regulate their impulses and manage temptations. This difficult task is 
not possible in a social setting that does the regulating for us. In a 
free society, occasional failing and even tragedy is the price of 
liberty. In the second century, the Roman Emperor Marcus Aurelius noted 
that, ``A man should be upright, not be kept upright.'' \1\ Integrity 
is not the absence of vice; it is something that emerges through a 
relationship with temptation.
---------------------------------------------------------------------------
    \1\ Marcus Aurelius. Meditations, book 3, section 5.
---------------------------------------------------------------------------
    Consequently, I respectfully suggest that, to protect the integrity 
of amateur sports, we consider how to protect students and youth in 
general from developing gambling related problems. We also need to 
identify people quickly when these problems do emerge; new approaches 
to screening will become important. This will require a shift in 
American culture. It will require new public policy at the local level, 
that is, middle schools, high schools and colleges--with attention to 
educating parents, clergy, teachers, coaches, and athletic directors 
about gambling. Unfortunately, our research suggests that high schools 
and colleges are woefully out of touch with gambling problems and have 
few policies or resources in place to deal with them (e.g., Shaffer, 
Forman, Scanlan, & Smith, 2000).
    Parents also fail to appreciate how gambling can influence young 
people (Shaffer, Hall, Vander Bilt, & George, in press; Shaffer et al., 
1995). In 1999, my friend Bill Saum, the NCAA's excellent director of 
gambling and agent activities, testified before the Senate Judiciary 
Subcommittee on Technology, Terrorism and Government Information about 
the negative impact that sports gambling has on the lives of college 
student-athletes. Bill described notable and tragic examples from great 
American colleges. He also cited my research showing that young people 
often become introduced to gambling through sports betting (Shaffer et 
al., in press; Shaffer et al., 1995). What he did not mention, however, 
was that this betting most often started with family members at home, 
not in casinos or with sports books. We must educate parents about 
gambling.
    While preparing for this testimony, I examined the National 
Collegiate Athletic Association's (NCAA's) list of representative 
sports-related gambling scandals that occurred during the past 45 
years. Interestingly, none of these incidents directly involved Nevada-
based legal sports gambling.
    I respectfully suggest two important strategies. First, undertake a 
broad based and rigorous scientific review to evaluate (1) the nature 
and extent of the problem, (2) the complexity of risk factors (e.g., 
alcohol use, depression, etc.), (3) whether student athletes in general 
or NCAA Division I student-athletes in particular, by virtue of NCAA 
rules, are at greater risk compared with other students for gambling 
related problems, and (4) the potential avenues available to address 
these concerns. The National Academy of Sciences recently undertook 
such a review of pathological gambling (National Research Council, 
1999) and might be in a strong position to advise on this matter.
    Second, I suggest that we convene a consortium of college 
presidents to review their existing gambling related policies and 
problems so that we can take a systematic approach to the education, 
prevention and treatment of America's young people, who are at higher 
risk for gambling related disorders than their adult counterparts.
    In conclusion, gambling represents a very complex human activity. 
People have gambled since at least the beginning of recorded history 
and they are not likely to stop soon. It seems that progressive public 
policy must attempt to: (1) provide sanctuary for the vast majority of 
gamblers who safely enjoy government approved, legal gambling, while 
also (2) prevent or reduce any gambling related problems among the 
minority of people who choose to gamble and experience adversity. 
Balancing these issues is a thorny matter since state-sponsored 
gambling often stimulates a conflict of interest between promoters of 
gambling and public health officials. Public health considerations have 
been notably absent from the public deliberations that recently have 
focused on gambling (Korn & Shaffer, 1999).
    America likes to gamble, and since the early days of civilization, 
people have shown a penchant to gamble on sports. We should not lose 
sight of the fact that the vast majority of Americans regulate their 
impulses without difficulty and are ``healthy'' gamblers. These 
circumstances make our efforts to protect young people much more 
complicated than simply prohibiting sports gambling in Nevada.
    Once again, thank you Senator McCain and members of the committee 
for inviting me to participate in this important process.
                                 ______
                                 
                               Appendix 1
                 the prevalence of disordered gambling
    This appendix briefly describes the some of the current and 
fundamental knowledge about the prevalence of disordered gambling. To 
begin, there is considerable conceptual confusion and inconsistency 
about the terminology scientists often use to describe intemperate 
gambling and the prevalence and natural course of this disorder. 
Consequently, my colleagues and I have adopted a simplified public 
health classification system to describe the prevalence of gambling and 
gambling related problems (Shaffer & Hall, 1996). This classification 
system is being adopted worldwide as a universal language. Level 1 
prevalence rates reflect the people who do not have any gambling 
problems. Level 2 represents those individuals who fail to satisfy the 
multiple criteria for a ``clinical'' disorder but do experience some of 
the adverse symptoms associated with gambling. Level 3 reflects those 
people who meet sufficient criteria for having a disorder (e.g., the 
Diagnostic & Statistical Manual of Mental Disorders [DSM-IV]; (American 
Psychiatric Association, 1994)). These diagnostic criteria, for 
example, include among others being preoccupied with gambling, risking 
more money to get the desired level of excitement, committing illegal 
acts, and relying on others to relieve desperate financial needs.
    People with level 2 problems can move in either of two directions: 
toward a healthier level 1 state or toward a more serious level 3 
disorder (Shaffer & Hall, 1996). Psychiatric disorders in general, and 
disordered gambling in particular, are subject to shifting cultural 
values. Shifts in prevalence rates can reflect changes in behavior 
patterns, evolving cultural values, or a combination of both.
    Table 1 reflects lifetime and past year rates of disordered 
gambling along with 95 percent confidence intervals. Past year rates 
tend to be more conservative and precise because these estimates avoid 
some of the timeframe problems often associated with prevalence 
research. Whether we use lifetime or past year rates, disordered 
gambling reveals itself with remarkable consistency across research 
study protocols. Disordered gambling does not, however, appear with 
equal prevalence among every segment of the population. Young people 
evidence higher rates of gambling disorders when compared with adults 
from the general population (National Research Council, 1999; Shaffer 
et al., in press). Psychiatric patients experience even higher rates of 
gambling disorders than do adults and young people from the general 
population (National Research Council, 1999; Shaffer et al., 1997).

                                                     Table 1
----------------------------------------------------------------------------------------------------------------
                                                                                                    Treatment/
                                                       Adult       Adolescent *       College         Prison
----------------------------------------------------------------------------------------------------------------
Level 3 Lifetime................................            1.92            3.38            5.56            5.44
                                                     (1.52-2.33)     (1.79-4.98)     (3.54-7.59)   (11.58-19.31)
Level 2 Lifetime................................            4.15            8.40           10.88           17.29
                                                     (3.11-5.18)    (5.61-11.18)    (4.86-16.89)   (11.05-23.53)
Level 1 Lifetime................................           93.92           90.38           83.13           67.61
                                                   (92.79-95.06)   (86.49-94.29)   (74.71-91.55)   (58.10-77.11)
Level 3 Past Year...............................            1.46            4.80
                                                     (0.92-2.01)     (3.21-6.40)
Level 2 Past Year...............................            2.54           14.60
                                                     (1.72-3.37)    (8.32-20.89)
Level 1 Past Year...............................           96.04           82.68
                                                   (94.82-97.25)   (76.12-89.17)
----------------------------------------------------------------------------------------------------------------
* Although mean past-year estimates are higher than mean lifetime estimates for adolescents, there is
  considerable overlap between the confidence intervals of these measures; adolescents' past-year gambling
  experiences are likely to be comparable to their lifetime gambling experiences. Differences between
  instruments that provide past-year estimates among adolescents and instruments that provide lifetime estimates
  among adolescents most likely account for these discrepancies.

    Our research reveals that these prevalence estimates are robust. 
Regardless of the methods used to calculate these rates, the research 
protocols that produced the estimates, or our attempts to weight these 
rates by a variety of algorithms, including methodological quality 
scores, the resulting estimates of pathological gambling remained 
remarkably consistent. The most precise past-year estimates tend to 
vary within a very narrow range around 1 percent \2\ (Shaffer & Hall, 
in press; Shaffer et al., 1997; Shaffer, Hall et al., 1999).
---------------------------------------------------------------------------
    \2\ For example, among adults from the general population, 
estimates of level 2 lifetime disorders ranged from 2.95-3.85; and 
estimates of level 3 disorders ranged from 1.50-1.60.
---------------------------------------------------------------------------
    Table 2 presents our most recent findings that update and revise 
earlier estimates (Shaffer & Hall, in press). Table 2 also includes 
Andrews' Wave M-Estimator estimates that are likely more accurate than 
our previous estimates since these values diminish the weight of 
research estimates that represent outliers.

                                                     Table 2
----------------------------------------------------------------------------------------------------------------
                                                                                                   Treatment or
         Estimate Time Frame & Statistic               Adult        Adolescent        College         Prison
----------------------------------------------------------------------------------------------------------------
Level 3 Lifetime................................
    Mean........................................            1.92            3.38            5.56           15.44
    Median......................................            1.80            3.00            5.00           14.29
    5% Trimmed Mean.............................            1.78            3.33            5.14           15.07
    Andrews' Wave M-Estimator...................            1.73            2.74            4.64           13.49
Level 2 Lifetime................................
    Mean........................................            4.15            8.40           10.88           17.29
    Median......................................            3.50            8.45            6.50           15.64
    5% Trimmed Mean.............................            3.76            8.35            9.83           17.01
    Andrews' Wave M-Estimator...................            3.31            8.22            6.51           16.59
Level 3 Past Year...............................
    Mean........................................            1.46            4.80
    Median......................................            1.20            4.37
    5% Trimmed Mean.............................            1.27            4.77
    Andrews' Wave M-Estimator...................            1.10            4.65
Level 2 Past Year...............................
    Mean........................................            2.54           14.60
    Median......................................            2.20           11.21
    5% Trimmed Mean.............................            2.25           13.83
    Andrews' Wave M-Estimator...................            2.15           11.26
----------------------------------------------------------------------------------------------------------------

                     gambling & disordered gambling
    Gambling in contemporary America is virtually ubiquitous. 
Approximately 90 percent of high school seniors have placed a bet 
during their lifetime (Shaffer et al., 1995). College and high school 
students represent young people who have lived in an America where 
widespread legal gambling has been endorsed and promoted for their 
entire lifetime. As this behavior has become normalized during the past 
several decades, with few educational messages to the contrary, young 
people have not had the opportunity to develop the ``social immunity'' 
necessary to protect them from developing gambling disorders.
    Our research reveals that, during the past 23 years and in spite of 
higher rates of disordered gambling among adolescents and substance 
abusing or psychiatric patients in treatment, only the adult segment of 
the general population has shown an increasing rate of gambling 
disorders (Shaffer & Hall, in press; Shaffer et al., 1997; Shaffer, 
Hall et al., 1999). Among the risk factors for gambling disorders, 
gender, age, psychiatric status, and family history appear among the 
most important (Shaffer et al., 1997). For example, adults in treatment 
for substance abuse or other psychiatric disorders are almost 9 times 
more likely to have a level 3 gambling disorder during their lifetime 
when compared with adults from the general population. Similarly, 
adolescents from the general population and college students have a 
greater risk of experiencing a gambling disorder compared with their 
adult counterparts by a factor of about 2.5-3 times. Males from the 
adult general population are almost 2 times more likely than their 
female counterparts to suffer level 3 gambling problems during their 
lifetime. Male college students are almost 4 times more likely to have 
serious gambling problems compared with their female counterparts.
               what is responsible for the rate increase?
    The rate increase we observed among adults from the general 
population could be due to many factors. For example, during the past 
two decades, the increased availability and accessibility to gambling, 
increased social acceptance of gambling, few messages about the 
potential risks and hazards of gambling, an increasing desire to 
participate in risk-taking activities, a decline in the belief that one 
can achieve the ``American dream,'' a growing sense of emotional 
discomfort, malaise or dysthymia, all could play a meaningful or small 
role in increasing the rate of disordered gambling among the general 
adult population.
    Observers tend to think that disordered gambling is growing in 
direct proportion to the expansion of legalized gambling opportunities. 
This is not an accurate perception (e.g., Campbell & Lester, 1999). 
Assessing shifting social trends is very difficult without evidence 
from prospective research. However, even the casual observer will find 
it is easy to see that gambling certainly has expanded much more 
rapidly than the rate of disordered gambling. Tobacco is arguably the 
most virulent object of chemical dependence. In spite of its wide 
availability and legal status, tobacco has a much smaller user base 
than 20 years ago. Therefore, we must conclude that availability is not 
a sufficient explanation for the increased rate of an addictive 
disorder. This observation has received additional support from the 
results of our new casino employee research (e.g., Shaffer & Hall, 
under review; Shaffer, Vander Bilt, & Hall, 1999).
    In part, the history of gambling research inadvertently has fueled 
the perception that expanded gaming (i.e., lottery, casino, charitable) 
is the sole cause of increased gambling problems. Of the more than 200 
studies of gambling prevalence, the early gambling prevalence studies 
tended to focus on the adult general population--the population segment 
with the lowest rate of gambling disorder. More recent studies have 
examined young people and other potentially high-risk population 
segments. Consequently, the shifting evidence provided by studies of 
population segments with higher base rates of gambling disorders have 
biased the prevailing subjective impressions among the public that 
disordered gambling prevalence rates are rapidly increasing (Shaffer et 
al., 1997).

    The Chairman. Thank you, Dr. Shaffer.
    Ms. Tracy Dodds Hurd, welcome.

    STATEMENT OF TRACY DODDS HURD, ASSOCIATE SPORTS EDITOR, 
                     CLEVELAND PLAIN DEALER

    Ms. Hurd. Thank you, and I would like to take a minute to 
say thank you to Mr. Sheridan. As a former sports writer and 
now a sports editor, I'm very flattered that he thinks that 
while law enforcement agencies would have no way of knowing 
when points are being shaved, that sports writers would be all 
over it. We're very flattered, thank you.
    I am here to address simply the publication of point 
spreads in hundreds of newspapers across the country. It's a 
subject that sports editors have been debating for the past 
several years and I've been in the middle of it, first as the 
sports editor of the Austin American statesman, and now as a 
member of the Cleveland Plain Dealer sports staff.
    The publication of the college line became an issue for us 
when the NCAA's Basketball Committee considered a plan to 
coerce us into dropping the line. Now, I don't know if any of 
you have ever tried to coerce a newspaper editor into not 
publishing something, but that's a bad plan, that's not going 
to work.
    But it did open lines of communication on how everybody in 
the NCAA felt about the line and why we should be addressing 
it. But if you push that First Amendment button, you're just 
going to get sports editors digging in their heels.
    The only reason I want to talk First Amendment is I can't 
speak for sports editors of the country and I can't tell you 
what other newspapers will do, because every paper in our 
country has the right to decide its own editorial content. And 
in that vein, I'm very curious about this national association, 
Newspaper Association of America, that I'm hearing quoted as 
saying that it would continue publishing the line.
    I'm not familiar with that organization, but I think you 
should look into the context of that statement because I 
strongly suspect that what they are saying is it would not mean 
we can't publish the line. Whether they would continue or not, 
that's what I'm here to talk about, because what I can tell you 
is I can share with you the debates among the sports editors on 
this subject.
    Ever since the NCAA challenged the sports editors to 
examine their policies and follow their judgment on whether 
they want to run that line, we've been discussing it at 
national conventions and it's been a subject in our 
newsletters. We've seen some of the top publications 
discontinue publication of the college line. Notably, the New 
York Times does not run the line, the Sporting News does not 
run the line, and I'm told The Washington Post has never run 
the college betting line. The LA Times has recently scaled back 
its running of the line publishing only the football line, and 
only once a week instead of daily.
    Now, I found that interesting and I didn't quite understand 
it, so I called Bill Dwyer, the sports editor at the LA Times, 
and asked him why he would distinguish between the two. He said 
basically he would rather drop all lines that he believes the 
NCAA has some very good points why we should not have lines on 
college sports, but he acknowledges also that the line gives 
some information that he knows a lot of people want to know on 
colleges. He thinks that it will show relative strengths and so 
forth, and that on football that's valuable, but on basketball, 
a three-point spread can be used for nothing but gambling. 
That's his opinion there.
    But what the LA Times is doing there is it's striking a 
compromise between the two sides of this issue as sports 
editors break it down. On one hand, a lot of us feel we are not 
acting responsibly when we publish a betting line that we know 
full well is going to be used for illegal gambling. We don't 
feel real good about that.
    On the other hand, we're giving our readers information 
they want. And yes, it is very competitive, and yes, it is 
available in other newspapers, it's available on TV, it's on 
the Internet. You can subscribe to individual experts. But I 
don't think the general public would go to that extreme.
    When I was asked to drop the line in Austin I was torn 
because personally I don't think we should be running college 
lines, and I buy into what all the coaches and the athletes are 
saying.
    I've covered college sports for decades. I know what goes 
on with the kids on campus. They are not exaggerating about the 
bookies in every fraternity, in every dorm, they are there. And 
I know what a mistake a kid can make and ruin his life. So I am 
of the belief that the NCAA is not crying wolf, that there is a 
real crisis out there.
    But I continue the publication of the line because I was in 
the middle of Texas and that State is crazy for sports and 
Dallas and San Antonio and Houston run the line. Now I'm at the 
Plain Dealer, it's Ohio's largest newspaper, that's a different 
situation. We still publish the line because our readers expect 
it and our sports editor says well, information can't be 
illegal. But we are very aware of the fact that that line is 
set in Las Vegas where betting on college sports is legal, and 
we are simply telling our readers what the gamblers there are 
doing.
    If gambling were not legal anywhere in the United States, 
would we go out of our way to find information in another way 
to give people information on something that's an illegal 
business everywhere? The Plain Dealer would not. If it were 
illegal everywhere in this country, we would not run the 
betting line, and what I have heard from other sports editors, 
and I know hundreds of them, I think a lot of other newspapers 
would take that same stance and would stop running the line in 
the daily newspaper.
    [The prepared statement of Ms. Hurd follows:]

   Prepared Statement of Tracy Dodds Hurd, Associate Sports Editor, 
                         Cleveland Plain Dealer
    I am here to address the subject of the publication of college 
point spreads in hundreds of publications across the country.
    It's a subject sports editors have been debating for the past 
several years. I've been in the middle of it as the sports editor at 
The Austin American-Statesman and now as a member of the sports staff 
at The Cleveland Plain Dealer.
    The publication of the college line became an issue for us when the 
NCAA's basketball committee considered a plan to coerce sports editors 
to stop publishing the line. At the time, I was an officer of the 
sports editors' national organization, the Associated Press Sports 
Editors (APSE). Now, I don't know if any of you have ever attempted to 
coerce a newspaper editor not to publish something--but I don't advise 
it. It doesn't work. You push that button and you're going to hear all 
about the First Amendment. You're going to see editors digging in their 
heels and calling their lawyers.
    Of course, you know all about the First Amendment, so I won't give 
that speech now--except to issue the disclaimer that I can't speak for 
other sports editors or other newspapers. Each newspaper has the right 
to decide its own editorial content.
    What I CAN do, what I am here to do, is share with you the 
positions and attitudes of the sports editors who have been embroiled 
in these discussions.
    Ever since the NCAA challenged the sports editors to examine their 
policies and follow their good judgment, the issue has been coming up 
at our national conventions and in our newsletter.
    We have seen some top publications discontinue publication of the 
college line, including The New York Times and The Sporting News. First 
on that front was The Washington Post, which I am told has never 
published the college line.
    The Los Angeles Times has scaled way back, publishing only the 
college football line, and that only once a week instead of daily. I 
asked Bill Dwyre, sports editor of The L.A. Times, why he would 
distinguish between football and basketball. He said he would like to 
drop all betting lines--for all the reasons the NCAA has put forward 
about why betting on college sports is a problem--but he acknowledges 
some informational value to the football lines. As he put it, ``Knowing 
Texas is favored by 3 points over Texas A&M tells me a lot about the 
relative strengths of the two teams. A 3-point spread in basketball is 
good for nothing but gambling--and that's not legal in California.''
    What the Los Angeles Times has done is strike a compromise between 
the two sides of the issue as it is most often broken down by sports 
editors. On one hand, we are not acting responsibly when we publish a 
betting line knowing full well that it is going to be used for illegal 
gambling; but on the other hand, we are in the business of giving our 
readers the information they want, because if we don't, they'll get it 
elsewhere.
    We are in competition, not just with other newspapers, but with 
television and the internet.
    When I was asked to drop the Latest Line from the Austin American-
Statesman, I was torn.
    Personally, I don't think it is right for us to publish college 
betting information. And I'm not saying that to take a moral stance 
against gambling. People who want to gamble can find legal outlets. But 
having covered college sports for decades, knowing what it's like for 
those kids on campus, knowing the presence of bookies in the 
fraternities and dorms, knowing what a mistake in judgment could cost 
those young athletes, I am of the belief that the NCAA is not crying 
wolf. There is a real crisis pending for college sports.
    I continued publication of the Latest Line because I was a sports 
editor in the middle of Texas, a State crazy for college sports, at a 
newspaper trying to compete with Dallas, San Antonio and Houston. All 
of those newspapers publish the line.
    I am now on the staff of Ohio's largest newspaper, The Plain 
Dealer. We publish the Latest Line because our readers expect it and 
because the sports editor, Roy Hewitt, is of the belief that 
information cannot be illegal.
    The line is set in Las Vegas, where betting on college sports is 
legal. We are simply telling our readers what the gamblers there are 
doing. But if gambling were NOT legal anywhere in the United States? 
Would we seek out information from bookies conducting an illegal 
business? The Plain Dealer would not.
    What I have heard from other sports editors leads me to believe 
that most newspapers would take the same position and stop publishing 
college betting lines--which would take away the legitimacy college 
gambling gets from being included in daily newspapers.

    The Chairman. Thank you very much.
    Coach Newell, welcome.

               STATEMENT OF PETE NEWELL, COACH, 
             MEMBER OF THE BASKETBALL HALL OF FAME

    Mr. Newell. Thank you, Chairman, distinguished members of 
the Committee.
    My name is Pete Newell, and I'm here to thank you for 
inviting me to testify. I spent my life in coaching and, 
teaching the game of basketball. I'm a member of the Hall of 
Fame, and I've felt the joy of winning the 1949 NIT 
championship while at the University of San Francisco, in 1959, 
the NCAA championship at University of California Berkeley, and 
was very proud of being the coach of the 1960 Rome Olympic team 
where we won a gold medal.
    And I'm grateful, very much grateful for the opportunity 
that the game of basketball has given me and my family. But I'm 
here today to voice strong opposition to the Amateur Sports 
Integrity Act.
    This legislation will not bring integrity to the game. It's 
only going to make gambling worse. As someone who has lived 
through the mistakes of the past, I don't want to see history 
repeated. In 1949, when I was a young coach, I took my team, 
the University of San Francisco, to the NIT in Madison Square 
Garden.
    I was there during the era to witness the terrible point 
shaving scandals of that period. It took many years of 
investigation to reveal the full extent of those schemes and 
fixes. Thirty-two players were ultimately implicated in 86 
games in 17 states. Hundreds of innocent teammates were hurt by 
these scandals.
    Now, 50 years later, the supporters of this legislation 
wrongly believe that changing the law will somehow prevent 
point shaving schemes and other fixes in college sports. But it 
isn't Nevada that's the problem. It is illegal bookies and 
widespread illegal gambling that occurs elsewhere that is to 
blame, and this has been pointed out by others before me.
    I'm here to strongly tell you that Nevada's legal sport 
book actually helps keep college sports honest. Let me tell you 
why. They help uncover schemes and fixes by picking up 
suspicious betting activity. Legal bookies, in fact, act as a 
safety valve to blow the whistle on a fixed game.
    Now, 1948, and 1949, the 1950s and the early 1960s, we had 
no monitor that was overlooking the game. We had no way of 
understanding that there was any kind of an irregularity in the 
betting of the game, and so we were out there as coaches. We 
had a problem, in New York especially, of keeping your team 
away from any kind of a public contact. I wouldn't even let the 
players go out of the hotel unless there were three of them in 
a group. I wouldn't let a phone call come in or go out of a 
player's room. The call came through me. That's how concerned 
we were for the fixers of those betting the game.
    In 1994, Nevada sports books were the ones who tipped off 
the NCAA and legal authorities that possible point shaving was 
taking place at Arizona State. They informed the Pac 10 
officials and the FBI before the game about possible point 
shaving in the game against the Washington Huskies. That's why 
it's hard for me to understand why the NCAA now wants to 
destroy the system that provides them with critical information 
on college sports. The NCAA has never single handedly uncovered 
a point shaving or game fix scandal. The NCAA even credits 
Nevada sports books with helping to uncover recent point 
shaving schemes.
    Right now, Nevada sports books provide one of the most 
consistent protectors for coaches, players and their sports 
programs. What Nevada also can do is to take the game off the 
board because of the betting pattern and regulations, and when 
the game is taken off the boards, it's a spotlight on the game, 
and a red light for all coaches, especially those two coaches 
of the games involved. It also really frightens the fixers.
    Nevada's power to take the game off the board is the 
ultimate deterrent against fixers. It can trigger an 
investigation of the players who can then finger the fixer.
    Let me be clear. I do not favor basketball gambling and the 
coaches that have been up here before the Committee, I agree 
with them. If I was coaching today and you asked me the 
question about gambling, as a coach, I'd say the same thing. 
But I would qualify my answer with have you got a better plan. 
Can you put something in motion that's going to protect the 
players, the coaches, and the universities. The universities, 
they were involved in the scandals of the forties and fifties 
and sixties. In fact, one university president lost his job 
because the school was involved. It would be a real mistake, I 
believe, to get rid of a system that has proven its worth since 
1975. College sports betting in Nevada could invite back far 
reaching scandals that plagued basketball in these periods I've 
talked about.
    The teams involved with these scandals had many talented 
players. Some of the players were involved had it not been for 
their association with the fix, would be in the Hall of Fame 
today, especially the University of Kentucky players. The Hall 
of Fame coaches, some of our greatest coaches and most 
respected coaches were involved in the sense that their team, 
some of their team members were in on a fix.
    And throughout the rest of their lives, they had that cloud 
of having coached a team that was involved in the fix. But even 
the best coaches and the college presidents did not prevent 
interference from these outside fixers. We should never return 
to those times. The current system is not completely fail safe, 
but it is the only protection that exists. And the bill would 
take that away. It is my belief that this legislation in no way 
protects the players, coaches or the institutions from the 
fixers. Supporters of this legislation ignore the fact that 
before Nevada sports books began operating in 1975, there were 
at least 40 separate point shaving incidents from the late 
1940s through the early 1970s and that since 1975, there have 
only been four such incidents. I fail to see in this 
legislation any measures that offer the protection from illegal 
gambling that college sports desperately needs. So finally, let 
me leave this with you, an old Irish expression from a young 
Irish lad: Beware of trading the devil you know for the devil 
you don't.
    Once again I want to thank you for the opportunity to 
present my position on this legislation, and I'll later be 
happy to answer any questions you may have.
    [The prepared statement of Mr. Newell follows:]

               Prepared Statement of Pete Newell, Coach, 
                 Member of the Basketball Hall of Fame
    Mr. Chairman, distinguished Members of the Committee, my name is 
Pete Newell and I would like to thank you for inviting me to testify.
    I have spent my life coaching the game of basketball. And I'm a 
member of the Basketball Hall of Fame. I've felt the joy of winning: 
the 1949 NIT championship; the 1959 NCAA championship; and coaching the 
1960 Olympic Gold Medal team.
    I'm grateful for the opportunities that the game has given me and 
my family.
    I'm here today to voice my strong opposition to the Amateur Sports 
Integrity Act. This legislation will not bring integrity to the game, 
but will only make the gambling problem worse.
    As someone who has lived through the mistakes of the past, I don't 
want to see history repeated.
    In 1949, when I was a young coach, I took my University of San 
Francisco team to the NIT in Madison Square Garden. I was there during 
that era to witness the terrible point-shaving scandals of that period.
    It took many years of investigation to reveal the full extent of 
these schemes and fixes.
    Thirty-two players were ultimately implicated in the fixing of 86 
games in 17 States. Hundreds of innocent teammates were hurt by these 
scandals.
    Now 50 years later, the supporters of this legislation wrongly 
believe that changing the law will somehow prevent point shaving 
schemes and other ``fixes'' in college sports.
    But it isn't Nevada that is the problem, it is the illegal bookies 
and widespread illegal gambling that occurs elsewhere that is to blame.
    I am here to strongly tell you that Nevada's legal sports books 
actually keep college sports honest.
    Let me tell you why.
    They help uncover schemes and fixes by picking up suspicious 
betting activity. Legal bookies, in fact, act as a safety valve to blow 
the whistle on a fixed game.
    In 1994, Nevada's sports books were the ones who tipped off the 
NCAA and legal authorities that possible point shaving was taking place 
at Arizona State.
    They informed PAC-10 officials and the FBI before the game was over 
about possible point shaving in the game against Washington.
    That's why it's hard for me to understand why the NCAA now wants to 
destroy the system that provides them with critical information on 
college sports.
    The NCAA has never single-handedly uncovered a point-shaving or 
game-fixing scandal. The NCAA even credits Nevada's sports books with 
helping to uncover recent point shaving schemes.
    Right now Nevada's sports books provides one of the most consistent 
protections for coaches, players, and their sports programs.
    What Nevada also can do is take a game off the board because of 
betting patterns and irregularities.
    When the game is taken off of the board, it's a spotlight on that 
game--and a red light for all coaches--and particularly for the two 
coaches of the teams involved.
    It also frightens the fixers.
    Nevada's power to take a game off of the board is the ultimate 
deterrent against fixers. It can trigger the investigation of the 
players who could then finger the fixer.
    Let me be clear, I am strongly opposed to gambling on college 
basketball. I know the effects gambling can have on individual players 
and the damage it can cause to the coach and his program. But it would 
be a mistake to get rid of a system that has proven its worth since 
1975.
    Getting rid of college sports betting in Nevada could invite back 
the far-reaching scandals that plagued college basketball in the 1940s, 
1950s, and 1960s.
    The teams involved with those scandals had talented players, Hall 
of Fame coaches, and the support of their universities. But, even the 
best coaches and college presidents did not prevent interference from 
those outside fixers.
    We should never return to those times.
    The current system is not completely failsafe, but it is the only 
protection that exists.
    This bill would take that away.
    So finally, let me leave you with this. An old Irish expression 
goes, ``Beware of trading the divil you know for the divil you don't.''
    Once again, thank you for the opportunity to present my position on 
this legislation. I would be happy to take any questions you may have 
at this time.

    The Chairman. Thank you, coach.
    Coach Williams, how aware are your players of the point 
spread?
    Mr. Williams. They are very aware. They read the newspapers 
and they are aware, but the good side of that is it makes them 
aware of the gambling situation and hopefully that helps. We 
talk enough about it so that they understand that whatever they 
trade currently will effect them the rest of their lives, and 
hopefully that keeps them from getting involved. But you better 
be able to talk about it because it's certainly talked about on 
campus. You know, the idea of Las Vegas, that has an image in 
automatic the players' minds, and whether you like it or not, 
that is is a code word when it comes to gambling, and we do 
fight against that, there's no doubt about it.
    The Chairman. Mr. Ivory, are your teammates very aware of 
the point spread, for example, say when you were competing in 
the NCAA Sweet 16?
    Mr. Ivory. Oh, definitely. We've had a number of 
conversations about the situation. Penn State is not a 
basketball powerhouse and this was the first year we've gone to 
the tournament, so we've always been on the bottom side of the 
point spread. So we used that to our advantage somewhat, but 
it's sometimes very discouraging, you know, when you pick up 
the paper and you see you're picked to lose before you even 
step in the gym.
    And it's definitely apparent to all of us.
    The Chairman. Ms. Hurd, suppose that college betting and 
college sports was made illegal in all 50 states instead of the 
49 that is presently the case. I'm intrigued by by Dr. 
Shaffer's reference to prohibition, I guess we have prohibition 
in 49 states but not 50. But what would be the effect on the 
line being published by people, and spread by people like Mr. 
Sheridan that live in Alabama, etcetera, and not be posted in 
places in the casinos in Las Vegas and the places where they 
bet. What effects do you think that would have on the 
publishing of lines by various newspapers, and you mentioned 
some do and some don't, of the line?
    Ms. Hurd. Well, I think when they keep saying oh, the 
newspapers would still publish a line, there are a lot of lines 
available. Even sitting in our newspaper office at night, we 
can choose between the Tribune service and the Associated Press 
and there are several others. Mr. Sheridan's line is often 
quoted. There are a lot of different people who do a line so 
you could always go and get a line, but what I am suggesting is 
that the editors of the country would then have a much tougher 
leap to say we're going to go out of our way to give you 
information on something that can only be used illegally, and 
we're going to have to go buy it. And I just don't see sports 
editors or editors of newspapers saying yeah, let's go buy a 
line to give people illegal information. I just don't see--we 
will, I shouldn't say illegal information, information on an 
illegal act. I don't think it would happen. Because right now 
they use the argument, well, we're interested. The betting line 
in Las Vegas shows you--but if there really was not good use to 
be made of it except for gambling, we would not go and look for 
a line like that.
    The Chairman. Well, I thank you, and I think that's a very 
important point. And again, I'm sorry that coach Lou Holtz is 
not here today, he fell and hurt himself. It is the likes of 
Joe Paterno, the people--I have to tell you, Mr. Sheridan and 
Dr. Shaffer and Coach Newell--the people that many of us here 
on this panel have grown up to to respect, admire, appreciate, 
like Coach Williams who now, day to day, have contact with 
these young athletes, tell us it's a corrupting influence and 
it needs to be fixed. Now that's what they tell us. Active 
coaches today, unanimously they tell us. We cannot, as a body 
and as a Committee, ignore the overwhelming body of advice that 
we receive from people like Coach Williams who tell us, who 
work with kids every single day, that they are corrupted by 
this present system and it's our obligation to do something 
about it.
    Senator Ensign.
    Senator Ensign. Thank you, Mr. Chairman. I have a few 
questions. First of all, Coach Williams, congratulations on 
your great season, but also do you feel like your kids are 
corrupted?
    Mr. Williams. I feel like they receive information that 
sets them up if the information is not countered by people like 
coaches, whoever can get to them. Parents hopefully do a much 
better job than I do. Some of the players don't have parents, 
so that's where we step in and, you know, have to take over 
that role.
    But they are aware of the money that's out there in the 
gambling industry, and I think there's a tendency when you have 
no money to say that should be part of mine, you know, and the 
sell is that, look, you're not losing the game, you're just 
changing the way the outcome of the game is, so what's the big 
deal. So that has to be countered by the university.
    Senator Ensign. And I admire and respect the stuff that 
you're doing with your kids, and I hope that it happens much 
more across the country. I think that's important for that to 
be happening at college campuses, but not just with student 
athletes but with other kids on the campuses as well.
    What did you you think though, you have somebody like coach 
Newell, who obviously, his basketball credentials, they are 
untouchable almost, and he's been through, you know, in the 
Bible, it talks about gray hair being a sign of wisdom, and he 
has more gray hair than you and I do. But when he talks about 
that, he's been through it. He's been--people don't change over 
time. People are people. Human behavior is human behavior, as 
Dr. Shaffer was pointing out.
    But when you have somebody who's been through what you've 
been through, except in a different era when we didn't have the 
sports books in Nevada and he's saying to you as a coach, he's 
saying what we're trying to do here or what the chairman is 
trying to do with this legislation is actually going to make 
the situation worse, and Dr. Shaffer is saying the same thing, 
it's going to make the situation worse, and these are not 
people who are pro gambling, these are people who are against 
gambling on college sports, but they are saying that the 
system, based on this legislation, is going to be worse for 
coaches and for players because illegal gambling forces have 
more of an influence, more of a corrupting influence on your 
players, what do you think about that?
    Mr. Williams. No one respects Coach Newell more than I do. 
I've stolen some ideas from Coach Newell in terms of how I 
coach. But at the same time, I have lived that. I was at Boston 
College as I mentioned in 1977 through the point shaving 
scandal there and saw that firsthand and saw what it did to the 
kids. What I know, and I'm not always right about everything, 
but what I know is gambling to players is gambling. It doesn't 
matter to them a lot of times whether it's illegal or legal 
gambling, it's still gambling.
    Senator Ensign. At Boston College, was that illegal 
gambling or legal gambling that was involved?
    Mr. Williams. That was, like all of them, illegal gambling 
I'm sure. But because it's legal gambling, I don't think that 
that is a reason for it to be there. I really don't. That still 
is gambling, and as I said in the players' minds, it doesn't 
matter. It's gambling Vegas bookies, it's all the same to the 
players.
    Senator Ensign. That wasn't the point. The point, whether 
you agree or you disagree with gambling, that really isn't the 
point. You can be against gambling and you can say gambling on 
college sports is wrong. The question is is this bill going to 
do anything positively to decrease the effects of gambling on 
your players? And if 99 percent of the gambling is done 
illegally including the scandal that was there at the 
university where you were----
    Mr. Williams. And including the scandals that Coach Newell 
alluded to too.
    Senator Ensign. Exactly, and what he's saying is we had all 
of these scandals beforehand. Since the Las Vegas books have 
been in place we have only had four scandals. Now, four is too 
many, and I agree with that, one is too many. But we have had a 
decrease in the amount of scandals since the Las Vegas books, 
not an increase.
    Mr. Williams. Oh, I wouldn't say that. I don't think that's 
statistically true. You're talking about a much longer period 
of time before. And the other thing is--
    Senator Ensign. OK, take the previous 25 years versus the 
last 25 years. That's the same amount of time. You have more in 
the previous 25 years than they had in the last 25 years.
    Mr. Williams. It's close, it's close.
    Senator Ensign. OK.
    Mr. Williams. It's very close, and that's a fact. But at 
the same time, if you do have all the states in this country 
the same way, then at least you can throw that out there to the 
athletes involved, whether it's football, basketball, it 
doesn't matter, that this is the way it is, this is wrong, and 
we have national legislation to support this view.
    Senator Ensign. Just for the record, Mr. Chairman, 1940s, 
at least six schools were involved. 1950s, at least nine 
schools were involved. 1960s, approximately 27 schools were 
involved, and like I said, since the Las Vegas books were in 
place, only four schools having involved.
    The Chairman. How long have the Las Vegas books been in 
place?
    Senator Ensign. 1975, sir.
    The Chairman. You're talking about 60 years from the----
    Senator Ensign. OK, let's just take the fifties and the 
sixties before that. 25 years before that. OK. So we have 36 
schools involved. Since that time we've had four schools 
involved.
    The Chairman. I think you're talking about a 10-year 
period.
    Senator Ensign. I'm talking about 25 years versus 25 years. 
Anyway,
    The Chairman. That doesn't make it any better.
    Senator Ensign. Bottom line is, I'll even give you they are 
the same, bottom line it's not worse, since the Las Vegas books 
have been involved.
    The Chairman. It's no better, either.
    Senator Ensign. But it's no worse. So doing this thing is 
not going to make it any better.
    The Chairman. No, I disagree, I think we have to do 
something. It's like when you put the warning on a cigarette 
box that says this is harmful to your health. It didn't cut out 
smoking, but it did decrease the number of young people 
involved with smoking.
    Senator Ensign. And I agree.
    The Chairman. We're trying to decrease the number of young 
people involved with betting and hopefully this is a way to do 
it.
    Senator Ensign. And I agree you should continue with the 
warnings and do the educational thing and that's analogous to 
the cigarette.
    Ms. Hurd, I would like to just ask you a real quick 
question and submit for, Mr. Chairman, for the record 
officially, if you, by unanimous consent, and that is you had 
asked the question about the Newspaper Association of America. 
I have a letter that they have sent me on April 25th, then I'll 
just briefly read from it but I'll submit the whole thing. And 
they agree with you, by the way, that first, like all editorial 
decisions, the decision whether to publish point spreads for 
college sports events is made by each newspaper, and is likely 
to vary from newspaper to newspaper. And they said that. He 
said if Congress prohibits gambling on college sports, NAA 
believes newspapers will continue to have an interest in 
publishing point spreads on college games, since point spreads 
appear to be useful to newspaper readers who have no intention 
of betting on games. Now, this is an association. You're just a 
single person.
    Ms. Hurd. Well, what I was saying was ever since the NCAA 
challenged us, all right, our organization, which is the 
Associated Press Sports Editors, it's like 400 sports editors, 
that's a very strong organization. All of the major papers are 
members of APSE, and at the time the Basketball Committee, what 
they were saying, what if we don't give credentials to papers 
that run the line----
    Senator Ensign. Are you representing your association?
    Ms. Hurd. Well, I didn't come here to do that but I can 
tell you that at the time that this was brought to me I was the 
president of APSE, yes, elected president by those 400 sports 
editors. And our first response was to say, well, we're going 
to fight that. You cannot tell us that we cannot run this line. 
So that's where I'm coming from.
    I'm further taking the next step to say that having had 
gambling panels on our national convention and having had this 
as an issue of great debate among the sports editors, I am 
representing to you that most sports editors are not going to 
go out of their way to go and buy another line to say that we 
know that this is an entirely illegal thing.
    You don't find other illegal sports represented in the 
mainstream media. And you say well, what's an illegal sport? 
Cock fighting. There's illegal. Boxing that goes on in back 
rooms. You don't see it covered. We know it happens. There's a 
lot of stuff that the mainstream media just doesn't touch.
    The Chairman. Senator Edwards.

                STATEMENT OF HON. JOHN EDWARDS, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Edwards. Thank you, Mr. Chairman, and thank you to 
the witnesses for being here to testify today. Let me say first 
of all that I'm proud to be associated with this legislation 
with Senator Brownback and Senator McCain. I think the effort 
here is very important to the integrity of college athletics.
    Regardless of the arguments about legal versus illegal 
gambling, I think it's very important for us as a country to 
send a clear and unmistakeable signal that we do not condone 
gambling on college sports. And so that there can't be any 
confusion among college athletes or college students, if they 
are placing a bet, a big bet on a college sport, it's illegal, 
period. Right now it's ambiguous because we know that at least 
in Nevada, there's somewhere around $1 billion a year being 
placed.
    Mr. Ivory, thank you very much for being here. I loved your 
testimony. My only complaint is about your decision to play 
basketball at Penn State. And it was painful for me to watch 
you help destroy UNC Tarheels in the basketball tournament. But 
we appreciate very much you being here.
    I wonder if you would just comment briefly about some of 
the pressures that college athletes go through in terms of 
financial pressure and their vulnerability to gambling 
interests.
    Mr. Ivory. It's tough. Like I said, I've been in college 5 
years and just this year, in the past year, the NCAA has 
approved legislation that allows us to get jobs during the 
athletic and academic year. But before that, it's very tough. 
Basketball is a bi-semester sport, so you can't really catch up 
on academics like you would in, say a football sport, where you 
play in the fall only and you're done by Christmas. Basketball 
is very tough, and you have academic responsibilities and you 
have athletic responsibilities. Those alone are 24-hour 
commitments.
    It's tough when you have the betting and the availability 
of getting quick money when you really have none in your 
pocket. Kids are hard-headed these days. I'm one who has just 
jumped out of adolescence, and if I didn't have the guidance 
from my parents, from my coaching staff, then it's very easy 
for me to hop on a cell phone with the new technology, hop on 
the Internet, and make a quick phone call to anyone who can 
allow me to make some extra money and allow me to, you know, 
relieve some of the pressures that I feel of not having money 
to spend on movies, you know, books, or other things that 
regular students have the opportunity to do.
    And it's tough to find sincere people out there who really 
care about you and ask those questions, how are you doing, how 
is the team doing, is anyone hurt, how is your family doing. 
It's tough when you have to watch your back when you're talking 
to a close friend over a pizza. And I think it would definitely 
help send a positive message to those out there that, you know, 
gambling is wrong on college athletes, and we really don't need 
that stress when we have all those other responsibilities to 
worry about.
    Senator Edwards. Thank you, Mr. Ivory.
    Coach Williams, congratulations on a terrific job this 
year. I wonder if you could comment from your perspective as a 
coach whether it would be helpful for your student athletes to 
know that gambling on college athletics is illegal, period, 
nationwide.
    Mr. Williams. Well, I think it would be very helpful, 
because there is some misinformation out there now because they 
know some gambling is legal. They are not sure how that affects 
them, whether the kids they see on campus making bets, is that 
legal or not legal. So I think if there was a national 
legislation out there that you could point to, they could see 
is more clearly, a little more clearer, and I think that's 
important because people like this are really role models for 
the young people coming up. They are the people this they look 
to, not the coaches or anything else. They look to the current 
players. So when a current player really has a problem, that 
really hurts a lot of people, not just the players involved. So 
I think national legislation would be a very good thing for us 
in the game of basketball.
    Senator Edwards. Do you see anything inconsistent about 
banning legal gambling on college athletics and at the same 
time increasing our efforts and resources needed to crack down 
on illegal gambling on college sports. These things aren't 
mutually exclusive. We could do both at the same time, can't 
we?
    Mr. Williams. Well, that's what I feel, that whether it's 
illegal gambling or so-called legal gambling, it's still 
gambling. So I think one leads to the other. They are 
connected, no matter what people say I really believe they are 
connected, and I think if we can do something in one area, it 
certainly will help the other area.
    Senator Edwards. Coach Newell, I was interested in your 
comment about, the last thing you said, not trading the devil 
you know for the devil you don't. From my perspective it is 
that we ought to be trying to get rid of the devil, either the 
devil we know or the devil we don't. And we appreciate all the 
comments of the witnesses here today, but I have to say I agree 
with Mr. Ivory and Coach Williams that it's very important for 
us nationally to send a clear and unmistakable signal that we 
don't condone gambling on college sports, for there to be no 
question and no ambiguity for the American people and 
particularly for kids on college campuses, to misunderstand 
that if they may be placing a bet on college sports, that in 
fact that could be a legal bet because somehow it's going 
through Las Vegas. So I think it's very important for us to 
send a clear and unmistakable signal.
    I also just want to make a comment about Bill Friday who's 
sitting back there on the front row, who we're happy to have 
here, happy to have you here, President Friday, who is from our 
state, been a great educator in the State of North Carolina for 
many years, head of our university system. He's a friend and 
also has been very involved in this issue over a long period of 
time, both personally and with the Knight Commission. And 
President Friday, we also look forward to the next panel of 
testimony. Thank you, Mr. Chairman.
    The Chairman. Senator Brownback.
    Senator Brownback. Thank you, Mr. Chairman, and I thank the 
panalists for being here and testifying and giving your wisdom 
to us.
    Ms. Hurd, let me ask you a question. Would it be your 
estimation that if this is made clearly illegal everywhere that 
a number of newspapers across the country would either cut back 
or eliminate altogether their publishing of the sports betting 
line?
    Ms. Hurd. I think that's what would happen. In discussing 
it, we have had a lot of people say but we're just reporting 
what's going on in Las Vegas so that our readers, you know, 
have a feel for what's happening there. I think there would be 
a very different look at it if it were, you know, we're going 
to give you information on an illegal endeavor. I think what we 
would start to see more involvement of editors in chief----
    Senator Brownback. That they would step in then, probably.
    Ms. Hurd. I would think so. And again, it changes from 
newspaper to newspaper whether this is totally the decision of 
the sports editor or whether you would go to your editor and 
say what do you think, should we run this line. Right now, it's 
just common, everybody does it. With saying now it's an illegal 
act everywhere, are you going to go buy a line somewhere, I 
don't think there would be a national run to go and do that.
    Senator Brownback. There would probably be a number of 
papers that would cut back on the publishing or the amount of 
times that they would publish the line. And that would enter 
into the discussion and dialog a great deal too, wouldn't it?
    Ms. Hurd. Rather than daily, you mean?
    Senator Brownback. Yes. I mean, like your paper that you 
testified----
    Ms. Hurd. I think you would either do it or not do it. I 
thought it was kind of unusual for the LA Times to say once a 
week but football you can do that. I would think you would 
either do it or not do it, and the ones that are not doing the 
college lines are still doing the pro lines.
    Senator Brownback. But you would be confident that this 
would be a reduction, there would be a reduction in the amount 
of the sports lines published.
    Ms. Hurd. Definitely.
    Senator Brownback. Dr. Shaffer, I appreciated your comments 
and testimony. I particularly liked your first suggestion that 
we should have a National Academy of Science study on the 
extents of, I take it what you're saying here, the overall 
gambling problem in America today? Is that what you're 
suggesting we have the national academy of science do?
    Dr. Shaffer. Sir, the National Academy of Sciences released 
just a little more than a year ago the first study that it had 
ever undertaken on the impact of gambling in America. It was a 
very critical review. It is, I think, the best scientific 
statement on the matter today. I was suggesting that perhaps we 
go further and specifically look at the impact of sports-
related gambling on young people and adults in America and 
begin to examine the potential ways to reduce or eliminate the 
kinds of problems that result from that.
    Senator Brownback. And it seems regardless of what we pass 
here, we should do that either way. I mean, there is a bill up 
to make illegal all of college sports gambling and there is a 
bill up to try to focus in more on illegal gambling, that 
either way or if both bills pass this would probably be a good 
thing to do, at least a follow up to what the national academy 
of sciences has done.
    Dr. Shaffer. I think it would be a wonderful follow-up. And 
of course I'm biased. I come at this from a scientific point of 
view, so I like to collect the evidence before I decide to take 
some action. In particular, I do worry about the fact that the 
evidence seems to show overwhelmingly that the kind of gambling 
activity that we're all worried and concerned about, I mean, I 
do share Senator McCain's previous comments, we're all 
concerned about this. I think all the people on both sides of 
this issue are concerned about this issue of the vast majority 
of young people who are gambling on sports are doing it 
illicitly, and they are not likely to stop because they have 
been doing it illicitly since the beginning of this kind of 
legislation in America. They have continued to violate these 
laws, and there's no reason to think that all of a sudden they 
will stop violating these laws.
    Senator Brownback. You would agree that we do have a 
problem with youth gambling and youth gambling on sports, 
clearly?
    Dr. Shaffer. Yes, sports gambling in general is one of the 
most prevalent forms of gambling in the United States and 
around the world.
    Senator Brownback. Is it one of the most prevalent amongst 
youth?
    Dr. Shaffer. It is highly prevalent among youths and adults 
actually, very close in prevalence. Youth, however, have about 
a two and a half to four or five times the rate of disorders 
related to gambling compared to their adults counterparts.
    Senator Brownback. Is sports gambling one of the dominant 
areas of youth gambling that they then develop.
    Dr. Shaffer. It's one of the dominant avenues. However, 
interestingly, the research we've done has shown that among the 
many kinds or forms of gabling, sports gambling is actually 
related to a lower rate of disorder than other kinds of 
gambling, and I can only say that for adults. We don't have 
good evidence for young people.
    Senator Brownback. So we need to look at that more for 
young people to determine.
    Dr. Shaffer. Yes.
    Senator Brownback. But we have a youth gambling problem in 
America.
    Dr. Shaffer. Clearly.
    Senator Brownback. And we have a number of youth who do bet 
on sports, clearly. And that continues to take place in America 
today. And would you deem it a problem for America?
    Dr. Shaffer. I think this sort of gambling is a serious 
problem for America. I think that it warrants our attention as 
a public health problem just as any other public health concern 
could be.
    Senator Brownback. We clearly have public health problems 
that we have not prohibited. I mean, we have not prohibited 
tobacco in the United States. We have done education around the 
issue, we have warning labels, and then we permit people to 
make choices, hopefully that will be in their best interest and 
the interest of health.
    Dr. Shaffer. I tend to favor those strategies, what I would 
call more informal social controls rather than formal social 
controls so that we don't give young people and others the 
opportunity to act out against our legislation, and sometimes 
we know that there are people who will simply act out against 
prohibitions.
    Senator Brownback. I understand your point and I think we 
all agree that the underlying, we're having a terrible problem 
here.
    The Chairman. Thank you.
    Senator Breaux.

               STATEMENT OF HON. JOHN B. BREAUX, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Breaux. Thank you, Mr. Chairman, and let me 
congratulate both you and Senator Brownback for your 
determination and your efforts in this area and the sincerity 
with which you approach the problem. I want to apologize for 
not being here for the 1st panel's testimony. I was co-chairing 
the Aging Committee hearing. This business makes you age very 
rapidly, so we have an Aging Committee that's looking at the 
problems of aging, which is very important. I was over there 
and could not be with you and so I missed your testimony and 
want to review what you have said. You are a very distinguished 
panel of men and women of great accomplishment and I want to 
read in more detail what you had to say in your statements. 
I've been trying to catch up right here.
    It seems to me, and I'll just make a statement of where I 
come from on this. It seems to me that if we all agree that 
betting and gambling on amateur sports is bad, that if we all 
agree on that, I would suggest that the legislation misses the 
target.
    I say that because statistics show us that 97 percent of 
the gambling on amateur sports is done in states where it's 
already illegal, and that 3 percent is done in the States where 
it is legal. So if you want to control it, I would suggest that 
we look to trying to identify the real target, which is where 
it is done every day, every night, where it's done by 
teenagers, where it's done by telephone, where it's done in 
secret, where it is not regulated, where it is not controlled. 
None of that fits the legalized gambling on sports that occurs 
in Nevada where 3 percent of it occurs.
    I mean, I'm amazed that the only place where it's legal is 
also the only place where it's regulated, where it's 
controlled, where it is subject to Federal taxes, where it is 
subject to State taxes, where it is subject to State audit, 
where it is regulated by a gambling commission and a board to 
supervise it, where it is not conducted in secret but it has to 
be conducted in public places, where it cannot be done over a 
telephone or by other electronic methods. It has to be done by 
physically being present in the state.
    So it seems to me that if it is a bad influence on amateur 
sports, well then what we ought to be doing is try to address 
the 97 percent of the country where it's occurring every day 
and where there's no regulation whatsoever. And I just suggest 
that we missed the target by focusing on the only place where 
it is in fact legal and where it is regulated and where young 
people are absolutely prohibited from participating. So if it's 
a problem, I think that what we have to do is to better focus 
in on how to eliminate the problem, and that doesn't seem to be 
accomplished by the legislation that's before the Committee.
    Thank you.
    The Chairman. Thank you very much.
    Are you ready? Do you want to ask another question?
    Senator Ensign. Thank you Mr. Chairman. I actually want to 
direct the comments that were made to Mr. Sheridan as far as 
can you comment just on whether, what your opinion is on the 
lines being published in newspapers across the country?
    Mr. Sheridan. Absolutely. Our survey showed that my column 
in USA Today, nationally read, about 75 percent of our readers, 
Senator McCain, are non-betters. They just want the 
information. It's like the stock report, it's 24 hours old, 
you're not going to call your stock broker and say I saw 
General Motors at 50, I'd like to buy them today at 50. That's 
a day old. You're not going to call USA Today and say Sheridan 
said that the Chicago Bears are 7-point favorites, I'd like to 
bet. You don't bet with newspapers, you bet in the general 
public. So 75 percent of the people that read the betting 
lines, according to our survey, do so and they don't bet on the 
games.
    The Chairman. I'm amazed that 25 percent do.
    Mr. Sheridan. Well, you have in this country 40 million 
Americans that illegally bet $6 or $7 billion a weekend on 
football. The comment about fixing a game, my concern about 
Nevada being removed is that the deterrent will be gone and it 
will be very easy to fix a game. I don't know Coach Williams. I 
know coach Holtz, he's a dear friend. I could mention several 
other coaches I know but I'm aware they might get black listed 
by the NCAA.
    If I could sit down with those coaches and show them where 
college games would be easily fixed and there would be no 
deterrent to deter these criminals, that criminal element, I 
promise you they would not be in favor of this legislation. The 
legislation sounds great.
    The Chairman. That's quite a commentary on their 
intelligence, Mr. Sheridan. You deal with these people every 
single day. Very interesting commentary on their knowledge of 
the issue.
    Mr. Sheridan. Well, the knowledge, as I said, I'm not the 
smartest guy in the room but I do know in my mind.
    The Chairman. I think they are pretty smart.
    Mr. Sheridan. Well, thank you.
    The Chairman. They are at the top of their profession.
    Mr. Sheridan. I do know in my mind they have a lot of 
problems, discussion, steroids, et cetera, and if I told a 
coach and he believed me that this would make it easy to fix 
you are college games, he would not be in favor of this, if he 
believed me. When you send out a message like the super bowl, 
the national championship football game, the NCAA finals, the 
Final Four, and the see in the newspapers, the Governors, the 
Senators, the mayors, they are all betting the State commodity. 
That's acceptable.
    So when you talk about this message about we're going to 
wipe out Nevada, and when I talk to these college kids, I won't 
say they laugh in my face, but they are going to continue 
betting. Nevada is like a blip on the radar screen. I don't 
care if Nevada publishes lines, it doesn't effect me. I've 
already been contacted by tons of Gannett papers and others to 
say hey, if they ban this, can we use your line, can we use the 
offshore line? The lines are still going to exist.
    Newspapers are going to carry them if they feel that 70 or 
75 percent of their readers are interested in them for 
nonbetting purposes, and if the other 25 percent are interested 
for betting purposes, they are going to carry them. Senator 
Brownback says, ``Well, take, Kansas and South Carolina off the 
betting, take them off the board.'' Fine, take them off the 
board. What will that accomplish? Zero.
    Every bookmaker in Kansas and South Carolina, I don't know 
every one of them, they would carry the betting line on Kansas 
because the people in Kansas want to bet on Kansas, they want 
to bet on sports. It's not going to change a thing. It sounds 
like, I guess it's politically correct, but again, I make this 
statement and I'll make it to coach Holtz. I'll have to go 
visit him but I don't want to single him out because he's a 
dear friend. If he knew and if he believed, and the same with 
you, sir, if he believed that if you took away this legal 
authority in Nevada and it would make it it easier to fix 
college football games, he would not be in favor of this bill.
    And I will stand here with what little reputation I have 
and tell unequivocally, 30 or 40 college basketball and college 
football games will be fixed if this bill passes, because there 
will be no deterrent, and criminal, and there are plenty of 
criminals out there that would love the opportunity, they are 
just rubbing their hands just like they would if you destroy 
the Securities and Exchange Commission, which you would never 
do, they are just rubbing their hands saying know what, I'm 
going to go bribe that kid at the University of Alabama, and 
the only person that's going to know about it is that bookmaker 
in Tuscaloosa. And you know what my penalty is going to be? 
He's going to take it off the board. So now I'm going to go to 
Auburn University and do the same thing. And this is what's 
going to happen all across the country unless there's a 
religious experience with these criminals out there, which I 
don't expect to happen.
    Senator Ensign. Thank you, Mr. Sheridan.
    Dr. Shaffer, I want to, since you are the only expert, the 
only scientific expert we have in these first couple of panels, 
I want to just clarify a point that you made.
    Do you think that this bill that is being proposed today 
will do anything to curb illegal gambling amongst our players, 
amongst our college students, or amongst the 49 states that 
it's already illegal to bet on college sports?
    Dr. Shaffer. No, I don't, and the reason I don't, and 
you've just said it. It's already illegal. I think almost every 
NCAA player to a person, I haven't surveyed them all, but I do 
know a number, as I said, I'm the dad of a NCAA player, I've 
talked to many of them, they all know that this is the wrong 
thing to do. And most of them don't do it. We shouldn't be here 
indicting a group of fine young people.
    Senator Ensign. OK.
    Dr. Shaffer. Given a time period of a year.
    Senator Ensign. About 1 percent, and what's the percentage 
that will become addicted to alcohol.
    Dr. Shaffer. Alcohol runs roughly, depending upon who you 
read, about 10 percent.
    Senator Ensign. About 10 percent. So of those three, it's 
by far the lesser. The least. The thing that he brought up 
about why prohibition didn't work, Senator Biden brought up why 
prohibition didn't work, is he said it was because alcohol, we 
don't have social cocaine users, we don't have social 
methamphetamine users, but we have social drinking. It's 
acceptable in this country. And as you pointed out earlier in 
your statement, if I recall correctly, you talked about, if you 
outlaw something, that people don't respect the rule of law 
because it was socially acceptable. People looked at 
prohibition and it was kind of a joke. Whether it was in the 
Bible belt or wherever it was, they looked at it as kind of a 
joke and so it became kind of the in thing to do where they had 
these parties where they had alcohol and illegal alcohol and 
obviously it strengthened organized crime and all of the other 
things that it did. Is that analogous to what would happen with 
this type of legislation or is it happening today?
    Mr. Sheridan. I think it is analogous in many ways and not 
in other ways, so to try to be as precise as I can be, during 
prohibition we certainly did reduce the number of alcohol-
related problems among a segment of the population while 
simultaneously increasing the number of problems a different 
segment of the population. People often forget during 
prohibition, we also outlawed tobacco use in the United States, 
and it clearly did not stop the development and growth of 
tobacco.
    Senator Ensign. By the way, that would be a good question 
from our Senator from North Carolina, whether he would suggest 
that we outlaw tobacco.
    Mr. Sheridan. That gets to my next point, which is----
    Senator Ensign. Which last time I checked, causes a lot 
more problems than gambling amongst our youth.
    Mr. Sheridan. That is certainly true when we look at the 
public health consequences. There's no doubt about that.
    The Chairman. Senator Ensign, we've got another panel to 
go.
    Senator Ensign. OK. Can he finish?
    The Chairman. Please.
    Mr. Sheridan. My last point is we actually have legal drugs 
in America. We forget that we have legal drugs. Our legal drugs 
primarily are alcohol and tobacco. We have other 
pharmaceuticals, obviously. People in America understand which 
drugs are more dangerous, and which drugs are less dangerous. 
Our legislation in part correctly follows which are more and 
less dangerous.
    In some ways we actually permit dangerous drugs. Tobacco is 
a dangerous drug. I think the same would be true for young 
people and adults in America. They understand that gambling is 
not for everyone. There are certain things adults do, certain 
things children do, certain places people do things and certain 
other places people don't do those things. We teach young 
people that from the earliest of days. It's part of developing 
character. I think that while we have prohibition in 49 states 
as Senator McCain said, and not in the 50th, this same 
prohibition is not common around the world.
    The rest of the world is gambling, and given the Internet 
and given the shrinking of our world, our young people and our 
adults are getting very complicated messages, and they are not 
just simply looking at our own legislation. That simply leads 
me to conclude that the best way to help people live long, 
happy, healthy lives, is to help them learn their own social 
controls such as the informal mechanisms that start in the 
family and then spread throughout our great institutions, and 
if we can do that properly, I believe that we can regulate 
these kinds of problems even more effectively than legislation.
    The Chairman. Thank you very much. Mr. Sheridan, I would 
point out that there were two reasons why we sponsored this 
legislation. One was the NCAA and the college coaches. The 
other is because of the recommendation of a commission composed 
of some of the smartest people in America who after 2 years 
came up with this recommendation. I'm sorry you didn't have a 
chance to inform them of the evils that would accrue from this 
banning.
    Mr. Sheridan. Might I reply, or no?
    The Chairman. Sure.
    Mr. Sheridan. All right. Well, when you talk about that, 
these people have not talked to the nation's bookmakers. They 
have not been in the trenches like I have.
    The Chairman. They did a thorough and in-depth 
investigation that took 2 years, Mr. Sheridan, and they are 
some of the most highly qualified people in America that had no 
financial interest in continuing the present system.
    I thank the panel, thank you very much, and we appreciate 
your involvement and the next panel includes Dr. William C. 
Friday, President Emeritus of the University of North Carolina; 
Mr. Michael Adams, President of the University of Georgia; Mr. 
Terry Hartle who is the Senior Vice President of the American 
Council on Education; Mr. William Saum who is the Director of 
Agents, Gambling and Amateur Activities of the National 
Collegiate Athletic Association; and Mr. Edward Looney is the 
Executive Director of the Council on Compulsive Gambling.
    I'd like to welcome the panel again, and we'd like to begin 
with Dr. Friday.
    Dr. Friday, welcome and welcome to all the witnesses. Thank 
you for your patience. Obviously this is an issue that has 
generated a great deal of interest and controversy. We thank 
you very much for coming today.
    Dr. Friday.

STATEMENT OF WILLIAM FRIDAY, PRESIDENT EMERITUS, UNIVERSITY OF 
                         NORTH CAROLINA

    Mr. Friday. Thank you, Mr. Chairman.
    Mr. Adams who sits here with me is also a witness is on the 
Knight Commission. We are currently serving there together, and 
we appreciate the chance to come here.
    Let me tell you why the Knight Commission is supporting the 
legislation. In 1989, a decade of very visible scandals in this 
country drew the Knight Foundation, a newspaper-based 
foundation, into looking at this problem as a national issue. 
And at that year, a Louis Harris poll came out that found that 
8 out of 10 Americans agree that intercollegiate sport at that 
time was out of control, that athletic programs were being 
corrupted by big money, and that many cases of serious rule 
violations were under mining the basic integrity of the 
institutions themselves.
    In October 1989, the Knight foundation created the 
commission of which President Adams and I are members. That 
group, for the next 4 years, looked at intercollegiate sport in 
every dimension, and we tried to be responsive to the national 
opinion about intercollegiate sports and led to a series of 
recommendations which the NCAA has since implemented which call 
for Presidential control over university or intercollegiate 
sports and that this would extend itself itself into looking at 
the issue of academic integrity and fiscal integrity which had 
come into question in the testimony that had been given us.
    Ten years after the first of three reports that was issued 
by this foundation in 1991, 1992, and 1993, we got together 
again last fall. We got together and again last fall, the 
original commission members, and we invited others to come and 
join us. We did this to see what had happened to the particular 
recommendations made by this commission to the NCAA. Most of 
this governance commission, the recommendations of the 
commission pertaining to governance were implemented by the 
National Collegiate Athletic Association.
    What we have found this time, and we have listened to a 
number of witnesses over the last several months and will be 
issuing a statement later in the spring, is that we changed the 
whole culture of sport in this country by the impact of very 
large sums of money resulting from commercial television, and 
what is now called by Mr. Cedric Dempsey, the head of the NCAA, 
as the arms race among colleges and universities over 
intercollegiate sport.
    One aspect of this is the issue of gambling and its impact 
upon the whole dimension of college sport. What you heard Coach 
Williams say here today, my coach, one of my coaches, Dean 
Smith, has said before this same Senate Committee in the past 
as his reasons for being for this legislation. The Knight 
Commission I'm sure will be supportive of this for the reasons 
given and I will not take the time of the Committee now to 
repeat them again. Let me defer to president Adams.

STATEMENT OF MICHAEL F. ADAMS, PRESIDENT, UNIVERSITY OF GEORGIA

    Mr. Adams. Thank you very much, Dr. Friday, and Senator, we 
appreciate the opportunity to appear and appreciate your 
interest in this matter, although it's apparent you and I may 
have different views on this piece of legislation.
    Let me ask, if I might, that my testimony be made a part of 
the record and I'll summarize very briefly with all due 
respect.
    The Chairman. All of your testimonies will be made part of 
the record, full statements.
    Mr. Adams. Thank you very much. I'll just begin by saying 
that I'm here not only as president of the University of 
Georgia but also as immediate past chairman of the American 
Council on Education, which represents most of the college and 
university presidents in America, and I can tell you that there 
is overwhelming support among American's college and university 
presidents for this bill.
    I would begin by saying that while we certainly support 
title 1 of the bill that deals with illegal drug use, we're 
going to focus our very brief testimony today on title 2 having 
to do with gambling. It's apparent from the testimony you've 
already heard, and as my testimony indicates, this is a growing 
national problem.
    Gambling on college sporting events I believe should be 
prohibited in all states as is now done for high school and 
Olympic contests. Some of us who are university administrators 
are a bit mystified that we think this sort of participation 
for 18-year-olds should be illegal but 3 months later when they 
matriculate into college at 18 years and 3 months, it's now OK 
to bet on their amateur issue athletic activities. I would also 
remind the panel that we are still dealing with minors, with 
young people. They may be very accomplished athletes, they may 
have strong bodies or may be excessively tall, but you're still 
dealing in many ways with late teenagers and early 20-year-olds 
who are, I think, susceptible to some of the pressures to which 
they are subjected and I certainly believe that the PASPA 
legislation which left Nevada as the only State where this sort 
of activity is illegal, needs to have that loophole closed.
    I also would say to you, Senator, as Senator Cleland was 
gracious to come by and to mention earlier in his comments 
regarding myself, I worked for this body for 6 years. I have 
great respect for it. During the days I was chief of staff for 
Senator Baker, I've sat behind the dias where the ladies and 
gentlemen sit now, and I've watched this Committee through the 
years when Senator Baker was a member making legislation on 
many matters from interstate commerce to aviation safety to 
trucking safety and the list goes on and on. But not only do 
you legislate, but you also set a tone, and you send messages 
to the country as you legislate on a whole broad change of 
areas, and I think it's incumbent for us to make an ethical 
statement. I think this is a classic debate between money and 
moralism.
    I think we do need to send a message that this type of 
activity on college campus is and should be illegal across the 
country inclusive of all 50 states, and I would respectfully 
urge the Committee to move S. 718 out of Committee and to the 
floor. Given the support for it around the country, I'm 
confident that if it reaches the floor it would pass and I hope 
that's exactly what would happen. Thank you.
    [The prepared statement of Mr. Adams follows:]

                Prepared Statement of Michael F. Adams, 
                    President, University of Georgia
    Chairman McCain, Senators Hollings, Brownback, Cleland and other 
distinguished Members of the Committee, I am Michael Adams, President 
of the University of Georgia. I would like to thank you for holding 
this hearing, and for inviting me to share my views on the topic of 
gambling on college sports. This is a matter of considerable concern to 
the University of Georgia as well as the rest of the higher education 
community and we welcome the introduction of S. 718 as a means of 
addressing these concerns.
    First let me say that I support Title I of the legislation which 
calls for research and training in the methods of detecting 
performance-enhancing drugs. Authorizing the director of the National 
Institute of Standards and Technology to sponsor prevention and 
intervention programs is a positive step to discourage use of the 
substances by amateur athletes. However, I would like to devote the 
bulk of my testimony to Title II of the bill, which focuses on 
gambling.
    Athletics are an integral component of the college experience. The 
link between mental and physical well-being is a well established fact. 
Involvement in athletics provides an important opportunity to foster 
team building and leadership skills among students, and to teach 
valuable life lessons about hard work, dedication and ethical behavior. 
Colleges endeavor to provide as many avenues as possible for students 
to engage in athletic pursuits in both intramural and extramural 
settings. For a relatively small number of young men and women, 
participation in college sports affords an opportunity to showcase 
their extraordinary athletic gifts, and for an even smaller handful, it 
will lead to a career as a professional athlete.
    From the road to the Final Four championships for men's and women's 
basketball teams, to the University of Georgia's packed Sanford Stadium 
on a crisp autumn afternoon, to the fast-paced competition of women's 
soccer, college sports are enjoyed by millions of American spectators. 
The hopes and dreams of the young athletes and our pride in our 
institutions are the ingredients that make these contests riveting. 
This is the point of the games. This is what makes them enjoyable. 
Gambling on the outcome of these games is not only unnecessary, it has 
enormous potential to compromise the integrity of the amateur sports 
tradition.
    Gambling on college student-athletes and the games they play, 
whether done legally in the sports books of Nevada, illegally in any 
other State, or on the Internet, is a growing problem. Gambling on 
college sporting events should be prohibited in all States, as is now 
done for high school and Olympic contests. I commend the chairman, 
together with Senators Brownback, Edwards, and Jeffords, for 
introducing S. 718 to address this problem.
    Congress first recognized the potential for problems associated 
with gambling on amateur sporting events a decade ago. In 1992, 
President George Bush signed into law the Professional and Amateur 
Sports Protection Act (PASPA) to prohibit gambling on most sporting 
events. PASPA exempted four States that already conducted, or had 
enacted legislation that permitted them to conduct sports gambling 
within their borders. At that time, Nevada was the only State where 
legal gambling on high school, college, and Olympic sporting events was 
permitted. Today, Nevada stands alone as the only State in the Nation 
that legally operates a sports books on college athletic contests. With 
the benefit of hindsight, it is apparent that the granting of that 
exemption was unwise.
    In the intervening years since the enactment of PASPA, Nevada has 
made some changes in its legally sanctioned activities that bespeak an 
awareness that gambling on young, amateur athletes is indefensible. For 
example, until last year Nevada gaming regulations prohibited gambling 
on Nevada college teams, whether they played at home or outside the 
State. In response to a request last February from the National 
Collegiate Athletic Association (NCAA) that other teams be extended the 
same exemption, the State Gaming Control Board reversed its 
longstanding policy and now permits betting on Nevada teams. In another 
example--perhaps fueled by the precursor to S. 718 and the attendant 
media scrutiny--the Control Board recently has banned betting on high 
school and Olympic contests. This action places Nevada on a par with 
our other 49 States in regard to protecting high school and Olympic 
athletes, but it raises a perplexing question about the distinction 
that was made. Why are some young players and their sport deemed worthy 
of safeguarding while others in a similar age cohort are not? Nevada's 
small steps to undertake damage control clearly are inadequate.
    Over the years that Nevada has been accorded its exemption, ample 
evidence has accumulated that the existence of Nevada's legal sports 
books has had a corrupting influence that taints the environment for 
intercollegiate athletics, and fosters a general climate of disrespect 
for our laws. Support for this point of view is derived from the work 
of the National Gambling Impact Study Commission. This Commission, 
comprised of bipartisan members appointed by President Clinton and the 
leadership of the House and Senate issued its recommendations to the 
Congress in June 1999. A key finding of the Commission was that 
``sports wagering threatens the integrity of sports, it puts student 
athletes in a vulnerable position, [and] it can devastate individuals 
and careers.'' To address this, the Commission urged that the ``betting 
on collegiate and amateur athletic events that is currently legal be 
banned altogether.'' The Commission also highlighted the connection 
between Nevada's legal betting enterprise and the illegal wagering that 
goes on elsewhere. The report states that: ``One reason Americans may 
not be aware of the illegality of sports wagering is that the Las Vegas 
`line' or point spread, is published in most of the 48 States where 
sports wagering is illegal.'' I would like to put these issues into 
context as they relate to college athletes and to college students.
    First, the impact of gambling on collegiate athletes. It is easy to 
stand among these young players, many of whom tower above the rest of 
us, or to witness their strength and physical prowess on the field or 
the court and to equate them with the adult competitors of professional 
sports. It is easy to forget that overwhelmingly these individuals are 
teenagers. These are youngsters taking their first steps toward 
adulthood, still lacking in maturity and sophistication. In contrast to 
their well-paid counterparts in the ranks of professional athletes, 
they have no independent means of support. For these reasons, students 
have a particular vulnerability to financial enticements from predatory 
individuals seeking to influence the outcome of a sporting event. 
Although they are statistically infrequent, several high-profile 
gambling-related incidents have occurred involving student athletes in 
the last decade. If the amount of money legally wagered on college 
sports is allowed to escalate, the pressures on these young athletes to 
provide inside information on the team or to shave points and fix games 
is bound to increase as well.
    It is worth noting that the operative word in the 1992 legislation 
is ``protection.'' Would we even be here this morning debating the 
efficacy of S. 718 if we were discussing high school athletes? Why 
should the period between leaving high school and entering college 
deprive college athletes from the protection that covered them a mere 3 
months earlier?
    Now to my second point--the impact of gambling on the general 
student population. There is a growing body of scientific evidence that 
says gambling among the nation's youth is on the rise and is occurring 
at earlier and earlier ages. A Gallup Poll taken 2 years ago found that 
teenagers say they begin betting on sports at age 10. In addition, the 
poll found that teenagers engaged in betting at twice the rate of the 
adult survey respondents, 18 percent to 9 percent. Several factors 
contribute to this behavior. First, anyone with access to a newspaper 
can look up the point spreads on their choice of college sporting 
events. To my knowledge, only The New York Times and The Washington 
Post have adopted a policy against publication of the point spreads. 
Second, the publication of the point spreads gives an imprimatur of 
legitimacy to wagering on college contests. Third, the facility with 
which the younger generation uses the Internet and the proliferation of 
Internet gambling sites perpetuates the notion that this is a 
legitimate activity, and encourages ease of access. But for the 
existence of the Nevada sports books, illegal gambling would not be as 
profitable, as pervasive, nor as seductive to young people--many of 
whom have little awareness that it is an illegal activity outside of 
Nevada.
    The Nation's colleges are mindful of the responsibilities we bear 
in helping young people become responsible adults. Our obligations 
start first and foremost with creating an environment where ethical 
choices and good character development can flourish. This task is made 
considerably more difficult when our campuses are bombarded with 
messages from society at large that gambling on intercollegiate 
sporting events is legal, legitimate, and encouraged. Each of our 
campuses deals with these challenges in ways that are appropriate to 
the culture of our institutions. At the University of Georgia, for 
example, we make it perfectly clear to our student-athletes that 
gambling or any contact with people involved in gambling is 
unacceptable and may lead to their expulsion from the university. Most 
of our effort is focused on education. We talk to our student-athletes 
not only about the dangers of gambling outright, but of the dangers of 
being associated with people who are gambling. We make sure they 
understand that such people are looking for information that may 
influence how bets are placed--information about injuries, information 
about coaches, information about arguments between teammates. The 
message that UGA student-athletes receive is that there is no safe way 
to associate with gamblers, and that any suspicions should be reported 
immediately.
    One of the most effective programs we have involves bringing 
student-athletes from other school who have been involved in gambling 
to Athens to speak to UGA athletes. All of us recognize the power of 
peer testimony, and these young men have chilling stories to tell about 
the damaging effect their involvement with gambling has had on not only 
their athletic careers, but their lives.
    We are confident that our athletic department is virtually free of 
gambling. We have caught no student-athlete engaged in gambling. In our 
annual exit interviews of graduating athletes, only one student has 
ever said there is a gambling problem at the University of Georgia. But 
we are not naive. We know that there are students on campus who place 
bets on games. We are also very much aware of the creeping influence of 
the city of Atlanta and the potential involvement of organized crime. 
We are, therefore, ever vigilant in guarding against this problem.
    In addition, the NCAA--of which the University of Georgia is a 
member--supports a number of programs that address the sports gambling 
issue.
    In conclusion, I do not wish to suggest that enactment of S. 718 
will solve all the problems associated with sports wagering. 
Institutions, coaches, players, students and parents all have important 
roles to play in reversing the current trends. But I want to be very, 
very clear: while S. 718 will not solve all the problems, in my opinion 
it will solve the central one. By amending the Ted Stevens Olympic and 
Amateur Sports Act to ban betting on high school, college, and Olympic 
sporting events in all 50 States, it will end Nevada's legal college 
sports book franchise. This will make it clear to one and all that 
betting on a collegiate sporting event is an illegal activity. The time 
has come at long last to honor the intent of PASPA by amending the 
Stevens Act to end Nevada's preferential status.
    Mr. Chairman, and Members of the Committee, I thank you for this 
opportunity to testify in favor of S. 718 and I wish you smooth sailing 
in securing its passage.

    STATEMENT OF ED LOONEY, DIRECTOR, COUNCIL ON COMPULSIVE 
                            GAMBLING

    Mr. Looney. I'm Ed Looney, I'm with the council on 
compulsive gambling in New Jersey. What we do is we do 
prevention education and referral services. We're not making a 
stance on this bill. I think it's vitally important that we 
don't miss the mark on this legislation. I've been involved 
with compulsive gamblers for probably 30 years. I speak at, or 
the council has spoken at, in the last 15 years on an average 
of 35 to 50 high schools where we're called in to do prevention 
education programs, and we also do about 20 colleges, not only 
in New Jersey but we're called across the country to do some 
work with colleges. When they have a gambling problem go in and 
do some education.
    I'm also a certified gambling counselor, which means I 
treat compulsive gamblers. I've treated maybe a couple thousand 
compulsive gamblers on a regular basis during a 6- or 7-year 
period more intensive than I am doing today. We also treat 
compulsive gamblers in prison systems. We know that about 30 
percent of the people that are in prison are there due to 
illegal activity, many times at the root of their illegal 
activity is a compulsive gambling problem.
    I don't know if everybody in this room knows how much 
education that we have provided for our young people across 
America. There is no education, no curriculums, in high 
schools, in grade schools, in schools across this nation. I 
just wanted to lay that foundation. I would also like to say we 
had a report, the Federal study report is out.
    In my written testimony there are 35 recommendations that 
pertain to compulsive gambling, and I would hope that sometime 
the Committee would look at what those recommendations were. 
Because I don't think that was what the Commission recommended 
for this particular bill is what that recommendation was, and I 
looked at it very carefully. I would like to tell you that we 
have a major health problem in America today called compulsive 
gambling. That's a fact, that's a given.
    And what is interesting is that the adolescent rate is 
twice as high. Everyplace we've done any research we're finding 
that to be true. In New Jersey, 12 percent of the adolescents 
that we tested had problems or compulsive gambling problems. 
Across the town in New York it was 14 percent. Connecticut it 
was 11 and a half percent. Canada is 18 percent. This is the 
adolescent rate. So the rate for adolescents is much higher.
    I can tell you that young people start gambling in the ages 
of 9 and 10 years old. Inner cities they start a little 
earlier. By the time they are 12 and 14 they are playing cards 
for money, dice for money. They get involved in the problematic 
kind of gambling in high schools. By the second year in high 
school, many sports betters have book makers. Second year. 
We're talking 16-year-old youngsters (not uncommon, 
particularly in the metropolitan area, where there's a lot of 
availability and opportunity to gamble) they have book makers 
already.
    I can tell you I spoke 2 years ago at a Division 1 school 
in New Jersey and spoke to 32 young people in a dorm. How many 
kids here gamble? Twenty-eight hands went up. I asked how many 
kids have book makers. When I asked a couple other questions, 
there were 10 different book makers accessible to that one 
dormitory in the State of New Jersey. I can tell you that in 
studying compulsive gambling, and I'm very conservative about 
what we say and what we do, is that gambling is festering in 
every high school and it's an epidemic in every college campus. 
I will make this statement that I've made many times that give 
me 1 hour, put me on a residential campus university anywhere 
in America, give me 1 hour, and I'll show you where I can make 
a bet illegally.
    I'd also like to tell you a couple real fast things. I 
treated an Ivy League basketball player who fixed games. He 
fixed seven games in Ivy League in the late 1970s, and Ronny 
told me with two other people they fixed seven games. I have 
also treated a high school student in 1978 who committed a 
murder. He was a young fellow that had all kinds of athletic 
ability, he was getting all kinds of college offers, he was a 
great athlete, but he had a gambling problem, he got involved 
with a book maker. Owed the book maker $1,400 and couldn't come 
up with the money to pay him and he decided to break into his 
first house, and when he broke into his first house, there was 
a widow in there. The widow saw him, she stabbed him with a 
pen, he hit her with a bat and killed her. Their lives were 
over. She was dead and he was sentenced to life in prison.
    I treated a Division 1 football player who was suspended 
for book making on campus. He should be playing in the National 
Football League as we talk today, but because his gambling 
problem, got involved in paying off his debts by getting 
involved in bookmaking himself.
    I also treated a Division 3 baseball player that had 
tremendous athletic ability. He ended up selling marijuana on a 
college campus because he owed the book makers money. These are 
some of the things I've personally seen. New Jersey, 1992, we 
had 19 police investigations in high schools alone related to 
gambling issues. In a New Jersey high school in 1997 we had 17 
adolescents caught gambling on the NCAA tournament. I can go on 
and on. I just want to tell you one other one.
    I have a 16-year-old that took $6,000 of his life savings, 
which took him 4 years to save, in 1 day he bet it all on the 
lottery. It's not only sports betting. Kids gamble on 
everything that's available to them. The reason we found out 
about his gambling problem is because he attempted suicide and 
they called the council's help line and we went down to the 
hospital and we saw this youngster. He pulled through but the 
bottom line is it was because of a gambling problem.
    I just want to say, this bill, to eliminate sports betting, 
in my opinion, will not effectively stop gambling on college 
campuses. It's not really worth putting this kind of a 
legislation in if you really want to attack the problem. 
Ninety-eight percent of betting is actually, as we know, 
illegal. We also have Internet gambling.
    I can give you some facts and figures but I'll just give 
you one figure, that this year betting on the NCAA basketball 
game reached about a half a billion dollars, on about 440 
Internet sites (illegal sites). Reports stated that these 
illegal off-shore sites accepted almost a half of billion 
dollars worth of bets on the NCAA this year alone, and that's a 
growing thing. I remember there was one Internet site in 1995. 
Today we have over 1,000, and about 500 just take sporting 
events. So we're not going to, this legislation is not going to 
have any effect at all on this type of betting.
    The NCAA is here and they are trying to do a good effort, 
but I can say their efforts to stem gambling on a college 
campus will be ineffective, and it will continue to be 
ineffective because they are not doing the main thing that 
needs to be done if we really care about our kids, and that's 
doing education, prevention, and curriculums from the 
kindergarten to the twelfth grade, and educate people that are 
involved with our kids about compulsive gambling. The NCAA, is 
before this Committee and I know Bill Saum and I respect the 
work that he's trying to do, I've written a couple letters to 
them about their Pepsi Cola promotion, that during the NCAA, 
they get in bed with sponsors who promote gambling.
    During the NCAA basketball tournament, Pepsi has these look 
under the bottlecap contest. Kids are very, very susceptible to 
this type of thing. I treat the compulsive gamblers when they 
call me. They tell me that many times they start with these 
little contests. Here's the NCAA saying, ``Hey, we want to 
stomp out gambling, we're going to close down sites that take 
bets on college games,'' and at the same time they are 
contributing to the problem by lending their name to gambling 
contests. Educating key people can make a difference. NCAA 
people need to know what a compulsive gambler is, what makes 
him tick. These are some of the things we should be doing. I 
don't want to go on because I've used up my 5 minutes, but in 
my written testimony I have several suggestions. I want to just 
say one more thing.
    We're worried about the integrity of the game. What about 
the integrity of the youngsters getting a good college 
education? They're paying large sums of money and the college 
atmosphere is not what it should be. We've got gambling, we've 
got drugs, we've got all these kind of things. There's got to 
be more work done. You can pass all the legislation you want, 
and all these prohibitive rules and regulations. It doesn't 
work. When you prohibit something that the people want to do, 
and people want to gamble in this country, so that's not going 
to work. What is going to work is prevention and education 
programs. Put your money in that and you're going to educate 
young people who will then make better decisions and will not 
get caught up into this kind of negative activity that's 
happening on many college campuses across America.
    Thank you.
    Senator Ensign. Dr. Hartle.

 STATEMENT OF TERRY W. HARTLE, SENIOR VICE PRESIDENT, AMERICAN 
                      COUNCIL ON EDUCATION

    Mr. Hartle. Thank you very much, Senator Ensign, I 
appreciate the opportunity to be here to present our views on 
on this matter of great concern, gambling on intercollegiate 
sports.
    The hour is late and you've been very generous in your time 
and listening to all the testimony so I will just simply 
summarize the points that are in my testimony. My statement is 
presented on behalf of 16 national higher education 
associations. Together we represent the nation's 3,800 two- and 
4-year public and private colleges and universities. We 
strongly believe that S. 718 is the right legislative approach 
to close the loophole that tarnishes sports and feeds the 
rapidly expanding gambling addiction throughout the nation. I 
talk to college and university presidents every day. I have yet 
to talk to a president that did not feel this was an essential 
first step to take in an effort to reduce gambling on campus.
    I would like to offer four specific observations on why we 
believe S. 718 is the appropriate remedy for the growing 
problem of gambling on intercollegiate athletics.
    First, gambling on college sports, both illegal and legal, 
is a problem that threatens the integrity of intercollegiate 
athletic competition. It was just a couple of years ago that we 
learned of a point shaving scandal at Northwestern University 
involving the men's basketball team. The scandal involved both 
legal and illegal gambling on several games. Kevin Pendergrast, 
the former Notre Dame student who orchestrated the scam, told 
Time Magazine that, ``without Nevada, without the option of 
legally betting money in Nevada, the Northwestern basketball 
point shaving scandal would not have occurred.''
    In fact as Senator Brownback noted in testimony before this 
Committee last year, the last two major point shaving scandals 
involved legalizing betting in Las Vegas sports books. And as 
Senator Edwards said at the same hearing, there were more point 
shaving scandals in the 1990s than in the previous five decades 
combined. So we think we have a growing problem.
    Second, the State of Nevada has already recognized the 
threat that gambling poses to the integrity of amateur 
athletics and other competitions but it has been fairly 
arbitrary and selective when it comes to intercollegiate 
athletics. Until recently, Nevada imposed restrictions on 
betting on Nevada collegiate sports as well as high school and 
Olympic events.
    In January of this year, the gaming commission lifted its 
restrictions against betting on Nevada's college teams, but 
reasserted its stand against taking bets on the Olympics and 
high school events. It's also telling that the Nevada gaming 
authority prohibits betting on the Oscars and the outcome of 
political election contests, but allows gambling to continue on 
intercollegiate athletic contests.
    The state's arbitrary and selective approach to the 
imposition of gaming restrictions begs a critical question. If 
Nevada's gaming authority recognizes that there are ethical 
concerns about the effect of betting on high school or Olympic 
sports competitions or Hollywood's Academy Awards or on 
political races, how can they possibly argue that betting on 
collegiate sports events does not threaten their integrity as 
well.
    There is no question in our mind that gambling on amateur 
sports is a widespread problem affecting many levels and many 
parts of society. We think S. 718 simply cuts through the 
Gordian knot of loopholes, uncertainty and ambiguity 
surrounding bets on amateur sports by making the prohibition 
uniform throughout the country. No loopholes. No mixed signals. 
No uncertainty. A clear, unambiguous message.
    The third reason we support this bill is because colleges 
cannot begin to hold the line on illegal gambling when society 
condones and encourages legal gambling on intercollegiate 
sports. Our ability to do anything about illegal gambling, 
point shaving or other related problems is effectively 
extinguished when large-scale, legal betting on intercollegiate 
sports is permitted. Over the past 10 years while legal betting 
on college sports has been given a green light, illegal betting 
has flourished.
    According to Wayne Johnson, the chief investigator of the 
Chicago Crime Commission, ``legalized gambling only perpetuates 
illegal gambling. It does not displace it.'' Indeed, there's no 
doubt in the minds of law enforcement authority that legal 
sports betting actually fuels illegal gambling and provides two 
services for illegal bookies everywhere. First, it gives them a 
reliable source for quoting the odds on a game, and second, it 
provides a vent place to spread the risk on their bets. You 
could call this risk-spreading service performed by Nevada's 
casinos the equivalent of hedging done by currency traders.
    Even the head of the Nevada State gaming control board has 
said that, ``a lot of money made through illegal gambling is 
laid off in Las Vegas.'' If a bookie has a lot of money on one 
side of a bet, they bet the other one in Las Vegas to try and 
even the bet. In point of fact, the lines between illegal and 
legal gambling are so blurred that most Americans are 
completely unaware that most forms of gambling are illegal. 
Closing this loophole would make clear that there is a 
difference.
    Fourth and finally, there's a gap between our approach to 
some dangers that we seek to protect our youth from, and those 
that we are tacitly encouraging. Now, more than ever, there are 
multiple efforts from government, colleges and universities, 
elementary and secondary schools, the news media and the public 
at large to combat some of the dangers confronting our youth 
Grass-roots and congressional efforts have been mounted to 
prevent tobacco use by minors and to guard against drug abuse.
    On college and university campuses we are enforcing alcohol 
statutes, drug laws and publishing crime statistics. Congress 
in recent years has been increasingly active on this front. 
Last Congress witnessed the enactment of legislation to protect 
students on college campuses from sexual predators based on a 
single incident at one Arizona institution. In this Congress, 
legislation has been introduced to protect students from the 
threat of dorm fires and to notify parents when students go 
missing for more than 24 hours.
    We hope that no student ever encounters a dorm fire or a 
sexual predator, and we certainly pray that none ever go 
missing for more than 24 hours. But we do know that they are 
much more likely to be exposed to dangers of gambling than they 
are to have any of those things happening to them. There is no 
doubt that gambling among young people is on the rise and 
betting on college sports poses a serious threat to the welfare 
and well-being of student athletes who participate in these 
events.
    There's no doubt that gambling compromises the reputation 
and credibility of our academic institutions or that it 
threatens the integrity of collegiate athletics. We believe the 
Amateur Sports Integrity Act represents the best path forward. 
The legislation is not an effort to cripple the gaming 
industry. The casinos will barely feel the impact. Where it 
will be felt most palpably will be in the locker rooms, the 
coaching offices, the fraternities, the classrooms and in homes 
around the country. For that reason we strongly support this 
bill and urge its swift passage.
    [The prepared statement of Mr. Hartle follows:]

Prepared Statement of Terry W. Hartle, Senior Vice President, American 
                          Council on Education
    Chairman McCain, Senator Hollings, and Members of the Committee, I 
appreciate your invitation to testify on a matter of deep concern to 
the entire higher education community--gambling on college sports.
    My statement is presented on behalf of 16 other national higher 
education associations. Together, we represent the Nation's 3,800 
colleges and universities. We believe that S. 718 is the right 
legislative approach to closing a loophole that tarnishes 
intercollegiate sports and feeds the rapidly expanding gambling 
addiction throughout the Nation.
    Right now, Federal law prohibits betting on college sporting events 
in every State except Nevada. However, there is an exemption that 
allows books in Nevada to accept bets on college sports. This single 
exemption virtually nullifies the impact of the broader Federal 
prohibition. The justification for this exemption is difficult to 
fathom as a matter of public policy. Following the logic of Nevada's 
exemption, should Michigan be exempt from Occupational Safety and 
Health Act regulations? Florida from the drug interdiction rules? Or 
Colorado from the Fair Labor Standards Act? Why not exempt California 
from the Immigration and Nationalization Act?
    As long as there is legalized gambling on collegiate sports in 
Nevada, we will be encouraging illegal gambling on these same events in 
every other State of the Union. With the growth of the Internet and its 
reach into virtually every home in America, this problem will 
undoubtedly mushroom in the years ahead.
    We believe this problem will be dealt with most effectively and 
appropriately by the enactment of S. 718, the Amateur Sports Integrity 
Act. This legislation would extend to Nevada the current restriction 
that now applies in other States against betting on high school, 
college, and Olympic sporting events.
    S. 718 would implement the thoughtful recommendations of the 
bipartisan National Gambling Impact Study Commission, which advocated 
that all currently legal betting on college sports be banned. As the 
Commission stated in its Final Report: ``Sports wagering threatens the 
integrity of sports, puts student athletes in a vulnerable position. It 
can serve as gateway behavior for adolescent gamblers, and it can 
devastate individuals and careers.''
    We applauded the Commission's findings when they first appeared. If 
anything, since the release of the report, even more compelling 
evidence has emerged that gambling on college sports requires the 
solution proposed in S. 718. Without such a change, the integrity of 
our young athletes and amateur athletic competition from high school to 
the Olympics is placed at risk.
    I would like to offer four observations on why we believe that the 
Amateur Sports Integrity Act is the appropriate remedy for the growing 
problem of gambling on college sports contests:
    First, gambling on college sports--both legal and illegal--is a 
problem that threatens the integrity of intercollegiate athletic 
competition. It was just over 2 years ago that we learned of a point 
shaving at Northwestern University involving the men's basketball team. 
This scandal involved both legal and illegal gambling on several games.
    Kevin Pendergast, a former place kicker at Notre Dame who 
orchestrated the scam, told Time Magazine that ``without Nevada, 
without the option of [legally] betting money in Nevada, the 
Northwestern basketball pointshaving scandal would not have occurred.'' 
In fact--as Senator Brownback noted in testimony before this Committee 
last year--the last two major point shaving scandals involved legalized 
betting in Las Vegas sports books. And, as Senator Edwards has 
remarked, there were more point shaving scandals in the 1990s than in 
the previous 5 decades combined. Clearly, there is a problem and a 
growing one at that.
    But point shaving by players and former players is only one aspect 
of the problem. Equally disturbing is the impact of pervasive wagering 
by those who officiate college sporting events.
    In March 2000, the University of Michigan conducted a study, 
entitled ``Gambling with the Integrity of College Sports,'' that found 
84 percent of college referees admitted having participated in some 
form of gambling since beginning their careers as referees. Almost 40 
percent admitted placing bets on sporting events and 20 percent said 
they gambled on the NCAA tournament. Two said they were aware of the 
spread on a game and that it affected the way they officiated. Others 
knew of referees who did not call a game fairly because of gambling 
influences.
    Second, the State of Nevada has already recognized the threat that 
gambling poses to the integrity of amateur athletics and other 
competitions, but has been arbitrary and selective when it comes to 
intercollegiate athletics. The threats posed by legal and illegal 
gambling affect all levels of competition in American society. And 
recent actions by the Nevada Gaming Control Board demonstrate a 
profound awareness of this problem.
    Nevada has flip-flopped several times in its effort to get its 
gaming regulations right where teenage athletes are involved. For the 
better part of the past decade, Nevada banned betting on its own 
college teams--whether they were playing at home or away. Now, they 
have lifted this prohibition and home State teams are fair game. Also, 
for most of the decade, Nevada permitted gambling on high school and 
Olympic sports. Less than a year ago, the State switched gears and no 
longer allows wagering on these two types of amateur athletic events. 
And yet, it remains legal to gamble on intercollegiate athletic 
contests.
    From the start, however, Nevada has been dead-set against betting 
on political races or the Oscars. If Nevada's gaming authority 
recognizes that there are ethical concerns about the effects of betting 
on high school or Olympic sports competitions, on Hollywood's Academy 
Awards and on political races, how can they possibly argue that betting 
on collegiate sports events does not threaten their integrity as well?
    Is there any question that gambling on amateur sports is a 
widespread problem affecting many levels in our society? The answer, 
clearly, is no. S. 718 simply cuts through the Gordian knot of 
loopholes, uncertainty, and ambiguity surrounding bets on amateur 
sports by making the prohibition uniform throughout the country. No 
loopholes. No uncertainty. A clear, unambiguous message.
    Third, colleges cannot hold the line on illegal gambling on campus 
when society condones and encourages legal gambling on intercollegiate 
sports. Our ability to do anything about illegal gambling, point 
shaving, or other related problems, is vitiated--indeed, it is 
effectively extinguished--when any kind of legal betting on 
intercollegiate sports is permitted. Over the past 10 years, while 
legal betting on college sports has been given a green light, illegal 
betting has flourished.
    This is a big deal. According to Wayne Johnson, chief investigator 
of the Chicago Crime Commission, ``Legalized gambling only perpetuates 
illegal gambling. It does not displace it.''
    Time Magazine reports that years of wiretaps by Federal and State 
lawenforcement agencies have documented the links between legal and 
illegal gambling. For example, in 1 day during the 1997 NCAA playoffs, 
a Schenectady bookie took bets on 65 games and placed them all with 
sports books in Las Vegas. There is no doubt in the minds of law-
enforcement authorities that legal sports betting actually fuels 
illegal gambling and provides two services for bookies everywhere. 
First, it gives them a reliable source for quoting the odds on a game 
and, second, it provides a convenient place to spread the risk on their 
bets. You could even call this risk-spreading service performed by 
Nevada's casinos the equivalent of the hedging done by currency 
traders.
    Even the head of the Nevada State Gaming Control Board, Steve 
DuCharme, has said that ``A lot of money made through illegal gambling 
is laid off in Las Vegas. If a bookie has a lot of money on one side of 
a bet, they bet the other one in Las Vegas to try and even the bet.''
    Psychologist Jim Dobson, founder of Focus on the Family and a 
member of the Gambling Impact Study Commission, has made the point 
forcefully: ``Proponents of gambling attempt to tell us that there is 
no link between legal and illegal gambling on college sports, that the 
problem lies entirely with illegal betting. They are wrong. The two are 
inextricably intertwined. The legality of gambling on amateur sports in 
Nevada conveys a false sense of legality to people--especially young 
people--across the Nation. That most major newspapers publish the point 
spreads issued by Nevada serves in further heightening both the sense 
of legitimacy and the interest in college sports gambling nationwide.''
    In point of fact, the lines between legal and illegal gambling are 
so blurred that most Americans are completely unaware that most forms 
of gambling are illegal. From offices, to fraternities to high school 
lunchrooms and middle school playgrounds, the average citizen does not 
distinguish between illegal and legal betting. Closing this loophole 
would make it clear that there is a difference.
    Fourth and finally, there has been a critical (or perhaps a 
hypocritical) gap between our approach to some dangers we seek to 
protect our youth from, and those that are tacitly encouraged. Now, 
more than ever, there are multiple, united efforts--from government, 
colleges and universities, primary and secondary schools, the news 
media, and the public at large--to combat some of the dangers 
confronting our youth. Grass-roots and congressional efforts have been 
mounted to prevent tobacco use by minors and to guard against drug 
abuse. On our college and university campuses, we are enforcing 
nationwide alcohol statutes, drug laws, and publishing crime 
statistics. Increasingly, we are heeding the call for more vigilant 
efforts to prevent guns from entering our schools.
    Congress, in recent years, has become increasingly active in 
developing legislation to protect students from potential dangers that 
might affect them. Last Congress witnessed legislation to protect 
students from sexual predators on campus. In this Congress, legislation 
has been introduced to protect students from the threat of dorm fires 
and to notify parents when students have going missing for more than 24 
hours. While we hope no student ever encounters a sexual predator or a 
dorm fire, we know they are much more likely to be exposed to the 
dangers of gambling.
    Make no mistake as to the danger. As Ken Winters of the National 
Research Council has told this committee, one of the NRC's most 
reliable findings is that ``gambling is highly associated with other 
behavioral disorders, particularly depression, alcoholism, and drug 
addiction.'' And according to the National Academy of Sciences, in a 
1999 Report on Pathological Gambling, ``problems that arise as a result 
of the gambling lead to an intensification of the gambling behavior. 
Characteristic problems include extensive indebtedness and consequent 
default on debts and other financial responsibilities, disrupted family 
relationships, inattention to work, and financially motivated illegal 
activities to pay for gambling.''
    There is no doubt that gambling among young people is on the rise, 
and that betting on college sports poses a serious threat to the 
welfare and well-being of the student-athletes who participate in these 
events. There is no doubt that gambling compromises the reputation and 
credibility of our academic institutions, or that it threatens the 
integrity of intercollegiate sports.
    Despite clear evidence that the existence of legal betting on 
college sports encourages illegal betting, compromises integrity, and 
ruins lives, gambling on collegiate sports goes on year after year. 
This all hinges on the fact that there remains a safe harbor where 
betting on intercollegiate sports is permitted--a situation that 
Congress can remedy by outlawing gambling on intercollegiate athletics. 
It is imperative that we stand firm: to protect the integrity of 
college athletics, we need to declare betting on these games illegal.
    We believe the Amateur Sports Integrity Act represents the best 
path forward. This legislation is not an effort to cripple the gaming 
industry. The casinos will barely feel the impact. Where it will be 
felt most palpably will be in locker rooms, coaching offices, 
fraternities, classrooms, and homes around the country. Student 
athletics should not serve as money-making magnets for Nevada casinos.
    When you endorse S. 718, you will score a winning goal for our 
college and university athletes and for all of amateur athletics.
    On behalf of: American Association of College Registrars and 
Admissions Officers; American Association of Community Colleges; 
American Association of State Colleges & Universities; American Council 
on Education; Association of American Universities; Association of 
Independent Colleges of Art and Design; Association of Jesuit Colleges 
and Universities; Association of Southern Baptist Colleges and Schools; 
Council for Advancement and Support of Education; Council for Christian 
Colleges & Universities; Council of Independent Colleges; National 
Association for Equal Opportunity and Higher Education; National 
Association of College and University Business Officers; National 
Association of Independent Colleges and Universities; National 
Association of State Universities and Land-Grant Colleges; National 
Association of Student Financial Aid Administrators; U.S. Student 
Association.

    Senator Ensign. Mr. Saum.

       STATEMENT OF WILLIAM S. SAUM, DIRECTOR OF AGENTS, 
           GAMBLING AND AMATEUR ACTIVITIES, NATIONAL 
                COLLEGIATE ATHLETIC ASSOCIATION

    Mr. Saum. Senators, on behalf of the National Collegiate 
Athletic Association, thank you for inviting us to testify 
today to provide the association's perspectives on college 
sports wagering and to express our strong support for S. 718. 
Our message to you today is simple. We are asking you to do 
what is right for the college game and what is right for the 
young people who have earned the privilege of participating in 
those games.
    We are asking you to take steps to eliminate legal wagering 
on college competitions in the State of Nevada. When you cut 
through the rhetoric, the posturing, the accusations and 
everything else this discussion has become over the past 2 
years, the reason the NCAA is so vigorously supporting this 
legislation is this: It's right for the game, and it's right 
for our student athletes.
    I am not here to promise or even suggest that banning legal 
wagering on college sports is the total answer to such an 
insidious problem as gambling on college sports. The NCAA has 
never said that. But it is part of the equation, and as much as 
some others would not like to do so, it is the part that we are 
here to address.
    We learned that in the Arizona State and Northwestern 
scandals, Nevada casinos were used legally to lay off large 
bets that could not be accommodated in the illegal world. 
Further complicating the matter is the money laundering of 
illegal dollars through legal sports books. Steve Ducharm, 
former chair of the Nevada gaming board is quoted in a February 
1999 sports business journal article as saying,

          ``We've taken step to crack down on the amount of illegal 
        money being laundered through legitimate sports books. We 
        really have no way of knowing how much is laundered through the 
        legal sports books. Based on transcriptions of wiretaps, it is 
        millions of dollars.''

    Legal and illegal sports wagering have been a part of 
nearly every major collegiate sports wagering scandal. Let me 
repeat that. Legal and illegal wagering have been involved and 
both pose threats to our game. Illegal wagering is part of the 
problem. It is not, however, the only problem. Our efforts will 
only be successful by addressing the whole picture, legal and 
illegal wagering. The National Gambling Impact Study Commission 
issued its final report in June 1999 following 2 years of 
comprehensive study of all forms of legal gambling activity. 
The commission's report included a recommendation that has 
formed the basis for this legislative proposal before you, to 
extend the current Federal law banning gambling on amateur 
sporting events to Nevada.
    Let me be clear that the NCAA testified twice before this 
commission and on neither occasion did the association suggest 
a complete ban on sports wagering. We made our association's 
position on gambling clear, but in an effort largely directed 
at raising the commission's awareness of the problem associated 
with sports wagering, did not take the step of proposing a ban.
    Even so, without a request from the NCAA, without urging, 
the commission made the recommendation based on a volume of 
testimony on the problems associated with gambling in young 
people. What has been most interesting to me has been to watch 
what began as a proposal to extend an a ban on legal betting on 
amateur athletics, doing what is right for student athletes and 
doing what is right for the college game escalate into a battle 
about everything but the merits of the bill.
    Those who oppose the legislation will go to any lengths to 
divert discussion. We have been criticized repeatedly because 
of the size of our gambling staff and the budget dedicated to 
this program. Approximately 94 percent of all NCAA revenues 
including moneys that will be received from the $6 billion CBS 
contract are returned to the colleges and universities that are 
members of our association. Those revenues help support the 
363,000 participation opportunities for men and women on 
campus. There are currently four gambling staff members with an 
additional member to join the staff, a staff that operates 
similarly to others at the NCAA national headquarters. It is 
imperative in an association such as ours that our member 
institutions police our own campuses by knowing the rules, by 
educating, and by self-policing. Our gambling staff provides 
the framework and many of the tools, but we count on others to 
implement what we put in place.
    The NCAA strategy to attack problems associated with 
wagering on college sports is multi-focused. We continue to 
carry the message that sports wagering is an issue for our 
student athletes, and we have worked diligently to educate them 
about the problem. But we need assistance. We believe the 
loophole that allows wagering on college sports in Nevada 
should be closed.
    We need to encourage enforcement of existing laws regarding 
illegal gambling, and we believe legislation is needed to 
prohibit gambling over the Internet. The system of 
intercollegiate athletics we have is unique to the world.
    We must do everything we can to protect the rich heritage, 
tradition and integrity of intercollegiate competition. The 
Professional and Amateur Sports Protection Act has successfully 
stopped the growth of state-sponsored amateur sports gambling. 
But we need to close the lone remaining loophole. We need to do 
what is right for the college game and what is right for our 
student athletes and make sports wagering on college sports 
illegal everywhere, all of the time.
    Thank you.
    [The prepared statement of Mr. Saum follows:]
Prepared Statement of William S. Saum, Director of Agents, Gambling and 
    Amateurism Activities, National Collegiate Athletic Association
    Chairman McCain, Senator Hollings and other distinguished Members 
of the Committee, on behalf of the National Collegiate Athletic 
Association, thank you for inviting me to testify today to provide the 
Association's perspectives on collegiate sports wagering and to express 
our strong support for S. 718. This is a matter of great importance to 
the more than 1,000 colleges and universities that are members of the 
NCAA and to hundreds of thousands of student-athletes who participate 
in intercollegiate athletics annually. As an individual on the NCAA 
staff who has spent nearly 5 years working daily on this issue, it is a 
matter of personal and professional importance, as well.
    Our message to you today is simple: we are asking you to do what is 
right for the college game and what is right for the young people who 
have earned the privilege of participating in those games. We are 
asking you to take steps to eliminate legal wagering on college 
competitions in the State of Nevada.
    When you cut through the rhetoric, the posturing, the accusations 
and everything else this discussion has become over the past 2 years, 
the reason the NCAA is so vigorously supporting this legislation is 
this: it's right for the college game and it's right for our student-
athletes.
    I am not here to promise or even suggest that banning legal 
wagering on college sports is the total answer to such an insidious 
problem as gambling on college sports. The NCAA has never said that. 
But it is part of the equation and as much as some others would not 
like to do so, it is the part we are here to address. In recent months, 
discussion of the proposed ban has escalated. With that has emerged a 
mountain of material and accusations, the ``real truth'' about this and 
that, protestations about what this group has done, or what that group 
hasn't. This is for sure. That mountain has caused everyone to lose 
focus on how very simple this issue is. It's about what's right for 
student-athletes. It's about what is right for college games.
          ncaa sports wagering policies, rules and activities.
    Over a number of years, the member schools of the NCAA have adopted 
a relatively simple approach to rules governing sports wagering as they 
affect student-athletes and institutional representatives as well as 
conferences and the national office. The NCAA's position on sports 
gambling is this:
    The NCAA opposes all forms of legal and illegal sports wagering. 
Sports wagering has the potential to undermine the integrity of sports 
contests and jeopardizes the welfare of student-athletes and the 
intercollegiate athletics community. Sports wagering demeans the 
competition and competitors alike by a message that is contrary to the 
purposes and meaning of sport. Sports competition should be appreciated 
for the inherent benefits related to participation of student-athletes, 
coaches and institutions in fair contests, not the amount of money 
wagered on the outcome of the competition.
    For these reasons, the NCAA membership has adopted specific rules 
prohibiting athletics department staff members and student-athletes 
from engaging in gambling activities as they relate to intercollegiate 
or professional sporting events.
    It is not permissible to provide information to individuals who are 
involved in organized gambling activities, not permissible to solicit a 
bet on any intercollegiate team or to accept a bet on any team 
representing the school, not allowable to solicit or accept a bet on an 
intercollegiate competition for any item that has tangible value and 
not permissible to participate in any sort of gambling activity that 
involves intercollegiate athletics or professional athletics through 
any method employed by organized gambling.
    We demand these things of our young people and our staff members at 
all levels.
    In addition, in 2000, we imposed stricter sanctions on those who 
violate our rules. Student-athletes who participate in point-shaving 
activities or who solicit or accept bets utilizing organized gambling 
methods that involve wagering on their own institution lose all of 
their remaining eligibility. Those who are found to have bet or 
accepted bets generally on intercollegiate or professional athletics by 
utilizing organized gambling methods are ineligible for intercollegiate 
competition for a minimum of 1 year and lose one season of competition.
    We have established other Association policies for activities 
associated with gambling. The NCAA Division I Men's Basketball 
Championship may not be conducted in areas where gambling activities 
based on the outcome of games is permitted. So, for example, there are 
no men's basketball championship sites in the State of Oregon, where 
the lottery is based on the outcome of National Football League 
contests. The NCAA does not permit its committees to meet or conduct 
formal social activities in casinos. We have also requested the 
companies that are our corporate partners not to engage in promotions 
connected to the outcome of games. For the second straight year, we 
have conducted background checks on game officials recommended to serve 
in our marquee events, the Division I Men's and Women's Basketball 
Championships, to assure they've had no involvement in sports wagering. 
We do the same for our men's basketball staff members and the members 
of the Division I Men's Basketball Committee.
    We have committed to conducting formal research about student-
athletes and gambling. We will initiate this project in the fall to 
ascertain the amount of wagering that occurs and the impact of our 
educational initiatives on student-athletes. In addition, the NCAA is 
part of a task force directed by the National Association of Student 
Personnel Administrators that also is studying gambling on campuses.
    The Association has developed relationships with and made 
presentations to various law enforcement groups, including the FBI and 
the United States Attorney General's Advisory Group, the American 
Council on Education's secretariat, campus security officers, coaches 
associations and student life personnel. This spring we are again 
reaching hundreds of our Association members through sessions about 
sports wagering at our annual compliance seminars at three locations 
around the country.
    We utilize a multitude of tools to reach our student-athletes and 
coaches with our messages about sports wagering. Among those 
initiatives are locker-room visits with members of the Final Four men's 
and women's basketball teams, the Frozen Four teams and the finalists 
of the College World Series.
    Our approach is truly grassroots and must be. In the midst of all 
of the rhetoric surrounding this issue, it is easy to forget that the 
NCAA is a member of the higher education community. Among our primary 
functions are those of providing athletics participation opportunities 
within the framework of higher education and providing protection for 
student-athletes. We are about education and providing information to 
our membership that can lead to life-changing experiences, both in the 
classroom and on the playing field. Our mission as an Association is to 
build an infrastructure of awareness and support to equip those 
involved with student-athletes with the tools to educate them about 
damaging influences, including sports gambling.
    We are not an organization poised to infiltrate illegal gambling 
networks. We are not an organization with the authority or the charge 
to investigate illegal gambling activities on college campuses or 
elsewhere. We have and continue to process cases involving sports-
wagering when they come within the authority of the organization. We 
have brought attention for more than 5 years to a problem we would 
rather not have exist: there is illegal gambling on college campuses, 
some involving student-athletes. We support closer scrutiny of illegal 
wagering throughout society--this is not isolated to college campuses--
and certainly it should be discussed within the framework of the entire 
issue. Today, however, we examine another piece of the puzzle, which is 
eliminating the loophole that allows legal wagering on college sports 
in Nevada. We ask you to do what is right for our student-athletes and 
what is right for college games.
                   ncaa path to federal involvement.
    It has been interesting for me to watch this issue unfold. When I 
first started in my position 5 years ago after a number of years on the 
enforcement staff, the NCAA was already well aware of the direct threat 
sports wagering poses to intercollegiate contests. From the 1950s and 
the City College of New York men's basketball team point-shaving 
scandal to several others that followed in the 1960s, 1970s and 1980s, 
the Association maintained an awareness that was largely within the 
intercollegiate sports community.
    In the early 1990s, then NCAA executive director Richard Schultz 
testified in support of the Professional and Amateur Sports Protection 
Act that was enacted and is currently in effect. But attention to 
college student-athletes and sports wagering exploded in the late 1990s 
with revelations of point shaving scandals on the campuses of Arizona 
State University and Northwestern University. An audience far larger 
than the intercollegiate athletics community became concerned about the 
problem. For the first time, research showed serious links between 
student-athletes and gambling and that betting reached to those of even 
younger ages.
    We learned that in the Arizona State and Northwestern scandals 
Nevada casinos were used to legally lay off large bets that could not 
be accommodated in the illegal world. According to Federal law 
enforcement officials, more money was wagered in the Arizona State case 
than on any point-shaving scam in the history of intercollegiate 
athletics--at a minimum hundreds of thousands of dollars. Further 
complicating the matter is the money laundering of illegal sports book 
dollars through legal sports books. Mr. Steve DuCharme, former chair of 
the Nevada Gaming Control Board, is quoted in a February 1999, Sports 
Business Journal article as saying: ``We've taken steps to crack down 
on the amount of illegal money being laundered through legitimate 
sports books. We really have no way of knowing [how much is laundered 
through the legal sports books]. Based on transcriptions of wiretaps, 
it is millions of dollars.''
    Legal and illegal sports wagering have been a part of nearly every 
major collegiate sports wagering scandal. Let me repeat that: legal and 
illegal wagering have been involved and both pose threats to our game. 
Illegal wagering is a part of the problem. It is not, however, the only 
problem. Our efforts will only be successful by addressing the whole 
picture--legal and illegal wagering.
    The federally-appointed National Gambling Impact Study Commission 
issued its final report in June 1999 following 2 years of comprehensive 
study of all forms of legal gambling activity. The commission's report 
included a recommendation that has formed the basis for the legislative 
proposal before you: to extend the current Federal law banning gambling 
on amateur sporting events to Nevada.
    Let me be clear that the NCAA testified twice before this 
commission and on neither occasion did the Association suggest a 
complete ban on sports wagering. We made our Association's position on 
gambling clear but in an effort largely directed at raising the 
Commission's awareness of the problems associated with sports wagering 
did not take the step of proposing a ban. Even so, without a request 
from the NCAA, without urging, the commission made the recommendation 
based on a volume of testimony on the problems associated with gambling 
and young people.
    And that is how we've become so involved in the very political 
process of trying to get Federal legislation passed, a process that is 
very unfamiliar to us. What has been most interesting to me has been to 
watch what began as a proposal to extend a ban on legal betting on 
amateur athletics--doing what is right for student-athletes and the 
college game--escalate into a battle about everything but the merits of 
the bill. Those who oppose the legislation will go to any lengths to 
divert discussion from problems associated with legal gaming and place 
blame for all illegal sports wagering on college and universities. 
There is seemingly no end to these far-fetched attempts. But we are not 
here to argue with the casino industry. There are philosophical 
differences that will never be bridged.
    For the NCAA, this is about doing what is right for our student-
athletes and the college game.
    We have been criticized repeatedly because of the size of our 
gambling staff and the budget dedicated to the program. Approximately 
94 percent of all NCAA revenues, including monies that will be received 
from the $6 billion CBS contract, are returned to the college and 
universities that are members of the Association. Those revenues help 
support the 363,000 participation opportunities for men and women on 
campus. There are currently three gambling staff members with an 
additional member to join soon and that staff operates similarly to 
others at the NCAA national headquarters. It is imperative in an 
association such as ours that our member institutions police their own 
campuses by knowing the rules, by educating and by self-policing. That 
is how a private, nonprofit association works. Our gambling staff 
provides the framework and many of the tools, but we count on others to 
implement what we put in place.
                   legal and illegal sports wagering.
    As I mentioned previously, the NCAA believes that efforts are 
needed to address legal and illegal sports wagering. The presence of 
any sports wagering, whether legal or illegal, potentially threatens 
our contests. Our games should be viewed for the spontaneous action 
that occurs, not because one has money wagered on the outcome. Having 
said that, the Association is concerned that legal collegiate wagering 
fuels much larger illegal collegiate wagering, which now is impacting 
youngsters under 18. A 1999 Gallup Poll showed that teenagers begin 
wagering on college sports as young as 10 years old. The poll also 
showed that 18 percent of teenage respondents said they had bet college 
sports, contrasting with 9 percent of adults who wagered on college 
games.
    The economic argument about impact on Nevada forwarded by opponents 
of The Amateur Sports Integrity Act is not supported by the facts. In 
2000, approximately $2.3 billion was wagered in Nevada sports books. 
Casinos retained $124 million or about 5.33 percent of the total amount 
wagered on sports. Mr. DuCharme has said the amount kept by casinos on 
sports wagering is ``very small'' compared to other casino games. And, 
the amount wagered on college sports is only a little more than one-
third of the total. Total revenues for casinos were $9.6 billion in 
2000. It follows, then, that elimination of collegiate sports wagering 
would have little impact on State revenues or the bottom line of 
casinos. The amount bet on college sports is reportedly only four-
tenths of 1 percent of overall casino revenues.
    The image of legal sports wagering makes far more of an impression 
on the general public, however, than the dollars spent. Legal wagering 
fosters an attitude and mindset that any wagering is OK. We have 
reached the point today that young and old alike believe that wagering 
is acceptable. This acceptance isn't because of the illegal wagering 
that occurs. We've arrived at this belief because wagering is 
positioned as glamorous, sexy and cool. That kind of message has a huge 
impact.
    We have heard the arguments that the system in place in Nevada 
provides protections and security measures for the industry. Still, in 
the two cases I cited earlier at least hundreds of thousands of dollars 
were wagered legally in the point-shaving cases. Though valuable 
afterward in investigating the point-shaving incidents, the measures 
did not prevent them from occurring. It would be much more helpful for 
us to do what is right for student-athletes and the college game and 
ban all legal gambling on college sports events. We have enough faith 
in Americans to believe that those who wager legally will not race to 
wager illegally.
                          h.r. 641 and s. 338.
    The NCAA supports closer scrutiny of illegal wagering and 
encourages increased efforts by law enforcement to ensure compliance 
with Federal and State gambling laws. We encourage harsher sentencing 
for these crimes, which will help law enforcement make illegal gambling 
a priority. We do not, however, support H.R. 641 or S. 338, The 
National Collegiate and Amateur Athletic Protection Act of 2001.
    Certainly, there are elements of the bill the NCAA favors. In fact, 
some sections are similar to recommendations the NCAA made to the 
National Gambling Impact Study Commission. For example, in January 
1999, the NCAA recommended that penalties be increased for violating 
Federal sports gambling statutes, which also is part of The National 
Collegiate and Amateur Athletic Protection Act of 2001.
    Colleges and universities are addressing illegal gambling issues 
and they should expand what they are doing. But it makes no sense to 
threaten loss of all Federal funding--including grants that go directly 
to students--and impedes privacy rights to accomplish that goal. The 
legislation would require that colleges and universities monitor 
student and staff use of the Internet to determine who is gambling and 
to report that information to the Federal Government. It is simply 
wrong to assume that the NCAA and colleges and universities are 
responsible for illegal gambling activity in this country and that 
those same groups can single-handedly wipe it out. If that were the 
case, then certainly we would have taken steps to make that happen. The 
proposed National Collegiate and Amateur Athletic Protection Act of 
2001 punishes colleges and universities simply for having the courage 
to speak against the powerful Nevada gambling industry and assumes that 
illegal gambling activity occurs only on college campuses. That is 
simply ridiculous.
                               conclusion
    The NCAA's strategy to attack problems associated with wagering on 
college sports is multi-focused. We continue to carry the message that 
sports wagering is an issue for our student-athletes and we have worked 
diligently to educate them about the problem. But we need assistance. 
We believe the loophole that allows wagering on college sports in 
Nevada should be closed; we need to encourage enforcement of existing 
laws regarding illegal gambling; and we believe legislation is needed 
to prohibit gambling over the Internet.
    The system of intercollegiate athletics we have is unique to the 
world. We must do everything we can to protect the rich heritage, 
tradition and integrity of intercollegiate competition. The 
Professional and Amateur Sports Protection Act has successfully stopped 
the growth of state-sponsored amateur sports gambling. But we need to 
close the lone remaining loophole. We need to do what is right for the 
college game and what is right for our student-athletes and make 
gambling on college sports illegal everywhere all of the time.

    Senator Ensign. Thank you all for your testimony. I have a 
few questions myself here.
    First of all, Mr. Saum, do you or the NCAA or anyone else 
that is testifying in favor of this bill here today, do any of 
you have any medical experts, or any scientific evidence that 
would contradict what Dr. Shaffer has said today? We have two 
medical experts so far testifying that this bill basically will 
do nothing to curb gambling, the illegal gambling especially, 
that's going on on our college campuses, which we all agree, 
without question, is the biggest problem. Do you have any 
medical experts and if so why didn't they testify today?
    Mr. Saum. Well, actually I'm not sure that we have said 
illegal gambling is the biggest problem, but our position is is 
any type of gambling, legal or illegal is the biggest problem.
    Senator Ensign. The question was, do you have medical or 
scientific experts that will testify or that can get us 
testimony that will contradict what really two of the leading 
experts on gambling addiction and gambling problems in America 
have said and that is that this bill will do nothing except 
make the problem worse. Do you have medical experts or 
scientific experts who will contradict that testimony?
    Mr. Saum. Well, I have been a several-year acquaintance, 
friend, and business associate of Dr. Shaffer and have a great 
deal of respect for him. I think I've read most of his studies 
on gambling and youth, et cetera. I'm not familiar of any study 
that he has conducted on the topic that we're talking about 
here, removing legal sports wagers.
    Senator Ensign. And he is an expert in this field and his 
testimony today said that this bill will do nothing except 
maybe make worse the problem that currently exists today that 
we're all worried about. My question, do any of you have any 
medical experts or scientific experts who will testify or that 
you know about who will contradict that expert scientific 
statement.
    Mr. Adams. Senator, I would say with all due respect, 
that's a little bit of a crystal ball question because what 
we're talking about is the current climate, and research in the 
current climate, I would argue with you, would be different if 
we were able to change the climate down the road. And I think 
that's basically what we're talking about here today. I think 
college students participate less in illegal drug use because 
they know it's illegal. And what we're doing right now on the 
issue of gambling is we're sending fuzzy, inconclusive, and 
sometimes contradictory messages to these young people about 
the legitimacy of gambling. I would argue with you that if he 
were to come back and to conduct this research 5 years down the 
road after this bill were put in place a different result would 
ensue.
    Senator Ensign. Dr. Adams, are you an expert on the 
gambling addiction?
    Mr. Adams. I have not claimed to be.
    Senator Ensign. I did not think so.
    Mr. Adams. But I do think the culture would be different.
    Senator Ensign. Dr. Adams, our expert today, I asked you if 
you had any experts on your side that could contradict an 
expert that is contradicting what you said, and what is he 
going--and by the way, I'm a veterinarian so I have a little 
bit of understanding of the scientific process myself. You 
don't only look prospectively, you look retrospectively. What 
he testified today is he was looking retrospectively at other 
gambling problems. Remember, the Las Vegas books have only been 
there since 1975. You can look retrospectively beyond that 
period, but you can also look at other types of addictive type 
of behavior like alcoholism during prohibition. And that's some 
of the testimony he was talking about today.
    My question is do you have any testimony, and obviously I'm 
guessing because you haven't come up with any that the answer 
is no.
    Yes, Dr. Hartle.
    Dr. Hartle. Yes, I obviously have deep respect for anybody 
who is an academic Ph.D. or a medical, veterinarian Ph.D. as 
well. What our expertise is in dealing with the students, and 
what we would say is that almost every coach you have heard 
from, every college university president I have talked to and I 
believe every one that Dr. Adams and Dr. Friday have talked to, 
every college and university trustee, people who deal with 
students on a day-to-day basis, will tell you this is a first 
and essential step. I believe this evidence is just as good and 
just as important to the Committee, indeed probably more 
important, than an academic study that is not totally on point.
    Senator Ensign. What scientific evidence do you have?
    Dr. Hartle. The day-to-day interaction with students, of 
presidents, coaches, athletics directors----
    Senator Ensign. I said scientific study. You have none.
    Dr. Hartle. Well----
    Senator Ensign. You have none. You have no scientific 
study.
    Dr. Hartle. The answer you want is we do not have any and--
--
    Senator Ensign. Thank you.
    Dr. Hartle [continuing]. And based on the answer you want, 
we don't have any.
    Senator Ensign. Thank you.
    Dr. Hartle. We do have plenty----
    Senator Ensign. I want to point Dr. Adams----
    Dr. Hartle [continuing]. We do have plenty of evidence to 
make the case just----
    Senator Ensign. You do not have scientific evidence though. 
Scientific evidence is different than anecdotal evidence. Dr. 
Adams, what is the University of Georgia doing to curb 
gambling. We're talking about mixed messages. What programs do 
you have in effect not only for your student athletes, but for 
the general population.
    Dr. Adams. Well, we do have programs at orientation, 
Senator, that deal with gambling, with alcohol, illicit drug 
use across the board and the incoming students are made aware 
of those concerns. We also have a number of programs directed 
specifically at our student athletes. We do bring back to 
campus those that have been addicted to excess active gambling. 
We have them talk to student athletes. We participate in the 
NCAA program that the NCAA representative has already 
mentioned, and we make clear to all of our student athletes the 
dangers in this area.
    Senator Ensign. So you feel like you monitor this thing 
fairly closely, and you have a policy, correct, of expelling 
students if they are involved in illegal gambling activities or 
student athletes.
    Dr. Adams. I'm not aware of the specific regulation to 
which you speak----
    Senator Ensign. I'm talking about your own campus. You're 
not aware----
    Dr. Adams. I would certainly think if a student athletes 
were involved in this kind of activity, the coach would dismiss 
him to start with.
    Senator Ensign. And you're aware of the studies, NCAA, 
University of Michigan studies, about the numbers of athletes 
that are gambling?
    Dr. Adams. I am.
    Senator Ensign. Have you ever expelled anybody or have you 
ever found any of your athletes that are gambling.
    Dr. Adams. Thankfully not, and I hope it doesn't come to 
that, but I do think there's a heightened awareness today of 
the issues, Senator.
    Senator Ensign. Based on the statistics, do you think that 
University of Georgia athletes are gambling on sports?
    Dr. Adams. Well, I don't know the answer to that. I 
certainly hope not. I have no indication that they are.
    Senator Ensign. OK. I just want to point something out to 
you. If you look at the visual over here, it's pretty hard to 
read but we'll get you a copy of this. This is via the 
University of Georgia official Web site. You allow students to 
have their Web sites tied to your Web sites. And the bottom 
line is that this is one of your students, OK?
    And on this student's Web site, is a link to an offshore 
betting site. So you may want to look into that yourself 
because I believe that that's kind of a mixed message that 
you're sending to the University of Georgia.
    Dr. Adams. Well, I don't believe we're sending that 
message, Senator. It would be pretty hard for me to control the 
individual actions of 33,000 students and 10,000 employees. But 
I don't think there's any doubt what the institutional policy 
would be. This Web site connection is certainly not initiated 
by the university or any official representative of it.
    Senator Ensign. I never suggested it was. I'm just saying 
policing, part of University's responsibility is policing. If 
we're going to do things about--all we're suggesting is that 
the NCAA and its member institutions need to do a better job. I 
think that's what Mr. Looney was saying. If you heard his 
testimony, another expert in the field, he is saying that the 
universities, the NCAA are not doing enough today.
    Dr. Adams. Well, now we have a point, Senator, on which we 
can agree, and I would certainly affiliate myself with those 
remarks, but I also think with all due respect the Congress has 
an opportunity to help us create a backdrop that would make 
that sort of intervention on the part of college college and 
university administrators more effective and to go directly to 
the problem, rather than to send the kind of mixed messages 
that we're now sending.
    Senator Ensign. And I would agree once again with your 
statement. The disagreement I would have is this legislation 
doesn't do what you want. What you want is we've got to do 
something about the illegal gambling because that's where the 
problem is, and it is the Congress's responsibility to help, 
because the states, universities, the NCAA cannot deal with 
that problem by itself, and that's why Senator Reid and I have 
proposed legislation to do exactly what you've talked about, 
and that's to go after the problem.
    Senator Brownback.
    Senator Brownback. Maybe what we can do is find more, fund 
some studies about the overall addictive impacts of gambling 
and the problems we're having of addictive gambling across the 
country. I think those would be well worth it. We've got a 
number of studies we've been working off of. University of 
Michigan did a study of coaches--excuse me, not coaches, 
referees that were betting on games. A number of them said that 
it affected their calls. We've got that study. We've got 
another, I think University of Michigan study that looked at 
the players and the students' involvement in that.
    That's a study that has frequently been cited. But I would 
certainly support additional, if we want to have additional 
studies from the Federal Government, I think we've got a big 
problem here. I think Dr. Shaffer was testifying about the 
problem of youth gambling and we've got an enormous amount of 
addiction that's taking place in this country and it's hurting 
us. It's hurting our kids. I haven't heard any testimony that 
counters that. Now, that's I think maybe a broader issue than 
what we're about on this particular bill this year.
    Senator Ensign. Sir, if you would yield, I think you make a 
very valid point and that's some of--you weren't here for Mr. 
Looney's testimony on that but that's some of the stuff that he 
was alluding to earlier as well.
    Senator Brownback. Which I would certainly support that, 
because I think we've got a big problem. And we're seeing some 
of the manifestations of it taking place here. And I think 
that's why, I respect the fervor of everybody's opinion and 
feel for this, but what we're getting is all these coaches and 
players and university presidents saying we've got a problem 
here and we're confronting it regularly and now we grasp for 
how do we start to deal with this.
    I think this is a legitimate way to deal with it. Now, 
others would say not, but to the extent, if we need to and I 
think it would be wise to document the fuller nature of the 
problem, I'd be all for that and we can put some amendments 
forward even maybe on the education bill to authorize that. I 
don't think anybody would be opposed to greater review of what 
this problem is.
    Mr. Looney, I'm going to ask a question of Mr. Saum unless 
you wanted to speak on this point.
    Mr. Looney. I just wanted to say that at the root of every 
kind of gambling activity is usually compulsive gambling. 
Eighty percent of the people can gamble and kids will gamble, 
they are going to gamble and get through it with no problem. 
Ten to fifteen are going to have some problems with it. Now, 5 
percent become addicted. Now, I was at a college when Bill had 
three of the people that were caught in this gambling fix, they 
were going around to the colleges and talking and I happened to 
talk to all three of them. I know for a fact that two of those 
gentleman are compulsive gamblers. There was no college campus 
policy set in place to help them with their addiction. So I 
think these are the things we need to do. Because we have a 
responsibility to take care of people who are sick, and many 
times young people involved in these fixes, they are compulsive 
gamblers.
    What we need to do is have a policy in place in colleges 
where they could be referred to professionals, get evaluated, 
find out for a fact they are compulsive gamblers, get them into 
treatment. Compulsive gambling is a treatable illness.
    Senator Brownback. It would be. Now you're speaking 
contrary to the coaches we've had testify, which the coaches 
have said I'm always getting probed for information, I'm being 
harassed about this, I'm having to protect my players. 
Remember, the coach is acting like a parent over the players 
and they are really trying to protect them and they are seeing 
this constant push here by billions of dollars being bet.
    Mr. Saum, there's been a pretty rough criticism, I think 
unduly sown although there's a good positive side effect, it 
causes people to do more, of the NCAA not doing enough to 
prevent illegal gambling on college campuses. But you've taken 
upon yourself to make some efforts and I think you've stepped 
up some efforts. Could you identify what those are or even if 
you--I've seen previous advertising or PSAs that you've 
required the network that carries your sports events to put on.
    Mr. Saum. Well, Senator, after hearing today that we do 
nothing at the NCAA, I'm hopeful this public hearing doesn't 
get back to my wife and three kids, because they are going to 
ask me what I've been doing for the last 5 years. We do have 
public service announcements. I don't know if it's appropriate 
or not to show. We have the arrangement to show it here. It 
would take about a minute and 12 seconds if the Senators would 
like to see it.
    Senator Brownback. Yeah, sure, put it on.
    Mr. Saum. These are public service announcements that.
    Senator Brownback. When do they show Saum Sam that ran 
during the men's and women's basketball tournament?
    Senator Ensign. Yeah, and I actually saw this and I was 
glad and I agree with Senator Brownback, I'm glad that you're 
doing more.
    Mr. Saum. This is our women's PSA.
    [Videos played.]
    Mr. Saum. Senator, I'd also like to point out that while 
actually I enjoy the criticism, because we look in the mirror 
and it's a healthy thing for all of us to do I think, these 
PSAs have ran way before the casino industry or the U.S. Senate 
took any interest in sports wagering issues. So the NCAA has 
been doing this for many, many years. Other ideas and 
educational materials that we've done over the past several 
years we have developed a poster, and it appears in our locker 
room. We've actually upgraded that post tier, we have one for 
males and one for females, so we're more directive.
    You heard Titus Ivory say earlier today that he saw those 
in his locker room. We have, this public service announcement 
was put on beta tape and sent to school in the NCAA to use on 
their coaches shows and in their stadiums and arenas. We also 
developed a relationship with the national endowment for 
financial education. It's about a 40-page booklet that deals 
with financial education and sports wagering, and that was 
distributed to every student athlete in the NCAA at all three 
divisions.
    We've met continuously with our national student athlete 
advisory council groups. We've met with our coaches' 
associations. I, myself and an FBI agent make a personal 
presentation to the four teams at the men's Final Four, to the 
four teams at the hockey Frozen Four. My associate, Dina 
Gardner, met with the women's Final Four teams this year, and 
last spring and this spring we will meet with the College World 
Series eight final teams.
    We also have a program where we conduct background checks 
on our men's and women's basketball officials, and we have met 
with the official at the Frozen Four, at the College World 
Series, and at the women's Final Four.
    Those are just several of our educational programs. We have 
implemented our curriculum into our yes clinics that we put on 
for young Americans at all of our championship sites, and we 
also have a program that is called life skills, and gambling is 
now a chapter in that. So I appreciate others' comments but I 
think they are uninformed. Can we do more, absolutely.
    And one other thought I'd like to share with you you, 
Senator Brownback, and I'm sure the Senator from Nevada, say 
with great respect for his medical background, would understand 
that any time a researcher puts his point of view out there, 
any conflict of interest should be put out there aligned with 
that, and I think for the record we should understand that 
Howard Shaffer excepts tens of thousands of dollars if not 
hundreds of thousands of dollars from the casino industry.
    Senator Ensign. Just to make one comment on that, Senator 
Brownback.
    Senator Brownback. Let me finish up, if I could----
    Senator Ensign. Hold on. People have been asking the gaming 
industry to do something about their, in other words part of 
their responsibilities, like they've been asking you to do 
things about your responsibilities with the NCAA. People have 
been asking the gaming industry to do something about their 
contribution to gambling addiction, and so what they are doing, 
they are funding some people, some organizations, but they have 
nothing to do with them.
    They are sending money to make sure that they are being 
responsible. But that doesn't mean that they control any kind 
of research or any kind of statement financially, they are just 
doing part of the job that people have been asking them to do. 
And then to criticize them, you know, you put them in a no-win 
situation. I think that that's very unfair.
    Senator Brownback. Well, if I could get the floor back, I 
think it is fair to reveal what the sources are. I'm not 
accusing anyone of questioning their academic sincerity or 
ability or what they put forward, nor would I suggest that of 
Dr. Shaffer who remains in the room, and I appreciate his 
testimony.
    What I want to finish up with is the point that I've 
started with and with Dr. Shaffer, we've got an epidemic 
problem now in the country and we're seeing the manifestation 
of it here at this very high-level visible point and we're 
trying to deal with it. We may have to, at some point here, we 
probably should drop back and see how we deal with this 
epidemic problem that we have of youth gambling and 
compulsiveness that's hooking our youth in this country. This 
is a terrible situation. I think the bill should move forward, 
I hope we can move forward with more independently funded, 
government funded studies. I'd hoped the gaming industry would 
step forward with its own set of PSAs saying we don't think 
these things are right, we want to discourage compulsive 
gambling from taking place.
    I have personally witnessed individuals getting caught in 
this mental game, and it is terribly destructive, what happens. 
And I think as gaming has expanded across the country, we need 
to step up and recognize that this problem has occurred and we 
need to deal with it.
    Dr. Friday, if you'd like to comment, then I'll yield back.
    Dr. Friday. I don't want either one of you to leave without 
knowing that the American Council on Education, the NCAA, the 
Knight Commission, and many college presidents are getting 
together, looking at these kinds of problems quite seriously, 
looking at things we can do ourselves. Please understand though 
that our study of this whole question in the context of 
intercollegiate sports in this country clearly demonstrates 
that we have changed the culture in the last 10 years in the 
United States because of the presence of so much money, and 
we're dealing with a mass active problem here. Gambling is one 
piece of it, but there are many other aspects of it that we are 
trying very hard, now this group of very responsible people, to 
come forward in a few weeks with a document that will speak to 
the very context you're talking about, Senator Brownback. And I 
want you to know and take courage in the fact that there is 
responsible action here meeting its obligations. But it's a 
problem that has got to reach farther into society than just 
college presidents and trustees. It needs to be looked at as a 
major society issue. We made sports a religion in this country, 
and that's what we're talking about.
    Senator Brownback. Thank you Mr. Chairman.
    Senator Ensign. Thank you, Senator. Dr. Friday, I want to 
follow up on that briefly, and Mr. Saum, you're one of four 
people who are dealing with gambling, who are also dealing with 
agents, correct? You're over agents, correct? Those same people 
deal with both.
    Mr. Saum. Actually, I work in the enforcement services 
staff that have about 42 people and all those people are at my 
disposal. And more importantly, Senator, for one moment, we 
approach this probably much like you to get elected. We have a 
grass roots effort. We've educated all the people at president 
Adams' institution, to use a specific example. His compliance 
officer, Hoke Wilder, is Georgia's expert on gambling, right, 
and then they bring those people in. So what we have is tens of 
thousands of people involved.
    Senator Ensign. Right, but the four people you mentioned, 
do they do both gambling and agents or just gambling?
    Mr. Saum. They actually do three things, Senator. They work 
on international student athlete issues, they work on gambling 
issues, and they work on sports agent issues.
    Senator Ensign. Dr. Friday, when you were talking about the 
problem with money and big-time college athletics today, mainly 
men's basketball and men's football, although women's 
basketball is certainly becoming larger and larger. The agent 
thing is obviously a big problem. I think we're all starting to 
recognize that. And something the NCAA, and I hope you're 
adjusting, you're taking kids from the inner city and the 
rurals sometimes, and this is one of the problems, if you get 
coaches, not in public, but you take them aside and they will 
say one of the biggest problems with the NCAA is some of the 
incredibly onerous rules, you know, a coach can't even have one 
of his players over to Christmas dinner. And a lot of these 
kids are coming, you know, if you've got parents from a rich 
background, it's one thing. But a lot of these kids are coming 
from the very poor inner city background and they are expected, 
you know, to wear a suit and tie and many of them can't even 
afford it. And it's a situation where the temptations are so 
great because the universities make a lot of money, the coaches 
make a lot of money, the NCAA gets a lot of money back, but 
these kids--do any of you now, do any of you want to comment on 
the graduation rates of student athletes at these big, 
especially at the successful programs, as far as the graduation 
rates? In other words, these kids are being taken advantage of.
    They are not sharing in the money because a small 
percentage of them actually go on to the pot of gold at the end 
of the rainbow. It's a very small percentage of them, it's less 
than half of them that are actually going on to argued, unless 
you have people like Joe Paterno who need to be complimented 
for the type of graduation rates he has. But most of them are 
not like that. And these kids are being taken care of.
    Mr. Friday. Our stats show that one out of 100 ever make a 
living at professional sport once they leave the campus, 
graduate or not. That's why we are very concerned at our campus 
about what happens to this young person, staying there, if he 
goes, he comes back and finishes his degree work. We try to 
insist on that. But president Adams can give you some other 
case histories too.
    Senator Ensign. But doesn't this seem to be a bigger part 
of the problem?
    Mr. Friday. Sure it is.
    Senator Ensign. It fosters the environment for the illegal 
bookies to come in.
    Mr. Friday. I saw a story in the Boston Globe that the 
showed that in the recent 64 teams in the NCAA competition in 
basketball, 24 of them had a graduation rate below 45 percent. 
That's got to be looked at. You shouldn't be allowed to make, I 
think post season play without meeting a certain graduation 
rate.
    Mr. Saum. All right. I think now we are to the point, 
Senator that you really are preaching to the choir. We're here 
because we agree with you that those are the kind of issues 
that need to be addressed. Again with all due respect, I do 
think the NCAA has made some real progress the last few years. 
We do now have funds whereby we can deal with the kind of 
issues with poor students you talked about. There are pools 
whereby we can buy physical necessities, clothes et cetera, 
take care of a plane ticket home to a funeral that a student 
athlete needs. They can now get jobs making up to $2,000 a year 
as the NCAA participant mentioned this morning. We are moving 
down the road to----
    Senator Ensign. Just go back to that job again. When I was 
going to college I remember watching these kids, and like when 
are they going to get a job, from 9:30, 10 at night after their 
studies are done until 3:00 in the morning? Because they are 
practicing or going to school or studying the rest of the time.
    Mr. Saum. Many of these are now off-season opportunities 
that are available that were heretofore not available, and we 
are moving in the direction of addressing some of those issues 
that you raise. The University of Georgia football team led the 
SEC in graduation rates this last year. Many of us are working 
very hard in those areas. We are not yet where we need to be, 
but the people on this panel are the very ones that are trying 
to work with you and address these climate kind of issues, and 
again with all due respect, I don't think this is a legal or 
illegal issue. It's a cultural and a climate issue, and that's 
what we're asking for help in changing.
    Senator Ensign. I guess what we can do as we conclude 
today, and I want to just thank all of you for coming and your 
testimony, I guess first of all we'll have to agree to disagree 
as far as what the solution to the problem. We obviously have a 
pretty strong disagreement here. Having said that, however, I 
think that some positives can come out of these hearings. I 
think that, first of all, and I've been the first one since 
I've criticized, so don't feel bad, I've criticized the NCAA, 
I've also criticized the gaming industry for some of the things 
that they haven't done in the past on doing something about 
cleaning up their own back yard. You know, when the tobacco 
industry got up before Congress and said it's not addictive, 
you know, we all thought that was ridiculous. For gambling, for 
a small percentage of the population is addictive, it is a 
problem, the gaming industry should do its part. There are 
problems at your universities, you know the problems, we need 
to address more of them. I agree with Senator Brownback and 
with Dr. Shaffer was talking about about us doing some more 
studies and really coming up with some of the roots, because I 
did not think the legislation today is going to go after what 
you all are talking about and it's simply because of the 
pervasiveness of illegal and offshore betting, which is going 
to be there regardless of whether the McCain bill goes through 
or not. So I want to thank everybody and call this meeting 
adjourned.
    With that, I'll adjourn the meeting.
    [Whereupon, at 1:13 p.m., the hearing was adjourned.]
                            A P P E N D I X

         Prepared Statement of Lou Holtz, Head Football Coach, 
                      University of South Carolina
    Mr. Chairman, distinguished Members of the committee, I truly 
appreciate the opportunity to submit testimony for the record to the 
Committee today. Last summer, I had the opportunity to appear before 
the House Judiciary Committee as a witness on this same subject. 
Several individuals appeared before that Committee and eloquently 
presented their points of view. After listening to so many educated 
people express their points of view in such a convincing manner, I now 
understand that this is not a situation where one side has all the 
correct answers. Although, I respect the opinions of the people who 
favor the status quo, I firmly believe that eliminating an individual's 
legal opportunity to bet on a college football game is an absolute 
necessity. I arrive at this conclusion based on 40 years as a college 
coach and as an educator.
    Washington, we have a problem.
    The only possible solution is for Congress to pass legislation to 
prohibit legal gambling on college sports. I do not say this without a 
great deal of thought and meditation. Las Vegas is one of my favorite 
cities in the world. There is a reason why it is the fastest growing 
community in America, one of the most popular tourist spots, and an 
overwhelming favorite location for national conventions and 
conferences. I enjoy visiting there. But my reasons for supporting S. 
718 are many and varied.
    As the University of South Carolina football Coach, I can assure 
you of my genuine concern about gambling on college sports. We do 
everything we can to eliminate and educate our football players about 
it. But then you ask yourself, is this enough? I have been deeply 
affected by the recent scandal at Northwestern. I asked myself, how 
could Kevin Pendergast be involved in a point-shaving scheme at 
Northwestern? After talking to his family, I still do not know. I have 
heard his name bandied about as this issue is discussed. To my 
knowledge, no one has talked about his background. If you would indulge 
me and be kind enough, I would like to give you a few facts about a 
beautiful and talented young man who went astray.
    It was 1992, Kevin Pendergast was a senior soccer player at Notre 
Dame. I had never met him. Late in the year when Notre Dame was playing 
Tennessee, we lost a great kicker by the name of Craig Hendrick, who is 
an all-pro punter to this day, with a leg injury. The following day the 
soccer coach called and reminded me that Kevin Pendergast could be a 
good kicker. We accepted him on the team, but for the next four games 
he never appeared in a game.
    We accepted a Sugar Bowl bid to play a great University of Florida 
team. Craig Hendrick would be able to kick in the game. We took only 
one kicker with us to New Orleans. Four days before the game, my 
daughter visited the University of Notre Dame and was out socializing 
when she ran into a fellow student, Kevin Pendergast's brother. My 
daughter then informed me that Kevin's mother had cancer and was not 
doing very well. I said out of compassion, ``Let's bring Kevin down for 
the game. It would be good for him, but more importantly, it would be 
good for his mother.'' We called, he came, he dressed.
    Just before the half, Craig Hendrick was injured once again. Kevin 
was our only kicker. I was asked by ABC TV what would I do in the event 
of a field goal the second half and I said, ``we have no kicker. If you 
see us line up for a field goal, you will know it is a fake.''
    We were down by 10 at the half but made a great comeback. We scored 
32 second half points, and Kevin Pendergast kicked two critical field 
goals, made every single extra point, and was the hero of the football 
game. This exceptional performance from an individual who 4 days before 
had not even been a member of our football team. Kevin's mother died 
shortly after the outcome of the game. Kevin asked for a fifth year at 
the University of Notre Dame, which was granted. He kicked for us his 
last year.
    When I think about Kevin Pendergast, I do not think about the games 
he won. Instead, I think about him as a talented, witty, caring 
individual with morals and values. In addition, he could do a Ross 
Perot imitation that was worthy of being on prime time TV. I looked 
forward to following his success.
    Four years later, he is in jail. Where did he go wrong? I do not 
know. However, he did say this point-shaving incident could have never 
happened had he not had the opportunity to place the bet legally in 
Vegas. It was the only place that would have covered a bet that large.
    I am a great believer that life is a matter of choices and choices 
have consequences. Kevin made the wrong choice, as did the basketball 
players who shaved points. Their lives will never be the same. Did 
legalized gambling force Kevin to do this? Absolutely not. However, I 
do believe that the choice and the opportunity to cheat a system and 
make some easy money was very enticing. This decision has been made by 
people far too frequently.
    People in general, and college students in particular, have the 
belief that betting on college athletics is OK because it is legal in 
Nevada. And it is not just confined to the athletes, it is shared by 
the student body as well. We have a problem with gambling on college 
sports. Many people have ruined their lives because they have over-
gambled and got themselves in a situation where there is no other way 
out.
    We will do a great disservice to the youth of this country if we do 
not take action now. To make it illegal to bet on college athletics 
will not completely solve the problem. We must stop all betting on the 
Internet as well. I see no way that curbing betting on college sports 
can be accomplished without taking the first step to make betting on 
college athletics illegal in Nevada. If it is illegal to bet on college 
athletics in 49 States, why isn't it in the 50th State as well?
    As a football coach, I have witnessed our football players be 
idolized, praised, and cheered after a win. I have also witnessed them 
being ridiculed, demonized, and ostracized after a win. The only 
difference was in one case we covered the point spread, in the other we 
did not. I think that we have to do everything we can to remove this 
temptation and to stop the pressure this betting places on our young 
people.
    I will not take your valuable time to delve into all the important 
reasons why this bill should be passed, such as the integrity of the 
game, the importance of getting the point spreads off the sports page, 
and the fact that the National Gambling Impact Study Commission 
recommended that we ban betting on college sports. There are other 
important reasons as well. I will simply close with a phrase that I 
learned years ago and have observed as absolute truth through the 
years: abuse leads to restriction.
    We need restrictions because of the abuse that has resulted from 
legal betting on college sports--college students and athletes are the 
victims. Harry Truman, one of my heroes, said ``The freedom to swing 
your fist ends where the other guy's nose begins.'' The freedom to bet 
on athletic events should stop when college contests start. The fact 
that many college students' lives have been altered for the worst 
because of gambling cannot be disputed. However, it must be prevented. 
College sports is too important to the fabric of our society to 
jeopardize it. I urge this Committee to move quickly and pass S. 718.
    I thank you for this opportunity.
                               __________
      Prepared Statement of Charles J. Hynes, District Attorney, 
                         Kings County, New York
    Mr. Chairman, and Members of the Committee. Thank you for giving me 
this opportunity to submit my views on S. 718, the Amateur Sports 
Integrity Act.
    I am the District Attorney of Kings County, New York, also known as 
Brooklyn, New York, one of the five boroughs of New York City. Brooklyn 
has a population of nearly two-and-a-half-million people and is the 
seventh largest county in the United States and the largest county in 
New York State. I have been the elected District Attorney of Kings 
County since January 1990.
    Since I became District Attorney I have presided over annual 
gambling raids known as ``Operation Kings Flush'' (an acronym which 
refers to gambling and Kings County), which take place just prior to 
Super Bowl Sunday of each year. I have chosen Super Bowl Sunday to 
dramatize the enormous sums of money that flow to organized crime as a 
result of illegal gambling operations. Here is a sample of what we 
recovered in just the past 3 years.
    In January 1999, we raided eight illegal wagering sites in Brooklyn 
and Staten Island, New York, and seized betting slips valued at 
$200,000, $15,000 in cash and equipment that included computers, 
calculators, recording machines and telephones. Our analysis of the 
total amount of betting slips recovered, and information gathered by 
electronic surveillance, showed that this operation was capable of 
handling more than $100 million a year in illicit bets. The ten 
defendants arrested in this sweep were charged with felonies carrying a 
prison sentence of up to 4 years.
    In January 2000, we raided illegal sports betting locations in 
Brooklyn and Queens, New York. We seized betting slips in excess of 
$100,000, $15,500 in cash, and television sets, telephones, recording 
machines, computers, calculators and shredders. These locations, some 
taking in $50,000 per day, had a potential of handling more than $65 
million per year in illegal wagering.
    In January 2001, Operation Kings Flush focused on a mob controlled 
organization that operated in Brooklyn and Staten Island. A task force 
of 75 police officers from the Brooklyn District Attorney's Office and 
the New York City Police Department raided seven wire rooms and six 
homes of bosses and managers of illegal gambling operations. The 
raiders seized betting slips in excess of $90,000, $40,000 in cash and 
telephones, recording machines, calculators and computers. It was 
estimated that these operations handled $30 million in illegal bets 
each year. The Brooklyn District Attorney's Office filed a $3.8 million 
civil lawsuit against the bosses and managers of this operation, 
seeking forfeiture of their illegal gains.
    Since the inception of the Kings Flush Program, we executed over 
100 search warrants, we have arrested over 200 people and seized 
profits of over $3 million in forfeitures. If all of the records of 
these operations were tallied, the total receipts for these gambling 
operations over the past 10 years would be in excess of $1 billion.
    This staggering amount of revenue generated in the criminal world 
is of enormous benefit to organized crime operations. It is used to 
fund all other enterprises of organized crime, including stock market 
scams, loan sharking, narcotics, labor racketeering and mob-dominated 
construction projects.
    Although S. 718 has the well-intentioned purpose of addressing a 
serious problem on our college campuses, I am constrained to say that a 
prohibition against legal amateur sports betting in Nevada would have 
the detrimental effect of increasing revenues for organized crime and 
not ending the practices of influence peddling on college campuses. I 
do not believe that the elimination of Nevada sports books will stop 
college athletes from being induced into fixing games, nor will it end 
the proliferation of gambling on college campuses.
    As a lifetime career prosecutor, which includes having been Chief 
of the Rackets Bureau of the Kings County District Attorney's Office, 
as well as District Attorney, I am fully committed to fighting illegal 
gambling and all of the crime that is spawned by it.
    Let us not increase the cash cow of organized crime by eliminating 
legal amateur sports betting. Let us strengthen our efforts to 
prosecute organized crime and let us educate our young people about the 
dangers of gambling, as we do about the dangers of drug abuse.
    I am ready to assist the Committee in its efforts to address this 
very serious problem.
    Thank you.
                               __________
                              University of North Carolina,
                                                    April 20, 2001.
Hon. John McCain, Chairman,
Senate Commerce Committee
    Dear Senator McCain: I am writing; to express my support for the 
legislation you and Senator Brownback have introduced to extend the ban 
on betting on college and amateur sporting to every State.
    In 1992, the Congress enacted legislation to prohibit gambling on 
amateur sporting events. It seems to me that if a matter is serious 
enough to merit a Federal ban, the ban should apply to all States. Of 
course, from my point of view, if there is opposition to this 
legislation for all States to be included, you should draw up the 
legislation to allow any State the same benefit as Nevada if the State 
chose.
    The printing of point spreads in newspapers has long been a problem 
to me. In the mid-1980s, I spoke to the Associated Press sports editors 
on this subject with mixed reviews about point spreads beginning to 
appear in more and more legitimate newspapers. I should point out that 
a few days following that talk, I received a call from Ben Bradlee, the 
courageous publisher of The Washington Post, in which he wanted to know 
more about the problem. He indicated at that time that they would not 
print point spreads on college games, and The Washington Post has 
continued that courageous policy. I realize that you cannot stop 
newspapers from printing what they wish to print, but it does not seem 
correct to promote illegal betting odds in a daily newspaper. As 
Indiana coach Bobby Knight once said, there are no papers of which he 
was aware that print the telephone numbers of prostitutes where 
prostitution is against the law. Perhaps with the passing of this 
legislation, we would have a better stance in encouraging the removal 
of point spreads from our daily papers, which does encourage gambling 
on college games.
    I am not naive enough to think that closing the Nevada exemption 
will end gambling on amateur contests nor even ensure that scandals 
will not happen, but it could reduce the potential for corruption of 
young athletes and the staining of schools' reputations. I urge the 
Senate to act on this important legislation in this Congress.
            Sincerely,
                                        Dean Smith,
                                          Men's Basketball.
                               __________
       Prepared Statement of Nancy Price, North Las Vegas, Nevada
    My name is Nancy Price, I served as Regent of the University and 
Community College System of Nevada for 6 year. I support S. 718. On 
March 2, 2001, I testified against a resolution to Congress by the 
Nevada Legislature AJR 2. The following is a handout given to the 
committee. Frank Fahrenkopf, president of the American Gaming 
Association says there is a great deal of disinformation given to 
Congress. Brian Sandoval Chairman, Nevada Gaming Commission and former 
legislator refers to myths. There are basically six areas of 
disagreement and interpretation outlined in the handout. Nevada Gaming 
Control and the gambling industry are in lockstep. The legislature 
followed unanimously, but not without hearing another side--from the 
``soccer moms.'' There is another view on this issue in Nevada.
    Please take a moment to review the counter arguments to the gaming 
industry and gaming control in Nevada. Thank you.
                                 ______
                                 
    joint meeting of the assembly committee on judiciary and senate 
           committee on judiciary on a.j.r. 2, march 2, 2001

                 (By Nancy Price, Former Nevada Regent)

    Urges Congress to refrain from enacting measure to repeal ability 
of Nevada to license and regulate sports wagering in its current form.
    It's not the facts that matter; it's the interpretation of facts 
that move men.  Aristotle.
    Myth #1. Advocates of the ban are the radical religious right.
    Most agree that if the betting ban bills get to the floor of 
Congress, they will pass with bipartisan support from across the 
country. That doesn't sound like radical politics; rather it sounds 
like rational public policy. Gamblers have an understandable interest 
in defeating the national legislation. Media does as well because of 
their financial interest. Newspapers print betting lines even though it 
is illegal in their areas. Enormous amounts of money change hands for 
advertising. ``It was never intended that the First Amendment could be 
invoked as protection for the punishment of acts inimical to the peace, 
good order, and morals of society.'' United States Supreme Court (Case 
outlawing polygamy)
    Myth #2. Gambling is ``gaming'' a legitimate entertainment 
industry.
    If this is true, we don't need gaming control that has come to 
protect the industry rather than regulate it. Instead look to State of 
Nevada v. Rosenthal--Gaming is a privilege conferred by State and does 
not carry with it rights inherent in useful trades and occupations. 
Gambling was further defined as a ``tolerated nuisance.'' How is it 
that an agency can make it possible for bookies to take bets on UNR and 
UNLV? Why not the Regents or the legislature?
    Myth #3. Making college betting illegal will not stop the problem.
    If so we don't need lawmakers--just make everything legal. You're 
legislators, no law involving human behavior ever stops that behavior. 
Rather the laws you support or do not support make up our country's 
public policy. What kind of country gambles on its children?
    Myth #4. It's not the legal gambling that's the problem; it's the 
illegal gambling.
    In 1997 at the American Council on Education, Cedric Dempsey 
Executive Director of NCAA said that to me; my response, ``That's like 
saying it's o.k. to be hit with a defensive missile; it's only the 
offensive missile that hurts you.'' If you're suicidal over loosing 
everything, the fact that you lost it legally or illegally won't change 
your predicament. In the movie ``Bugsy'' Siegle says, ``We'll do 
legally in Nevada what's illegal everyplace else and we'll do it 
through the government.'' You, ladies and gentlemen are the government.
    Myth #5. If you make college sports betting illegal, it will shift 
to organized crime.
    Where there is legal gambling, there is an increase in illegal 
gambling according to studies. For an explanation see ex-FBI agent Bill 
Rohmer's book  The Enforcer. You're fine in a casino as long as you 
have money or credit cards. Lose that and you go to the underworld. We 
act as an incubator for the spread of gambling, and we make it look 
dignified and invite children.
    Myth #6. This is a States' rights issue.
    Gambling is a State issue within the meaning of the Tenth Amendment 
to the United States Constitution when you're talking about slot 
machines; craps; keno, etc. Inter-collegiate sports are inter-state 
commerce. If not then the 1992 Professional and Amateur Sports 
Protection Act is unconstitutional. Take it to court.
    In NCAA vs. Tarkanian, the Nevada legislature passed a bill 
requiring ``due process'' from NCAA. As part of the U.S. Supreme Court 
decision, it said Nevada could not enforce such a law because inter-
collegiate athletics is inter-state commerce and therefore Federal 
jurisdiction. A game between colleges in Connecticut and Wisconsin 
played in Florida has nothing to do with the jurisdiction of Nevada. 
Why is it that the gambling industry does not pay for the ``fair use'' 
of that game produced with taxpayer money?
    Future of gambling--cable through Nevada law.
    The X and Y generation want Survivor--reality TV and the gambling 
industry is ready for the worst case for addiction--alone at home with 
a credit card betting on every play or inning. But you will feel secure 
knowing that Nevada Gaming Control and the laws of Nevada protect you.
    There is a small window of opportunity to protect amateur 
athletics. Remember this, Bill Bradley U.S. Senator and NBA basketball 
player said the following October 1992 in a far more difficult economic 
climate.
    ``We all recognize the fiscal constraints under which States 
operate in these tough economic times,'' Senator Bradley said, ``but we 
must not forget the consequences of sports betting. Based on what I 
know about the dangers of sports betting, I am not prepared to risk the 
values that sports instill in youth just to add a few more dollars to 
State coffers . . . State-sanctioned sports betting conveys the message 
that sports are more about money than personal achievement and 
sportsmanship. In these days of scandal and disillusionment, it is 
important that our youngsters not receive this message. Sports betting 
threatens the integrity of and public confidence in professional and 
amateur team sports, converting sports from wholesome athletic 
entertainment into a vehicle for gambling. All of this puts undue 
pressure on players, coaches and officials. Sports would become the 
gamblers game and not the fans game.''
    He closed by congratulating his colleagues for acting in the best 
interest of youngsters and athletes--there was little media coverage--
almost none in Nevada where it should have been a big story.
                               __________
  State of Nevada Gaming Control Board, Carson City, Nevada
                                                        May 2, 2001
Hon. John Ensign, and Hon. Harry Reid.
    Dear Senators: It has come to my attention that certain Members of 
Congress are advancing an argument that Nevada played no role in the 
investigation, prosecution, and ultimate conviction of individuals 
involved in the Arizona State point shaving scandal. Attached please 
find an interoffice memorandum that describes the facts pertaining to 
the role Nevada played in this case. I hope this information is useful. 
Please contact me if you have any questions regarding this matter.
            Sincerely,
                                       Dennis K. Neilander,
                                                          Chairman.
                                 ______
                                 
                         interoffice memorandum
To: Paul Stolberg, Agent
From: Keith Copher, Chief of Enforcement
Subject: Arizona State Basketball Game Fixing Investigation
Date: May 8, 2001

    This is a brief chronological recap of the GCB's involvement in the 
investigation of game fixing of Arizona State Basketball games during 
the 1993/1994 season.
    On March 5th 1994, the GCB was called by the Horseshoe Race and 
Sports Book because of unusual betting observed on the Washington 
University/Arizona State basketball game. Agents of the Enforcement 
Division responded and obtained information regarding this activity. 
Joseph Gagliano (later convicted in the case) was identified as a 
bettor. Agents were then advised that unusual betting activity on the 
game was taking place at the Mirage. Agents responded, identified and 
interviewed the bettors. It was learned that these bettors had also 
placed wagers at the Treasure Island.
    Senior Agent Lloyd established a liaison with Arizona law 
enforcement and the local office of the FBI.
    Agent Keeton and I interviewed a number of race and sports book 
personnel and reviewed surveillance video. The result was the 
identification of several individuals involved in placing unusual bets 
on ASU games. Additionally, we identified two other suspicious games 
involving ASU. We obtained betting records for all 1993/1994 ASU 
basketball games from the major sports books. Agent Vetter performed 
financial analysis on this information. All this information was 
forwarded to the FBI and Arizona law enforcement agencies.
    In July 1994, I was contacted by the FBI and told that a Federal 
Grand Jury would be convened to look into the ASU case. I was asked to 
provide copies of our reports as well as copies of Agent Vetter's 
analysis. I was also asked to assist the FBI in obtaining needed casino 
documents for the grand jury and in arranging interviews of casino 
personnel.
    Several events, including the Oklahoma City Federal Building 
bombing, precluded the case from going rapidly forward as Special 
Agents of the FBI received higher priority assignments. However, the 
FBI continued to develop information from the individuals we had 
identified. As a result, several cooperating individual's began to 
identify the key people involved.
    In November 1997, I was again contacted by the FBI and requested to 
assist in serving subpoenas at casinos for casino records.
    In late 1997, the basketball players who had been involved admitted 
that they ``fixed'' the games for bookies. Indictments and arrests 
followed with convictions obtained against all those indicated. As late 
as March 1998, The U.S. Attorney's Office in Phoenix Arizona asked for 
copies of our case for his trial presentation and served me with a 
subpoena as a witness. The defendants ``made a deal'' and the trial did 
not take place. Our case was closed in December 1998, with the final 
sentencing for the defendants.
                               __________
                           National Basketball Association,
                                  National Football League,
                                    National Hockey League,
                                     Major League Baseball,
                                                       May 2, 2001.
Hon. John McCain, Chairman,
Committee on Commerce, Science and Transportation
    Dear Mr. Chairman: Your Committee recently held a hearing on S. 
718, a bill that proposes to end legalized gambling on amateur sports. 
Currently, under the Professional and Amateur Sports Protection Act of 
1992 (PASPA), gambling on both professional and amateur sporting events 
is illegal in virtually every jurisdiction, with the exception of a 
sports book in Nevada and a sports lottery on NFL games in Oregon. S. 
718 would partially close one of these loopholes, by eliminating the 
Nevada sports book on amateur games only.
    Our leagues support any reasonable effort to control sports 
betting. Nonetheless, we think that a college-only bill is flawed, and 
should be amended to prohibit gambling on professional sports as well.
    On at least three prior occasions, Congress has addressed the 
subject of sports gambling, but has never before distinguished between 
betting on amateur games and betting on professional games. In 1961, 
Congress maintained parity between amateur and professional sports when 
it made fixing athletic contests a Federal crime and banned interstate 
sports wagering over the telephone. The same approach was applied in 
1974 when Congress amended the Federal lottery laws to allow States to 
conduct lotteries, but expressly prohibited sports lotteries.
    In 1989, the professional sports leagues, in conjunction with the 
NCAA, sought an extension of the sports lottery ban to all forms of 
sports gambling. The legislative effort lasted for 3 years, culminating 
in the 1992 PASPA law. PASPA obviously made no distinction between 
professional and amateur athletics, and, indeed, was supported by 
definitive Congressional findings regarding the pernicious effects of 
gambling on both professional and amateur sports. When PASPA was 
considered in the Senate, it passed by 88-5.
    Although the movement for PASPA came from the professional leagues, 
and the Oregon lottery never included college games, the NCAA was an 
active partner in the effort to enact the 1992 law. On sports gambling, 
both then and subsequently, the professional leagues and the NCAA have 
been united.
    As we understand it, there are two primary rationales underlying S. 
718, both of which are grounded in the report of the National Gambling 
Impact Study Commission. The first relates to fixing athletic contests 
and the second to the attraction of sports betting as a gambling 
gateway for college students.
    With respect to the first issue, we understand the view that 
student-athletes may be exposed to economic temptation, but do not 
believe it is reasonable to conclude that these forces are only at work 
in college athletics. Indeed, all of the professional leagues take 
quite seriously the effect that gambling can have on the integrity of 
our games. All have adopted--and vigorously enforce--strict anti-
gambling policies that are intended to insulate professional athletics 
from the corrosive impact of sports betting.
    As to the attraction of sports betting to students, there is no 
reasonable basis to conclude that collegians are merely betting on 
college teams. If Congress wants to address gateway sports gambling, it 
cannot ignore the attraction to students of high-profile professional 
games. Indeed, that attraction will only increase if S. 718 is passed 
and betting on professional sports contests becomes the only lawful 
form of sports wagering in Nevada.
    Some would argue that the legislation must be limited to college 
games because that would implement a recommendation from the Gambling 
Commission. However, the mere introduction of S. 718 already breaks 
with the Commission, which recommended that the Nevada legislature, not 
Congress, end legalized gambling on amateur sports. Further, the 
Commission made a specific finding that sports betting is a gateway 
form of gambling for young people, a conclusion that merits Federal 
intervention. Amending S. 718 to include professional sports would be 
entirely consistent with--and would in no way contravene--the report of 
the Gambling Commission.
    We doubt that Congress intends to suggest that gambling on college 
games is harmful and undesirable, but that gambling on professional 
games is benign and tolerable. Nor do we believe that Congress seeks to 
instigate more gambling on professional contests, a result that is 
certain to occur if S. 718 extends only to gambling on amateur games. A 
college-only bill, though well-intentioned, only imperfectly solves 
problems at the college level, while creating new and substantial 
problems for professional sports.
    If Congress intends to re-open Federal sports gambling law, we urge 
that any such legislation maintain parity of treatment between amateur 
and professional sports. Any departure from this approach, to which 
Congress has consistently adhered, will result in a highly regrettable 
precedent that is needlessly damaging to professional sports.
    We ask that this correspondence be made a part of the official 
hearing record on S. 718. Thank you for your consideration of our 
views. We look forward to working with you on this legislation.
            Respectfully submitted,
                               Richard W. Buchanan,
                        Vice President and General Counsel,
                            National Basketball Association

                                   William L. Daly,
          Executive Vice President and Chief Legal Officer,
                                     National Hockey League

                                      Jeffrey Pash,
                                  Executive Vice President,
                                   National Football League

                                      Tom Ostertag,
                 Senior Vice President and General Counsel,
                     Office of the Commissioner of Baseball
  

                                  <all>

</pre></body></html>
